<html>
<title> - NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA) FISCAL YEAR 2007 BUDGET REQUEST</title>
<body><pre>[Senate Hearing 109-1143]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 109-1143
 
                    NATIONAL OCEANIC AND ATMOSPHERIC
         ADMINISTRATION (NOAA) FISCAL YEAR 2007 BUDGET REQUEST

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 16, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
67-239                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90f7e0ffd0f3e5e3e4f8f5fce0bef3fffdbe">[email&#160;protected]</a>  


       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 16, 2006................................     1
Statement of Senator DeMint......................................     3
Statement of Senator Inouye......................................     1
    Prepared statement...........................................     1
Statement of Senator E. Benjamin Nelson..........................     2
Statement of Senator Smith.......................................     3
    Prepared statement...........................................     4
Statement of Senator Stevens.....................................     1

                               Witnesses

Lautenbacher, Jr., Vice Admiral Conrad C., U.S. Navy (Retired), 
  Under Secretary of Commerce for Oceans and Atmosphere; 
  Administrator, National Oceanic and Atmospheric Administration 
  (NOAA), Department of Commerce.................................     4
    Prepared statement...........................................     7

                                Appendix

Response to written questions submitted to Vice Admiral Conrad C. 
  Lautenbacher, Jr. by:
    Hon. Maria Cantwell..........................................    57
    Hon. Jim DeMint..............................................    35
    Hon. Daniel K. Inouye........................................    41
    Hon. Gordon H. Smith.........................................    27
    Hon. Olympia J. Snowe........................................    29


                    NATIONAL OCEANIC AND ATMOSPHERIC
                 ADMINISTRATION (NOAA) FISCAL YEAR 2007
                             BUDGET REQUEST

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:32 p.m. in room 
SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good afternoon, Mr. Secretary----
    Admiral Lautenbacher. Good afternoon, Mr. Chairman.
    The Chairman.--Vice Admiral Lautenbacher. We're pleased to 
see you here.
    This should be a full-Committee hearing on the National 
Oceanic and Atmospheric Administration for Fiscal Year 2007 
budget request. We appreciate your being willing to testify 
here. This Committee is very interested in all of your 
missions.
    The numerous missions of NOAA are important to the Nation, 
and are particularly critical to my state, and, I'm sure, to 
several other members' states here. We benefit from the work 
done by your agency in fishery research, ocean mapping, Tsunami 
Warning Program, and even a few volcanoes.
    There is concern over the management of NOAA and how it 
will be better--can better perform all of its missions, and 
that's why we're having this hearing, to provide a useful 
discussion on the future of your agency and to try to 
understand the reasons for some of the changes in the budget 
presentation we've had.
    Mr. Co-Chairman do you have any comments opening the 
hearing?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you very much. I'd like to have my 
full statement made part of the record.
    But I would like to publicly commend your organization, 
NOAA, for the exceptional work you did prior to Katrina. Your 
forecasting was marvelous, as was your response after the 
storm. And, along with the Coast Guard, I think NOAA was one of 
the very few agencies that performed admirably prior to, 
during, and after the catastrophe. I just wanted to thank you 
very much, with the hope that, if the other agencies had 
responded the same way----
    The Chairman. Well, thank you----
    Senator Inouye.--we'd have had a better----
    The Chairman.--Senator.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    First and foremost, I want to publicly commend NOAA for its 
exceptional forecasting prior to Hurricane Katrina, and its effective 
response work after the storm passed. Along with the Coast Guard, NOAA 
was one of the few agencies that performed admirably prior to, during, 
and after the catastrophe. I just wish that its dire warnings had been 
taken more seriously.
    As representatives of the two states most affected by ocean and 
atmospheric issues, the Chairman and I are longtime supporters of NOAA 
and have spent our careers working to improve its capabilities and 
advance its service to the Nation. NOAA has steadily become a 
remarkable, national resource, and that is, in part, why I find its 
2007 budget proposal so disappointing.
    The U.S. Commission on Ocean Policy provided the country with an 
exhaustive list of well-researched recommendations for the future of 
the Nation's ocean policies, and I am proud that this Committee has 
pursued those recommendations aggressively.
    The Ocean Commission recommended substantial increases in spending 
on oceans, yet NOAA's pending budget essentially disregards this 
advice.
    It grossly underfunds a variety of key functions, and in some 
cases, completely eliminates programs that were considered critical in 
both the Commission's recommendations and the Administration's own 
``Ocean Action Plan,'' such as our marine debris removal efforts and 
the oceans and human health initiative.
    The President's budget also disregards NOAA's scientific and 
technological capabilities, which makes little sense in light of the 
President's recent interest in science and competitiveness. Ocean 
research and technology were at the forefront of the Ocean Commission's 
recommendations--from marine pharmaceuticals to satellite and observing 
technologies.
    NOAA is the agency where these kinds of advances will materialize, 
yet it is not even considered in the President's new initiative. There 
is a frustrating disconnect between what this Administration says is a 
priority and what it is actually willing to fund.
    Finally, I must mention my strong concerns about recent reports of 
political interference in Federal science agencies, particularly with 
regard to climate change. We have long relied upon NOAA as an unbiased 
source of scientific information and, based upon our confidence, have 
supported NOAA leading the government-wide Climate Change Science 
Program.
    Respectfully, it is not enough for the Admiral to simply say that 
scientists are not being pressured. We need him to investigate these 
charges fully and take strong measures to ensure that our scientists 
are protected. If he does not, we may need to ask the Commerce 
Department's Inspector General to look into this matter.

    I think, Senator Nelson, you were here next.

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Ben Nelson. Thank you, Mr. Chairman. And thank you 
for holding the hearing today. I'm going to keep my comments 
brief, because I know we're all interested in hearing Vice 
Admiral Lautenbacher's testimony.
    I did want to bring up one issue of great importance to 
Nebraska. We may not be quite as concerned about our volcanoes 
in Nebraska as perhaps some of my colleagues in other states 
might be, but we are concerned about what's happening at NOAA 
in the area of climate research, especially as it relates to 
drought forecasting.
    Over the past several years, the drought conditions have 
been plaguing a great part of our country, and particularly in 
the State of Nebraska. And, of course, the impacts of drought 
are devastating, in their own way. And my understanding is that 
the Disaster Prevention and Prediction Subcommittee, of which I 
am the Ranking Member and our Chairman is here today, we're 
going to be holding a hearing on drought in April, where we're 
going to explore the issue in more depth. But I'd like to touch 
on the issue today as it relates to budgeting within NOAA.
    I'm especially interested in hearing what efforts NOAA is 
making to improve prediction and monitoring of drought, and 
what the status is of NOAA's implementation of the National 
Integrated Drought Information System.
    I can't emphasize enough the dramatic effect that drought 
has had on the economy of Nebraska and many of our neighboring 
states, so I look forward to hearing what NOAA is doing in this 
area.
    And thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Senator DeMint?

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman.
    And thank you, Admiral, for being here today. As you know, 
after the Katrina disaster, I was one of a number of folks who 
commended NOAA for how precisely you were able to predict the 
storm and what would happen afterwards, and, I think, in doing 
that, saved countless lives. We appreciate that very much.
    We know you're here today to talk about NOAA and the 
management of NOAA, maybe things that we can do better. As part 
of that, in putting the monkey on our back a little bit, I 
hope, after your testimony, to talk to you a little bit about 
what Congress does that maybe makes it more difficult for NOAA 
to set its own priorities and to carry out its mission.
    As you know, there were about 227 Members of Congress who 
had some designated projects, and--not a bill, but in the 
Committee reports that spends roughly a half-billion dollars of 
your budget, and tells you how to spend it. And we can talk a 
little bit about that later. And I--but instead of taking your 
time, I will yield back, Mr. Chairman, and ask my questions 
later.
    The Chairman. Surely.
    Senator Smith?

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman.
    I want to thank the Admiral for being here, and for all the 
work that NOAA does. We, like the Chairman, occupy a good deal 
of the Pacific Coast, and about every few hundred years we have 
tsunamis the magnitude of what happened in Indonesia, and there 
is some concern whether we're doing enough to prepare for 
those. And so, I look forward to hearing what you're doing on 
tsunami preparation, and I'll put my statement in the record.
    [The prepared statement of Senator Smith follows:]

  Prepared Statement of Hon. Gordon H. Smith, U.S. Senator from Oregon

    Mr. Chairman, I want to thank you for holding this hearing. I also 
want to thank our witness, Admiral Lautenbacher, for being here today.
    This past November, I held a town hall meeting in Newport, Oregon, 
a town located on the Oregon coast. I heard a number of concerns about 
funding to support the regional council process and improve stock 
assessments. I also heard a great deal of fear from folks who were 
concerned that we have not done enough to prepare our coastal 
communities for a potential tsunami.
    The Cascadia Subduction Zone lies approximately 70 miles offshore 
of the Pacific Northwest. Research has shown that the Cascadia Zone has 
unleashed massive earthquakes off the coast of Pacific Northwest every 
few hundred years. The last such quake occurred in January 1700. This 
event was similar in magnitude to the Sumatra earthquake and sent huge 
tidal waves barreling into the shores of the Pacific Northwest.
    Given the proximity of the subduction zone to the coast, scientists 
estimate that from the time the fault line ruptures, people on the 
southern Oregon coast will have about 5 to 10 minutes to evacuate. 
Warning and detection systems are important, but if and when an 
earthquake occurs along the Cascadia Subduction Zone, detection systems 
will be of little use to our coastal residents. People in our coastal 
towns must know where to go and what to do when the ground begins to 
shake.
    To protect the safety of our coastal residents, we must continue to 
work with our state and local partners to accelerate tsunami inundation 
zone mapping and ensure contingency plans are in place for rapid 
evacuation of vulnerable low-lying communities.
    I look forward to your testimony today, and again, I want to thank 
you for being here.

    The Chairman. Thank you very much, Senator.
    Admiral, we have your written statement. We're not going to 
put any time limitations on you at all. We want you to tell us 
in full what you think we should know about this budget and 
your plans for the future years. And then we'll ask our 
questions.
    Thank you very much.

       STATEMENT OF VICE ADMIRAL CONRAD C. LAUTENBACHER,

     JR., U.S. NAVY (RETIRED), UNDER SECRETARY OF COMMERCE

FOR OCEANS AND ATMOSPHERE; ADMINISTRATOR, NATIONAL OCEANIC AND 
               ATMOSPHERIC ADMINISTRATION (NOAA),

                     DEPARTMENT OF COMMERCE

    Admiral Lautenbacher. Thank you, Mr. Chairman, Mr. Co-
Chairman, distinguished members of the Committee, and 
distinguished staff members. It's, indeed, a great honor and a 
privilege to testify before you today on behalf of NOAA's 2007 
budget request.
    And, again, let me emphasize that we--on behalf of all NOAA 
employees and our constituents, we thank you for your 
involvement and your interest and your support of our programs 
over the years. It means a great deal to the folks who work 
hard to serve the American public. Thank you very much.
    At NOAA--and I, again, appreciate the statement, I would 
like to make a short oral statement to set the stage for this 
year's deliberation--we work hard at NOAA to protect lives and 
livelihoods. We provide products and services that benefit the 
economy, the environment, and the public safety of the Nation. 
I think everybody will agree that last year we witnessed 
natural disasters on an unprecedented scale, including a 
tsunami in South Asia right before the beginning of the year. 
We had earthquakes in Pakistan. We had hurricanes. We've had 
volcanic activity. We've had drought and wildfires here in the 
United States. And, of course, in 2005, we experienced the most 
active Atlantic hurricane season in history, resulting in 
devastation unlike anything the Nation had witnessed before. 
And, even as we speak here today, we are battling drought and 
wildfires in the Midwest and sporadic eruptions of St. 
Augustine in Alaska. Never in our Nation's history has the need 
to understand our weather and our environment been so great. 
And never before, I think, has our organization been eager to 
take on these challenges. We have a very committed group of 
people who work hard for the country.
    Our budget request this year is $3.684 billion, which 
supports NOAA's priority to advance the mission-critical 
services that support the country. This request includes the 
level of resources necessary to carry out our mission, which is 
to understand and predict changes in the Earth's environment 
and to conserve and manage coastal and marine resources to meet 
our Nation's economic, social, and environmental needs.
    Before I discuss the details of the 2007 budget request, I 
want to highlight, I think, one accomplishment that's worthy of 
noting for the record that--and you have mentioned it, as 
well--and that is the performance of the one NOAA organization 
that we've worked hard to build over the last 4 years in 
regards to Hurricane Katrina and the response thereafter. Our 
forecasts and warnings for Katrina and Rita pushed the limits 
of hurricane prediction. The forecasts were more accurate than 
ever for storm track, size, intensity, surge, and warning lead-
time. We did not end that work with the forecast, we responded 
immediately by providing aerial images and analyzing satellite 
images to help the emergency responders, as well as individual 
citizens, assess the situation, determine impacts, and begin 
immediate recovery.
    We sent our scientific support coordinators to address 
nearly 400 hazardous-material spills and provide their 
expertise in cleaning them up as soon as possible. We sent our 
navigation response teams to survey for obstructions to 
navigation in the critical ports and waterways. We diverted 
NOAA ships Thomas Jefferson and Nancy Foster from planned 
missions to areas impacted by the hurricanes and helped collect 
data needed to reopen the critical Gulf Coast ports and to 
assess impacts on Gulf Coast ports and fisheries. We partnered 
with State and Federal agencies to study the effects of the 
storms on the abundance, the distribution, and the safety of 
seafood in the northern Gulf. To date, those surveys have 
resulted in the fact that seafood samples indicated no toxic 
contamination above FDA guidelines. The fish in the Gulf are 
safe to eat. I want everyone to know that the seafood is safe 
and that, with our partners, we will continue monitoring 
activities to ensure that safe seafood products are available 
to our customers and to consumers across the Nation.
    Our budget in 2007 aligns with the agency's mission goals, 
ecosystem management, approaches to management, climate, 
weather, and water, commerce and transportation. Additionally, 
we have an overarching mission-support goal which ensures that 
we have the people, the equipment, and the facilities needed to 
serve the Nation. As such, adjustments, as I have stated in 
years past, for inflationary costs are the highest-priority 
budget increase for us in 2007. These adjustments focus on 
maintaining and investing on a highly trained, educated, and 
dedicated workforce.
    Other high-priority mission-support activities include 
increases of $124 million for satellite continuity and funding 
to build the next generation of weather satellites, which are 
vital to our ability to forecast these severe weather events 
that we have just gone through.
    The 2007 request includes $7.5 million to include support 
for our marine operations for NOAA ships, and $13.8 million to 
modernize our fleet, assets that were absolutely essential 
during our hurricane response.
    The 2007 budget request also includes significant resources 
for NOAA's ocean and coastal programs, fisheries, and protected 
species activities in support of the Ocean Action Plan. 
Highlights of our net increase of $108 million include 
initiatives to advance our approaches to managing our coastal 
and ocean resources, to improve collaboration and planning with 
coastal state managers, and expansion of NOAA's Habitat 
Restoration Program to the Great Lakes. Specifically, large 
items include the request for $19.7 million for fisheries 
activities in the Gulf of Mexico, which has been drastically 
affected by the severe weather from last year, and a $22.5 
million increase for protected species.
    In the area of climate services, our requests include 
additions to help predict current and future impacts of climate 
events such as droughts and floods and trends in extreme 
climate events. We're requesting $6 million to continue 
building the ocean component of the Global Observing System, 
including floats, buoys, and tide gauges.
    Another key investment is the request for $4 million for 
research to increase our understanding of droughts, connected 
and through the National Integrated Drought Information System, 
or NIDIS. This effort will aid decisionmakers across the 
country who are faced with difficult drought and water resource 
management decisions.
    Our budget request includes a $13.5 million increase for 
the President's Climate Change Science Program. This program is 
responsible for coordinating and integrating federally funded 
research, observations, and decision-support activities related 
to climate variability and climate change. The CCSP climate 
research priorities of near-term focus for 2007 include 
improving our climate models and better understanding of levels 
of carbon in North America.
    In the area of weather and water, our services make a 
tremendous contribution to the Nation's health and economic 
viability. Weather warnings protect the public from extreme 
environmental events, while forecasts are essential to weather- 
and climate-sensitive industries, which account for one-third 
of the Nation's GDP.
    Our budget request includes $46.1 million to sustain and 
improve weather forecasts and warnings. Specifically, they're 
at $21.4 million to operate and maintain the enhanced U.S. 
Tsunami Warning Network and System. Funds will be used to 
operate and maintain the newly expanded DART buoy systems, new 
sea-level monitoring stations, upgraded local seismic networks 
supporting the West Coast, Alaska, and Pacific Tsunami Warning 
Centers, and to operate both centers as 24/7 hands-on 
operational centers.
    The request also includes $17 million for improvements to 
hurricane track and intensity forecasting. We are focusing our 
efforts on increased observations, improved modeling, and the 
acceleration of getting that research into operational 
forecasts.
    We appreciate very much the funding that Congress provided 
to NOAA in the hurricane supplemental, and we are putting it to 
good use. We are requesting, in this year's budget, an increase 
of $1.4 million to operate and maintain the seven new hurricane 
data buoys deployed in the Caribbean, Gulf of Mexico, and the 
Atlantic. These buoys will help provide more information that's 
critical to improving hurricane forecast models.
    In the transportation area, remember that the value of U.S. 
international trade has increased from $889 billion in 1990, 
now to about $2 trillion in 2003. The U.S. marine 
transportation system carries as much as 95 percent of this 
trade, more than any other transportation mode. NOAA's products 
and services help maintain the efficient flow of transportation 
and commerce. These products include weather and ice forecasts, 
real-time and forecast water-level conditions, and obstruction 
surveys, navigational charts, hazardous-material response, and 
satellite search and rescue. The 2007 budget includes a 
requested increase of $19.5 million for our commerce and 
transportation programs, including $10.5 million to address the 
nautical survey backlog and $5 million for critical mapping, 
charting, and data improvements.
    I do, indeed, understand very well the difficult budgetary 
times under which we must operate. Now, our budget provides 
modest new investments in priority areas, while maintaining 
critical services.
    I am, indeed, proud of the work and the people of NOAA. 
It's an honor to be serving with them. We will build on our 
successes from last year, and we stand ready to meet future 
challenges.
    As I close, again, let me thank you for the support and 
interest and concerned involvement of the Members of this 
Committee and staff. Without your assistance, we would not be 
the agency that we are today.
    Thank you very much, Mr. Chairman. I'm happy to respond to 
any questions that the Committee may have.
    [The prepared statement of Vice Admiral Lautenbacher 
follows:]

 Prepared Statement of Vice Admiral Conrad C. Lautenbacher, Jr., U.S. 
Navy (Retired), Under Secretary of Commerce for Oceans and Atmosphere; 
Administrator, National Oceanic and Atmospheric Administration (NOAA), 
                         Department of Commerce

    Mr. Chairman, and members of the Committee, before I begin my 
testimony I would like to thank you for your leadership and the 
generous support you have shown the National Oceanic and Atmospheric 
Administration (NOAA). Your continued support for our programs is 
appreciated as we work to improve our products and services for the 
American people. Thank you for the opportunity to testify on the 
President's Fiscal Year (FY) 2007 Budget Request for NOAA.
    In the last year we have witnessed natural disasters on an 
unprecedented scale, including a tsunami in south Asia, earthquakes in 
Pakistan, and hurricanes, volcanic activity, drought and wildfires here 
in the United States. As a Nation, we labored to rebuild the nations 
and lives destroyed by the December 26, 2004 tsunami in south Asia, and 
this catastrophic event focused the spotlight on the threat tsunamis 
pose to all coastal communities. In 2005, we experienced the most 
active hurricane season in history with Hurricanes Katrina, Rita, and 
Wilma battering the Gulf Coast and Florida, resulting in devastation 
unlike anything the Nation had witnessed before. Even now we are 
battling drought and wildfires in our Midwest and plain states, and 
sporadic eruptions of St. Augustine in Alaska. Never in our Nation's 
history has the need to understand the weather and our environmental 
resources been so great, and never before has NOAA stood more ready to 
face the challenges ahead.
    The FY 2007 President's Budget supports NOAA's priority to advance 
mission-critical services. The FY 2007 request is $3.684B, which 
represents a $345M or 10.3 percent increase over the FY 2007 base. This 
request includes the level of resources necessary to carry out NOAA's 
mission, which is to understand and predict changes in the Earth's 
environment, and conserve and manage coastal and marine resources to 
meet our Nation's economic, social and environmental needs. At NOAA we 
work to protect the lives and livelihoods of Americans, and provide 
products and services that benefit the economy, environment, and public 
safety of the Nation. Before I discuss the details of our FY 2007 
budget request, I would like to briefly highlight some of NOAA's 
notable successes from the past Fiscal Year (2005).

                        FY 2005 Accomplishments

NOAA Provided Critical Information and Support Before and After 
        Hurricane Katrina
    NOAA's National Weather Service is the primary source of weather 
data, forecasts and warnings for the United States and its territories. 
NOAA's forecasts and warnings for Hurricane Katrina and Hurricane Rita 
pushed the limits of state-of-the-art hurricane prediction. The 
National Weather Service operates the most advanced weather and flood 
warning and forecast system in the world, helping to protect lives and 
property and enhance the national economy. In partnership with DOD, 
NASA, NSF, and other Federal agencies, the long-term continuous 
research efforts, including observations, modeling, and expanded 
computational resources have led to NOAA's current predictive 
capabilities and improved ways of describing uncertainty in prediction. 
Reconnaissance data from NOAA and Air Force Reserve aircraft provided 
critical date required for accurate hurricane prediction. Hurricane 
forecasts for Katrina and Rita were more accurate than ever for storm 
track, size, intensity, surge, and warning lead time, allowing for 
evacuation of 80 percent of New Orleans, and 90+ percent of Galveston.
    NOAA's work did not end with the forecast. NOAA responded 
immediately to the destructive 2005 hurricanes by providing over 9,500 
aerial images of the impacted coastline to help emergency responders 
assess the situation, analyzing satellite imagery to determine the 
coastal impacts, sending Scientific Support Coordinators to address 
nearly 400 hazardous material spills, and Navigation Response Teams to 
survey for obstructions to navigation in critical ports and waterways 
to allow relief supplies to be delivered and maritime commerce to 
resume. NOAA ships THOMAS JEFFERSON and NANCY FOSTER were diverted from 
planned missions to areas impacted by the hurricanes and helped collect 
data needed to reopen critical Gulf Coast ports and to assess impacts 
on Gulf Coast ports and fisheries. Readings from NOAA's National Water 
Level Observation Network (NWLON) tide stations in the region provided 
emergency responders with real-time storm tides, and are now invaluable 
data that can be used in planning the rebuilding of the coast.
    NOAA capabilities continue to support the impacted areas with 
response to spills and maritime incidents. NOAA has invested more than 
$3.7M in 2005 grant funding to Gulf States to build, and in some cases 
re-build, their infrastructure and capacity to determine and deliver 
consistent and timely geodetic height information. Accurate land and 
water level heights are critical to determining effective highway 
evacuation routes, levee heights, storm surge modeling, flood plain 
mapping, sea level rise calculations, vessel under-keel and bridge 
clearance, subsidence monitoring, and restoration of coastal habitats.

NOAA Continues to Lead the Advancement of the Integrated Earth 
        Observing System
    NOAA led the development and is now leading the implementation of 
the Strategic Plan for the U.S. Integrated Earth Observing System, 
through the U.S. Group on Earth Observations (USGEO). At the third 
Global Earth Observation Summit held in February 2005 in Brussels, the 
10-year implementation plan for a Global Earth Observation System of 
Systems (GEOSS) was endorsed. By endorsing the plan, the nations have 
accomplished the first phase of realizing the goal of a comprehensive, 
integrated, and sustained Earth observation system.
    One of the Nation's highest technical priorities is to build 
integrated, global Earth observations. We need to build, on a global 
basis, the capability to observe the Earth in many dimensions and time 
scales, and improve the scientific basis for using those observations 
to predict weather conditions, understand climate trends, and reveal 
the complicated physical and biological relationships that shape the 
health and productivity of our ecosystems. GEOSS is an excellent 
example of science serving society. Over time, GEOSS will provide an 
important scientific basis for sound policy and decisionmaking in every 
sector of our society including energy, public health, agriculture, 
transportation and numerous other areas that shape the quality of 
everyday life. In addition, it will enhance our capability to address 
natural disasters in the United States and throughout the world.

NOAA's Successful Satellite Launch Ensures Continuity and Improved 
        Collection of Data
    A major component of GEOSS is NOAA's satellite program. NOAA-N was 
successfully launched from Vandenberg Air Force Base, California on May 
20, 2005. Upon achieving orbit NOAA-N became NOAA-18 and was declared 
operational on August 30, 2005, as the primary afternoon satellite in 
the Polar Operational Environmental Satellite (POES) constellation. 
NOAA-18 marks the beginning of the NOAA and the European Organization 
for the Exploitation of Meteorological Satellites (EUMETSAT) Initial 
Joint Polar System (IJPS) agreement. The IJPS project comprises two 
NOAA polar satellites (NOAA-18 and NOAA-N Prime) and two EUMETSAT 
satellites (Metop A and Metop B). The IJPS agreement gives NOAA and 
EUMETSAT the ability to share satellite instrument data and products. 
Coordination among nations with different global observing systems is a 
cornerstone to the success of the GEOSS mission.

Recovering Threatened and Endangered Salmonids
    Efforts to conserve and recover the Nation's protected marine 
resources have made steady progress, as reported in the National Marine 
Fisheries Service (NMFS) 2004 Biennial Report to Congress on the 
recovery program for threatened and endangered species, published in 
August 2005. In recent years, the abundance of both hatchery-reared and 
naturally spawning populations of listed salmon and steelhead has 
generally increased. Improvements are seen in many salmon populations--
16 of 26 species or evolutionarily significant units (ESU) of Pacific 
salmon are stable or increasing, six more than had been anticipated at 
this time.

NOAA Begins Expansion of U.S. Tsunami Warning Program; Prevents 
        Costly and Unnecessary Evacuations on West Coast
    In response to the December 26, 2004 Indian Ocean tsunami, the 
Administration committed to expand the U.S. Tsunami Warning Program. A 
multi-year implementation plan, developed with supplemental funding in 
FY 2005, will improve the Tsunami Warning and Mitigation System and 
Tsunami Forecast System. Improvements in FY 2005 included: providing 24 
hours a day, 7 days a week (24/7) operations at NOAA Tsunami Warning 
Centers, seismic monitoring, and improved community preparedness 
through NOAA's TsunamiReady program. NOAA also utilized the 
experimental Tsunami Forecast System to accurately predict a tsunami 
off the coast of Oregon, following an approximately 7.2 magnitude 
earthquake off of the northern California coast in June 2005. Within 5 
minutes of the June 14 earthquake, NOAA's West Coast/Alaska Tsunami 
Warning Center issued a tsunami warning for areas within a 2-hour wave 
travel time, which included coastal areas from the California-Mexico 
border to the northern tip of Vancouver Island, B.C. The warning was 
canceled about an hour later, after NOAA tide gauge and Deep-ocean 
Assessment and Reporting of Tsunamis (DART) buoy station data indicated 
the 10-15 cm wave would be non-destructive. Cancellation of the tsunami 
warning prevented unnecessary, and potentially costly, evacuations of 
people from the Oregon coast. For example, the accurate forecasting of 
a non-destructive tsunami in November 2003 saved Hawaii an estimated 
$68M in projected evacuation costs.
    The expanded U.S. Tsunami Warning System will be one of the systems 
contributing to a global tsunami/all-hazards warning system, joining 
the emerging Indian Ocean system and a planned Mediterranean/North 
Atlantic system.

NOAA and EPA Urge Americans to ``Be Air Aware''
    Air quality forecasts produced by NOAA and the Environmental 
Protection Agency (EPA) were enhanced and expanded to better serve more 
regions of the United States. Forecast information for ground-level 
ozone has been available for the northeastern United States, and will 
now include areas from just east of the Rocky Mountains to the Atlantic 
and Gulf Coasts. Hour-by-hour forecasts, which look out to midnight the 
following day, are available online at: http://www.weather.gov/
airquality. These forecasts provide information to more than 180 
million people on the onset, severity, and duration of poor air 
quality. State and local air quality forecasters use this information 
as a tool in issuing next-day alerts for poor air quality to more than 
300 communities.

New NOAA Physical Oceanographic Real-Time System (PORTS<SUP>'</SUP>)
    The Columbia River is now the 13th major waterway in the United 
States to install a NOAA Physical Oceanographic Real-Time System 
(PORTS<SUP>'</SUP>). PORTS<SUP>'</SUP> support safe, cost-efficient 
marine transportation by providing accurate real-time oceanographic and 
meteorological data. Managed by NOAA, the system is operational and 
serving the Columbia River maritime community. Nearly 48 million tons 
of cargo transits through the Columbia River annually; vessel operators 
must know the depth of the water in order to maximize ship efficiency 
and minimize groundings and accidents. In port areas, water levels and 
currents frequently differ from predictions, as a result of changes in 
winds and water run-off. PORTS<SUP>'</SUP> provides accurate real-time 
information needed to make marine transportation both safe and 
efficient. The Tampa Bay economy receives more than $7M a year in 
savings and direct income from the operation of PORTS<SUP>'</SUP>. 
Users of PORTS<SUP>'</SUP> information include port authorities, vessel 
pilots, shipping companies, U.S. Coast Guard, U.S. Navy, recreational 
boaters, fishermen, coastal managers, environmental organizations, 
academia and surfers. PORTS<SUP>'</SUP> information is available online 
at http://tidesandcurrents.noaa.gov/d_ports.html.
Significant Progress in Modernizing NOAA's Fleet of Ships
    NOAA's newest world class fisheries survey vessel (FSV), OSCAR 
DYSON, was delivered, commissioned and began operations collecting data 
to manage fishery stocks and protect marine mammals from its home port 
of Kodiak, Alaska. NOAA launched the second FSV, HENRY B. BIGELOW, 
which will be delivered in May. Construction began on FSV #3, and NOAA 
exercised the option to build FSV #4. In addition, a contract was 
awarded and conversion begun in 2005 on the former Navy T-AGOS vessel 
CAPABLE, which will be NOAA's first ship devoted to ocean exploration. 
Through a national ship-naming contest, CAPABLE will be re-commissioned 
OKEANOS EXPLORER.

                   FY 2007 Budget Request Highlights

Support People and Infrastructure
    As always, I support NOAA's employees by requesting adequate 
funding for our people, infrastructure, and facilities. NOAA's core 
values are people, integrity, excellence, teamwork, and ingenuity. Our 
ability to serve the Nation is determined by the quality of our people 
and the tools they employ. Adjustments for inflationary costs are the 
highest priority budget increase in FY 2007. These adjustments have 
been concentrated in the National Weather Service, which has labor-
intensive 24/7 forecasting operations. These adjustments focus on 
maintaining and investing in our workforce and supporting NOAA's most 
important resource--our people.
    This year, we focus our infrastructure improvements on our core 
mission to observe and monitor the Earth. Central to this mission is 
the operations and maintenance of NOAA vessels and critical 
enhancements to marine safety, facility repair and modernization. Out 
of nearly $150M in Mission Support program increases, $7.5M will 
support Marine operations for NOAA ships; $13.8M will be used to 
modernize our fleet; $4M will go toward education and training. Only 
upon a strong foundation can we fulfill our mission.
    The backbone of the NOAA infrastructure is our integrated 
observation effort, including building state-of-the-art satellite 
programs. NOAA serves with NASA and OSTP as lead for the Federal 
Government in developing our U.S. integrated observing strategy. In 
addition, I serve as one of four intergovernmental Co-Chairs of the 
effort to develop the Global Earth Observation System of Systems. The 
FY 2007 NOAA budget request includes significant increases to support 
requirements for NOAA's leading role in building an integrated earth 
observing system. NOAA integrated observation efforts include state-of-
the-art satellite programs, including a requested increase of $20.3M 
for the tri-agency National Polar-orbiting Operational Environmental 
Satellite System (NPOESS), which will replace the Polar Operational 
Environmental Satellite (POES) program after completion of the current 
K-N' series of satellites. As you are aware, the NPOESS program has 
encountered significant cost and schedule overruns, which are not 
included in the FY 2007 request. NPOESS is currently undergoing a 
recertification review in accordance with Nunn-McCurdy requirements. 
This review will shape the way forward and future budget requirements. 
The Department of Defense request for NPOESS matches the NOAA request, 
as part of the shared funding arrangement.
    The Geostationary Operational Environmental Satellite (GOES) 
program requested increase for FY 2007 of $104M supports continuity of 
essential weather satellite coverage with advanced capabilities for 
supporting the Nation's severe weather events, such as hurricanes. The 
2005 hurricane season illustrated a need for continued support in this 
area. FY 2007 funds will be used to continue the operation and 
acquisition of our current GOES series and move the development of the 
next-generation GOES series, GOES-R, into the system acquisition phase 
of its procurement. GOES-R is scheduled for launch in 2012.
    The FY 2007 President's Budget builds on funding provided in the 
past two fiscal years ($14.5M in the FY 2005 supplemental appropriation 
and $9.5M in the FY 2006 appropriation) by requesting an additional 
$12.4M to operate and maintain the strengthened U.S. Tsunami Warning 
Network. Funds will be used to operate and maintain the newly expanded 
DART buoy systems, new sea-level monitoring stations, the upgraded 
local seismic networks supporting the West Coast/Alaska and Pacific 
Tsunami Warning Centers, and to operate both centers as 24/7 Operation 
Centers. An increase of $1.4M is needed to operate and maintain the 
seven new data buoys deployed in 2005, which enhance real-time 
hurricane data and observations and storm monitoring in the Caribbean, 
Gulf of Mexico, and the Atlantic.
    The President's FY 2007 request also includes $13.7M in increases 
for core administrative functions. This request includes increases for 
information technology and for administrative support services to the 
individual line offices. These increases are necessary to implement, 
operate, and maintain the NOAA enterprise IT security architecture and 
to maintain the levels of direct administrative, technical, human 
resources, financial and security services which are crucial in 
achieving NOAA's mission.

Invest in Ecosystems Management and Research
    In FY 2007, NOAA proposes increases of $19.7M for fisheries 
activities in the Gulf of Mexico. The additional support will help a 
variety of fisheries in this region, which has been greatly impacted by 
hurricanes Katrina, Rita, and Wilma. NOAA has also identified the Gulf 
of Mexico as a priority large marine ecosystem for new funding due in 
part to the region's readiness to implement a Regional Ecosystem Plan 
and in part to the socioeconomic value of its fisheries. This increase 
will enhance data collection, improve estimates of socioeconomic 
benefits and costs associated with our management regimes, and enhance 
research to reduce bycatch and reduce harm to protected resources 
during commercial and recreational fishing. Expected benefits are 
increased knowledge of fish species through stock assessment studies; 
increased knowledge of impacts to fishing communities through socio-
cultural surveys; and increased knowledge of the impacts of hurricanes 
on the commercial and recreational fisheries in the Gulf of Mexico 
ecosystem. As the Gulf region rebuilds, these programs will ensure that 
adequate science and management resources are available to promote and 
support sustainable and robust fisheries. Some of the individual 
components of the initiative are discussed below.
    The FY 2007 budget request includes significant resources for 
NOAA's ocean and coastal programs, and fisheries and protected species 
activities in support of the President's U.S. Ocean Action Plan. 
Highlights of our net increase of $107.6M include initiatives to 
advance ecosystem-based approaches to managing our coastal and ocean 
resources. Among these requests are $11.2M for Habitat Conservation, 
$22.5M in Protected Species, and $31.9M for Ecosystems and Fisheries 
and Research and Management. With this funding, NOAA will extend our 
Habitat Restoration Program to the Great Lakes, expand dedicated 
fishery access privilege programs, improve regional collaboration and 
planning of coastal state managers to improve management of coastal 
watersheds and marine resource areas, and enhance observing and 
information delivery systems to inform the public. NOAA requests an 
increase of $7.6M to increase and improve assessments of fish stocks, 
which includes support to assist the Southeast and Gulf regions in 
recovering from hurricane damage. Also included in the request is a 
$22.5M increase for protected species to investigate ocean noise and 
its effects on the recovery of protected species, expand and modernize 
stock assessments, complete Endangered Species Act (ESA) mandated 
activities, and pilot proactive conservation efforts for species 
nearing the need for ESA listing, preventing additional listings.
    NOAA is requesting $6M in funding to support the Open Rivers 
Initiative, a major project that is a result of the Administration's 
Executive Order on Cooperative Conservation. This new Initiative will 
contribute to the repair of vital riverine ecosystems, benefit 
communities, and enhance populations of key species--all using a 
grassroots, consensus-based approach. To date, NOAA has received over 
60 very deserving applications responding to its call for proposals, 
highlighting the nation-wide attention that this Initiative has already 
attracted.
    By applying innovative strategies to improve internal and external 
coordination and integration based on ecosystem principles, and by 
establishing baselines and integrated observations of ecosystem 
indicators, NOAA will increase the effectiveness of its many program 
activities intended to produce healthy and productive ecosystems that 
benefit society. Initiating ecosystem approaches to management requires 
better monitoring and characterization, and more effective integration 
and collaboration among NOAA programs and its external partners. The 
requested budget increases allow NOAA to meet its responsibilities as 
stewards of living marine resources for the benefit of the Nation, 
through science-based conservation and management and the protection of 
ecosystem health.

Expand Climate Services and Observations
    The FY 2007 Request contains investments in several programs aimed 
at increasing our predictive capability, enabling NOAA to provide our 
customers (farmers, utilities, land managers, weather risk industry, 
fisheries resource managers, decisionmakers) with assessments of 
current and future impacts of climate events such as droughts, floods, 
and trends in extreme climate events. One such investment is the 
request of $6.0M to enable NOAA to continue building the ocean 
component of the global observing system which contributes to GEOSS, 
including floats, buoys, tide gauge stations and other ocean reference 
stations, per our international commitment. Advancing ocean systems 
toward global coverage will allow NOAA to better understand the state 
of the climate system and improve climate predictions.
    NOAA's budget requests an increase of $14.5M as part of the 
President's Climate Change Science Program (CCSP). The CCSP is 
responsible for coordinating and integrating federally funded research, 
observations, and decision-support activities related to climate 
variability and change. CCSP program plans for FY 2007 incorporate the 
relevant budgets from the CCSP departments and agencies and include the 
direct alignment of agency climate change science programs with the 
goals and sub-goals in the CCSP Strategic Plan. In FY 2007, CCSP near-
term climate research priorities include integrating new remote-sensing 
observations, research and modeling; an integrated North American 
Carbon Program; understanding the impacts of climate variability and 
change on ecosystem productivity and biodiversity; and coping with 
drought through research and partnerships.
    Another key investment is the request for $4.0M to go toward 
drought impact research for the National Integrated Drought Information 
System (NIDIS), which will aid decisionmakers faced with drought and 
water resource management issues, and which has been identified as a 
near-term opportunity for implementation of the U.S. Integrated Earth 
Observation System. The request also includes $2M to establish the 
capacity to produce consistent and continually-updated climate analysis 
data, deliver regular and systematic explanations of the state of the 
climate system, and advance understanding and predictions of climate 
extremes.
    NOAA's FY 2007 Budget Request includes an increase of $6.5M for 
high performance computing and communication, which restores NOAA's 
ability to use advanced computing power to forecast the Nation's 
weather and climate, model ecosystems and the ocean, and disseminate 
environmental information. Within this request is funding for NOAA's 
Data Centers and Information Services, which archive and provide access 
to the world's largest collection of data, including climate data, to 
more than 50,000 users per year.

Sustain and Improve Weather Forecasts and Warnings
    The FY 2007 budget includes increases of $46.1M to sustain and 
improve weather forecasts and warnings. NOAA's weather and water 
services make a tremendous contribution to the Nation's health and 
economic vitality. For instance, weather warnings protect the public 
from extreme environmental events while forecasts are essential to 
weather- and climate-sensitive industries, which account for one-third 
of the Nation's GDP. As an example of the benefits, during a typical 
hurricane season NOAA's efforts save the Nation $3 billion. Drought 
costs the Nation $6-8 billion annually, and floods cost $5 billion and 
cause more than 80 deaths per year. Estimates suggest the U.S. can reap 
a twelve-to-one return annually for every dollar invested in better 
water resource forecasting.
    In addition to the $12.4M in requested increases discussed above 
for the U.S. Tsunami Warning System and the $1.4M for operations and 
maintenance for the new hurricane data buoys, the FY 2007 budget 
request includes funding to sustain and enhance other critical 
services. This includes $2.5M for the National Weather Service 
Telecommunications Gateway (NWSTG) Critical Infrastructure Protection. 
Funds will be used to implement a telecommunications network solution 
that resolves an existing single-point-of-failure issue associated with 
the commercial service provider for the NWSTG CIP. This network 
solution will ensure uninterrupted delivery of critical meteorological 
data necessary for the protection of life and property.
    The budget request includes a $3.5M increase to support the Wind 
Profiler Network. NOAA operates and maintains a network of 33 profiler 
stations which provide high-frequency wind data to benefit several 
important missions, including severe weather warnings (for tornadoes, 
flash floods, and winter storms), watches, and short-term forecasts. 
These products are important for public safety, aviation, and wildfire 
managers. The increase will fund engineering design and award a 
development contract for new frequency compliant transmitters that will 
enable the Profiler network to operate without interference from search 
and rescue beacon-equipped satellites being deployed by the European 
Space Agency; $1.2M is requested for Aviation Weather, which will fund 
procurement and fielding of 75 additional water vapor sensors as part 
of an Integrated Upper Air Observing System. Water vapor sensors are 
critical to describing weather hazards and increasing forecast accuracy 
to continue to improve U.S. aviation safety and economic efficiencies.

Facilitate Transportation
    The U.S. economy relies upon a transportation network of ship, 
rail, highway, and air transport to move people, cargo and commerce to, 
from and across the Nation. This movement is heavily dependent upon the 
information and services that NOAA provides--weather and ice forecasts, 
real-time and forecast water level conditions and obstruction surveys, 
navigational charts, hazardous materials response, and satellite search 
and rescue. From 1990 to 2003, the value of U.S. international 
merchandise trade increased an average 6 percent annually, from $889 
billion to about $2 trillion (in current dollars). The U.S. Marine 
Transportation System (MTS) carried as much as 95 percent of this trade 
by volume and 41 percent by value in 2003, more than any other 
transportation mode. The Nation also loses at least $4 billion annually 
due to economic inefficiencies resulting from weather-related air-
traffic delays, and the injuries, loss of life, and property damage 
from surface weather-related crashes cost an average of $42 billion 
annually. NOAA's products and services help maintain the efficient flow 
of transportation and commerce.
    Among our Commerce and Transportation programs, we are requesting 
$2.0M to continue implementation of the National Vertical Datum 
Transformation Tool data base, or VDATUM. VDATUM allows Federal, state, 
and local government agencies to share geospatial data more effectively 
and benefits NOAA's modernization efforts. The FY 2007 budget request 
also includes $1.9M to continue NOAA's efforts to provide Electronic 
Navigational Charts (ENCs). Sustained funding at this level will enable 
NOAA to cover all U.S. waters by 2010. In addition, $2.7M is requested 
for tide and current data; $2.0M of these funds will be used to rebuild 
and strengthen the National Water Level Observation Network's (NWLON) 
ability to provide navigation and storm tide information throughout 
extreme weather and water events such as hurricanes. Several stations 
were damaged or destroyed during the 2005 hurricane season.

Support Facilities Maintenance and Construction
    The FY 2007 President's budget request also includes important 
increases for facilities, necessary to provide a safe and effective 
working environment for NOAA's employees. An increase in funds for 
facilities management and modernization of $9.4M will be used to 
provide crucial funding for new and planned facility repair and 
maintenance projects which address facility conditions affecting either 
employee safety or mission-operational readiness. Funding will also 
support the development and implementation of an annual integrated 
facility inspection program to assess conditions at NOAA-owned 
facilities, coordinated capital investment planning and execution for 
construction projects, and program direction and oversight for NOAA's 
major construction program.
    An increase of $11.0M will complete the construction of the NOAA 
Center for Weather and Climate Prediction (NCWCP) at the University of 
Maryland's M2 complex, fund the outfitting and relocation costs, and 
support the overlapping system functionality needed to transition from 
the World Weather Building to the NCWCP. Building occupancy is 
scheduled for February 2008.

Conclusion
    NOAA's FY 2007 budget request provides modest new investments in 
our priority areas while maintaining critical services, reflecting 
NOAA's vision, mission, and core values.
    The work NOAA accomplished in 2005 impacted every U.S. citizen. We 
will build on our successes from last year, and stand ready to meet the 
challenges that will surface in FY 2007 and beyond. NOAA is dedicated 
to enhancing economic security and national safety through research and 
accurate prediction of weather and climate-related events, and to 
providing environmental stewardship of our Nation's coastal and marine 
resources. That concludes my statement, Mr. Chairman. Thank you for the 
opportunity to present NOAA's FY 2007 budget request. I am happy to 
respond to any questions the Committee may have.

    The Chairman. Well, thank you very much.
    In view of the attendance, I think we'll set the clock at 
about seven-and-a-half minutes each. Is that sufficient, 
Senator?
    Admiral I note that the monies we put up for the Arctic 
Research Center that could tie into the really challenging 
changes in the Arctic was deleted. We had $6 million in that, 
to reestablish that center. We also had a reduction in the 
monies available for marine mammal and Alaska fisheries 
research. The coastal vulnerability to climate change monies 
were zeroed out. The Tsunami Warning and Environmental 
Observation System in Alaska was zeroed out, as well as 
absolutely no money for the ocean bottom claims and the OCS, 
the Alaska surveys, the Alaska Ocean Observing System, the Cook 
Inlet Coastal Monitoring, the Marine Debris Removal Program in 
Alaska. And the Pacific Coastal Salmon Recovery Fund was 
reduced by $254,000. It looked like someone had sort of a heavy 
pencil on Alaska. Can you tell me why all of those were 
reduced? I can understand that we have to have some reductions, 
but that----
    Admiral Lautenbacher. I'm sure you----
    The Chairman.--there is not one single Alaska item that was 
increased, except for the National Undersea Research Program, 
which is on the edge of the continental shelf.
    Admiral Lautenbacher. Yes, sir. I assure you, there was no 
attempt to go heavy-handed on Alaska or any other state. We 
were operating under very severe budget restrictions on what we 
could put into the program. Many of the increases that were 
there were considered as 1-year increases, and we have put into 
our budget a large item that covers a broad range of Alaska 
activities, and we want to work with you, in terms of trying to 
provide for the most--highest priority items and build----
    The Chairman. Well, what----
    Admiral Lautenbacher.--build a budget that is supportive of 
everyone's needs.
    The Chairman. What account is that?
    Admiral Lautenbacher. We have----
    The Chairman. What account----
    Admiral Lautenbacher. We have a program called Alaska 
Research Activities, and it's a large--it's a large segment. 
And what we want to do is try to build the appropriate mix in 
there and determine if that's the right level.
    The Chairman. Well, I got a call earlier this year from 
Barrow, and they said that they woke up in the morning and they 
looked--they were looking at a 30-foot wall of ice.
    Admiral Lautenbacher. Yes, sir.
    The Chairman. A semi-tsunami came across those very shallow 
waters, about an 8-mile tideland not having a depth of more 
than 2 feet all the way out there, hit that and literally 
picked up a shelf of ice and dropped it right in front of the 
city. They also tell me that last fall we had a typhoon within 
about 60 miles of the Arctic Coast. And now they tell me that 
the Tsunami Warning and Environmental Observation Post in 
Alaska is entirely eliminated. That sort of worries me.
    You know, we have half the coastline of the United States. 
We're one-fifth the size of the United States, and we have two-
thirds of the outer continental shelf. And I think that we--we 
know your budget has decreased by 5.8 percent, but the decrease 
in my state is nearly 50 percent.
    Admiral Lautenbacher. We need to work with you to ensure 
the balance is correct, sir.
    The Chairman. Well, I'm worried about it, because we've got 
this climate of no earmarks, which means, if there's no money 
in the budget, if I put up--try to sustain a program, we're 
going to be faced with some sort of a point of order.
    I want you to know I've been in this Committee for a long 
time, I really have been very disturbed about this when I first 
saw this analysis of the projects in Alaska from NOAA. I know 
of no real reason for it. The Invasive Species Act, the moneys 
that we put in, were deleted. There was one increase, and that 
increase was $200,000 for the Pribilof Island clean-up. I don't 
know what that was, but--do you know that program, by any 
chance, why it was increased?
    Admiral Lautenbacher. Yes, sir. We are trying to complete 
the clean-up in the next 2 years, and this was a position that 
we had been talking about with the Alaska delegation to ensure 
that we allow for both development and clean-up. And we think 
there's enough money there to do that with this small addition.
    The Chairman. Well, respectfully--and I love the Pribilofs, 
but we've got some people facing real challenges on a day-by-
day basis up there. That stuff that you're cleaning up has been 
there for 20 years.
    Admiral Lautenbacher. Yes, sir.
    The Chairman. And it has a higher priority than the data 
buoys and the tsunami warning? I'm really quite disturbed with 
that. We have--as far as weather systems are concerned, we have 
the largest area from any--of responsibility--of the 122 NOAA 
weather offices. As I said, we have this enormous space. Alaska 
has--well, I'll just show you. You know it, but that is----
    Admiral Lautenbacher. Yes, sir.
    The Chairman. The area of responsibility for your stations. 
I'll pass that. That means that there's one person for those 
areas. One of them goes from the edge of Mississippi to 
California and north to the top of Nebraska and across to the 
Mississippi. And I don't know how we can use--we have one 
manned station for every 25,000 square miles. And there's just 
no way for us to have any capability.
    In Pedro Bay, Alaska, the National Weather Service did not 
know the Iliamna River was flooding until the community was 
totally submerged. They were so far away, they had no idea what 
was going on, and no one even--in the old days, we at least had 
someone in the area that would contact them. This is the 
Iliamna River at Pedro Bay. The first information you got that 
it was flooded was, someone called in and said, ``The bridge is 
going out.''
    Now, I agree with what Senator DeMint said, you've done a 
wonderful job down along the coast, in prediction, but--and the 
Senate's getting tired of me asking this, but are we still a 
state, as far as you're concerned?
    Admiral Lautenbacher. Yes, sir. We are working hard to try 
to meet everyone's needs, and it's been very--been a challenge 
this year.
    The Chairman. Well, last, let me talk about the tsunami 
warning. We have one of the Tsunami Warning Stations that ties 
into the whole Pacific, I thought; and yet, as I have 
indicated, that has been now zeroed out. In other words, the 
contribution we make to sending information to the rest of the 
Pacific about what's starting in the North Pacific is totally 
eliminated. What are you going to use to make up for that? We--
our Tsunami Warning Center had the responsibility for 
monitoring all coastal states and Canada, 23 states and three 
territories. And it was totally eliminated from budgeting.
    Admiral Lautenbacher. I will have to check on that. I'm not 
aware that we eliminated any of the Tsunami Warning System in 
Alaska. As a matter of fact, we have a $20 million increase for 
the Tsunami Warning System, which supports Alaska and supports 
the warning center there. We will check on it and get back to 
you.
    The Chairman. Well, my notes showed zero for Tsunami 
Warning and Environmental Observation System, so minus $2 
million from last year.
    Senator Inouye?
    Senator Inouye. In today's Wall Street Journal article, 
there is an article which suggests that NOAA or the White House 
is either stifling or censoring reports issued by your climate 
scientists. Is there any truth to that?
    Admiral Lautenbacher. Certainly no truth in it with regards 
to every--all the matters that I know about. We have an open 
policy that supports peer-reviewed science. I have a scientific 
background. I have been completely open. I love open debate. I 
encourage it. I've told my team to continue to do that. We have 
a wide variety of scientists within NOAA, and they are 
encouraged. They're--NOAA scientists, dozens of them every day, 
are talking to the press and providing information. Our press 
office works to get them hooked up with people who want to 
answer questions. Even the comments in the Wall Street Journal 
are proof to the fact that it's open for people to talk and do 
as they wish.
    Most of the feedback that I've gotten indicates that 
they're not happy with the press policy. But a press policy is 
something that every organization has. Even the Senate has it, 
and your office has press policies. You like to know when 
people are talking to the press, if they get calls, and that is 
the same--we have the same sort of press policy. But the issue 
of supporting peer-reviewed science--absolutely clear, peer-
reviewed science speaks for itself. We don't change peer-
reviewed science. We don't interfere with the ability of our 
scientists to discuss their peer-reviewed science in any 
legitimate forum that they wish.
    Senator Inouye. Is there any truth to the suggestion that 
the White House may be censoring scientists from your shop?
    Admiral Lautenbacher. I am not aware that there is any 
truth to that at all. We are--again, I work for the--you know, 
I'm--I work in a chain of command. I work for the Department of 
Commerce. Department of Commerce works for the White House. And 
there are policies that ask for people to report when they have 
been contacted by the press; and that's the system. The fact is 
that our scientists are out there right now saying whatever 
they want to say. I've never seen anybody be able to muzzle a 
scientist. Let's put it that way. And they talk, and we're 
not--that's just not our policy. We don't do that.
    Senator Inouye. I have a few items, like the Chairman.
    Admiral Lautenbacher. Yes, sir.
    Senator Inouye. In the Pacific, I find that some of the 
cuts are just staggering. For example, in FY 2005 we provided 
$81 million for marine mammals, and for FY 2007 the cut is 72 
percent. Is there any reason for that?
    Admiral Lautenbacher. We have left in our budget a 
relatively robust baseline program in our budget. And, of 
course, the basic reason, you all know. The fact is that we 
develop our budget based on last year's submission, and then I 
work hard to try to get increases to meet what I believe the 
needs are. So, as--the fact is--a matter of--just as a matter 
of the way the process works, I'm doing the FY 2008 budget 
right now on the basis of what came in, in 2007. We are in a 
process which supports a sort of Catch-22 cycle. So, we are 
continually in a catch-up mode. At the time that we built the 
budget, this money appeared to be the right level for marine 
mammal protection and science and work. As we do every year, I 
want to work with you to ensure that we have the best balance 
that we can get in all of our programs.
    Senator Inouye. So, you believe that, even with this 72 
percent cut, you'd be able to carry out your mission to help 
these marine mammals and----
    Admiral Lautenbacher. We have over $20-some million----
    Senator Inouye. Twenty-three.
    Admiral Lautenbacher.--left in the program that--to provide 
for those services. And at--with the amount of money that we 
had at the time that we built the budget, that was the priority 
that was decided upon, internal--in NOAA's internal 
deliberations. Can we meet all of our requirements? Of course 
not. There's no agency that can meet all of its requirements. I 
don't think you would find anyone who would come in and testify 
to the ability to be able to do that.
    Senator Inouye. I won't go through the litany of those 
projects and missions that have been cut out completely, but 
I'd just like to speak of one. You're going to have 
consolidated NOAA facilities. This was set up, at your request, 
because it would save money instead of having them all over 
creation. And now you're cutting off so much that the whole 
process will have to come to a stop. It's a termination.
    Admiral Lautenbacher. Well, I would hope this is not a 
termination. These are lean times for infrastructure budget. 
Our infrastructure budget is not as healthy as it has been in 
years past because of the need for deficit reduction, both here 
and in the Administration. We are continuing with the contracts 
on the system. The contract was let last year to start building 
the warehouse. We are going to let another contract this year. 
So, we are going to continue ahead with this program, and it 
still has my priority and solid backing.
    Senator Inouye. I will be submitting a list of those items 
that have been terminated in my questions for the record. And, 
if I can, I'd like to have some explanation why it's been done, 
because----
    Admiral Lautenbacher. Yes, sir.
    Senator Inouye. For example, on the pelagic fisheries, you 
know, it is an economic benefit to our Nation of about $2 
billion, and, well, we're going to cut out the moneys for that. 
I find it rather difficult to understand this. And so, I don't 
want to burden you, at this moment, with all these little 
items, but I think it would be most helpful to the Chairman, 
and to me, because we are the ocean states, and we have to 
respond to our constituents and those involved in the industry 
as to why these things are necessary, the cuts.
    Admiral Lautenbacher. Yes, sir. We will provide all the 
answers that you require.
    Senator Inouye. I appreciate that very much.
    May I submit the questions for the record?
    The Chairman. Yes. If you will, please respond to the 
questions that'll come in writing, to save time here.
    Admiral Lautenbacher. Yes, sir. We'd be happy to do that.
    The Chairman. Senator Nelson?
    Senator Ben Nelson. Again, thank you, Mr. Chairman.
    I pretty well previewed my--what my concerns are, because, 
given the continuing drought conditions and related impacts, 
particularly over the last 5 to 7 years, I need to know 
whether, and how, NOAA has reprogrammed resources to improve 
both predictions of drought and the monitoring of drought 
conditions.
    Admiral Lautenbacher. Yes, sir. We have answered the call 
of the Western Governors Association that had a partnership to 
build a program to help set up a National Integrated Drought 
Information System. Very critical. And this is a partnership. 
It's not something that NOAA can do by itself, but we can 
provide the backbone and a lot of the expertise. But it's a 
partnership with the universities and the states and counties 
and local management experts for water and agriculture. We are 
asking for a 4,000--or a $4 million increase in the NIDIS 
concept itself that'll help us move forward with it. This is 
the first year that there is a--what I would call a significant 
budgetary line item for it. It will be extremely--we lose $6- 
to $8 billion a year just from the Federal Government support 
of--from bad decisions made for droughts. This is a small 
investment to help us create a system which will provide 
information to farmers, the state directors, as well as county 
managers. And we also have money in for a climate reference 
system, a Hydromet test bed, and some modernization of our 
volunteer observers, who are--provide a great service for the 
country for very minimal cost to help flesh out a larger and 
more robust reporting network with real-time information that 
will help us predict droughts and provide information.
    Senator Ben Nelson. Well, I think obtaining the reporting 
information is obviously very important. If I ask you the 
question--on a scale of one to ten today, how well are we able 
to predict or forecast drought?
    Admiral Lautenbacher. The major product that we have today 
is called the National Drought Monitor. It's been a product of 
a collaboration of the Department of Agriculture, as well as 
the Drought Center of Nebraska. And other agencies contribute 
to it. It is a broad brush of drought conditions, so--you're 
looking at a map of the United States, similar to what the 
Chairman showed us earlier for Alaska--so, we're able to give 
you advance notice for large areas of the country, probably 2- 
to 3-week type of notice. And that's my judgment that I'm 
offering. That's not--you might ask and somebody else would say 
it's better or worse than that. But over the last 3 years, just 
given the resources we've had today, we've been able to provide 
some large measure of predictability of conditions. That--it's 
helpful to know something 3 or 4 weeks in advance and to plan 
on--you know, planting conditions, livestock--but it is limited 
to that. It's limited to very large areas. So, we can't provide 
the kind of detailed information that you need in the counties, 
that the farmers need, that people who are managing specific 
resource issues that are localized. And that's what this system 
will help do, provide more fidelity for local data to get real 
predictions in.
    Senator Ben Nelson. Well, how quickly would we be able to 
do that if we provided the resources?
    Admiral Lautenbacher. That's--this is a multi-year issue. I 
think that the networks probably can be built in 5 to 6 years 
that are needed, given that it has support, has enough support 
for resources.
    Senator Ben Nelson. Perhaps in time to predict the next 
cycle?
    Admiral Lautenbacher. I would hope so.
    Senator Ben Nelson. In working with the Western Governors' 
Association and, of course, the--with the University of 
Nebraska National Drought Mitigation Center, how far away--
you're saying--just a few years from having a real 
implementation of that drought information system? Are we 
close? Or----
    Admiral Lautenbacher. It's something that needs gradual 
improvement. I mean, we don't--it's hard to predict what we 
don't know and what we're going to find out. Right now, we--
there is a lot of information that we don't get real-time, so 
there are reporting stations out there that are reporting 
temperature and precipitation and soil moisture, but we don't 
get them til weeks later. And so, if we could just get real-
time reporting of what's out there--and I think that could be 
done relatively quickly--that could be done, then, within a 
couple of years--if we could get the agreement and technology, 
you could have much more accurate reports right away.
    Now, the setting up of this denser mesh is going to take a 
number of years--I think 5 or 6 years--to be able to really 
fill in, in all the places where we need to collect the data 
that we don't have today. So, that--and that, again, is an 
estimate of what it would take. This is a start to it. It is 
not the full answer to providing a system that will answer 
everyone's needs.
    Senator Ben Nelson. Do you have enough money in your budget 
right now to be able to accelerate realtime data collection?
    Admiral Lautenbacher. Yes, sir. For this year, I think we 
have enough to get started and find the test points and make 
sure that--you know, I think this money will be well spent in 
that regard.
    Senator Ben Nelson. Is there--is it possible to collaborate 
with other Federal agencies, and are you doing that, in the 
process now of putting this mitigation effort together?
    Admiral Lautenbacher. Yes, sir. It is not only possible, 
it's necessary. We don't have enough resources, ourself, nor do 
we have all of the talents and skills that are needed. The 
Department of Agriculture and the--what--the talents that they 
apply, the university you mentioned, those skills are 
necessary. This is a large, collaborative effort.
    Senator Ben Nelson. Are they--are the other agencies 
responding back with the--their own collaborative effort to 
work with you?
    Admiral Lautenbacher. Yes, sir. We are getting cooperation 
from the other agencies.
    Senator Ben Nelson. Well, thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Yes, sir.
    Senator DeMint?
    Senator DeMint. Thank you, Mr. Chairman.
    Admiral, as I mentioned before, I'm interested in the 
earmarks specified by 227 Members of Congress. And I want to 
make clear at the outset, since the Chairman and Ranking 
Member's projects are high priority, I'm only talking about 225 
Members today. But behind me are just a list of some of the 
earmarks which came from us last year. Do you have any idea, 
Admiral, what the total amount of money we're talking about is, 
as far as your budget?
    Admiral Lautenbacher. Yes, sir, I do. We know, in detail, 
our budget. We have lots and--we have 2,600 line items in our 
budget. It's a very detailed budget, perhaps more detailed than 
at any other agency. So, we are aware of the projects, and 
their cost, and----
    Senator DeMint. It's almost $500 million----
    Admiral Lautenbacher. It's----
    Senator DeMint.--half a billion dollars, and we've got----
    Admiral Lautenbacher. Yes, sir.
    Senator DeMint.--seven boards here, but we couldn't find 
enough easel stands to put them up.
    And certainly some of these projects are high priority. And 
my concern is, if we have high-priority projects--some were 
just mentioned in Alaska--we may not be able to fund them if 
we're directing you in so many different places. I mean, one of 
the projects was a half-million dollars for marine wildlife 
noise impacts at the University of Rhode Island, or $400,000 
for the Consortium for Fisheries and Wildlife Conflict 
Resolution at the New England Aquarium. Now, I'm sure that 
these projects have some level of importance, but I would just 
ask you, would you have funded these projects if they were not 
directed in our appropriation bill?
    Admiral Lautenbacher. The answer depends on the level of 
resources that I'm given to--from which to build a budget. So, 
we have limited resources, and we tried to, first of all, use 
them to maintain the basic services and requirements of our 
mission. And that's how we prioritize. And I'm--I've been, you 
know, working in Washington for a long time, and I understand 
that there are different ideas of what priorities look like. 
And so, we obviously want to make sure do as--the best we can 
to provide for Congressional priorities, as well. But, 
obviously, what I come here today to present to you are the 
priorities to keep our basic services and missions going, and 
I'm asking for the support for that part of our budget.
    Senator DeMint. Well, the Congressional Research Service 
points out that just about all of these earmarks are not even 
in the bill; they're in Committee report language. And they 
say, ``Committee reports and manager's statement do not have 
statutory force. Departments and agencies are not legally bound 
by their declarations.'' Is that your understanding of the law?
    Admiral Lautenbacher. Yes, sir, that's my understanding of 
the law.
    Senator DeMint. But you did include these projects in your 
budget for last year.
    Admiral Lautenbacher. These projects are part of the 
agreement, if you want to put it that way, between Congress and 
the President. It was passed by both Houses of Congress. I take 
that very seriously. I've defended and supported the 
Constitution for 40 years in the United States Navy and 4 years 
here, and I--you know, I think it's important to go with the 
will of Congress and the President. The President signed it, 
Congress had passed it, and I'm here to execute the will of 
elected leaders----
    Senator DeMint. So, you----
    Admiral Lautenbacher.--of the country.
    Senator DeMint.--you consider Committee language, whether 
it's in the bill or--you consider that a direct order.
    Admiral Lautenbacher. I consider it as the--as expressing 
the will of Congress in building the budget that you all 
passed. And that has been the way it has worked for many, many 
years. And I have been respectful of those traditions and the 
ability to maintain that agreement to move forward. So, 
that's--you know, I----
    Senator DeMint. Would there be----
    Admiral Lautenbacher.--I agree that, you know, it's not--
it's not legally required, but it is, in fact, a practice and--
that has been in place many, many years.
    Senator DeMint. So, the Administration has not suggested 
that you not comply with Committee reports or----
    Admiral Lautenbacher. The Administration has not suggested 
I not comply with Committee reports, that is true.
    Senator DeMint. Did you think there would be any benefit to 
competitively awarding some of these projects and--some of them 
are specifically directed to not only what has to be done, but 
where it has to be done. And we're not necessarily talking 
about correcting a problem, which was just mentioned in Alaska, 
but, like, where the--which university the research needs to be 
done. Would we not be better off if you had the latitude to 
competitively assign projects that needed to be done like that?
    Admiral Lautenbacher. Yes, sir. I am a strong supporter of 
competitive bidding on projects. I think that serves the public 
the best. And I--the same way I have served peer-reviewed 
science, the comments I made in regard to the Co-Chairman's 
remarks, I think--and I am a supporter of having some more 
flexibility in our budget. It's a very hard budget to execute, 
because of the 2,600 line items, and when there are issues, of 
which a number of we're trying to work on this year are locked 
into these line items, it makes it very hard to really--to keep 
current services going at the levels that I know you all 
expect.
    Senator DeMint. Well, my interest is that we allow you to 
do your job. And I know we've got you here to question you 
about your budget. My concern is, if you have hundreds of 
micromanagers in Congress directing those budget dollars, that 
it's difficult for those who are paid to make the decisions to 
reflect the priorities of the agency. And my hope is--the 
President has asked for the line-item veto. The ultimate line-
item veto, I think, is for him to give you the directive, and 
you have the legal authority to strike those items that are not 
consistent with your priorities. And as you--and then, 
hopefully, those things that we do need to focus on, with the 
input of Congress, certainly, and particularly the--those who 
lead the Committees, who focus on these things all the time--
that you would have the funds you need to do these projects 
better. But I just want to express to you, as--I certainly 
don't want to scrutinize your budget and priorities.
    At the same time, I think we need to be very concerned in 
directing a half-billion dollars of your resources according to 
individual Members of Congress. And I want to make that one of 
my priorities, to try to sort through that. At the same time--
and I will try to encourage the Administration to use their 
line-item veto authority by taking those things that aren't in 
statute, that we didn't approve as part of the bill, and making 
some good judgments about how they're awarded.
    So, thank you, Mr. Chairman. I yield back.
    The Chairman. Yes, sir.
    Senator Smith?
    Senator Smith. Thank you, Mr. Chairman.
    Admiral, I began by asking about tsunamis. And I'll get to 
that. But the Pacific Fisheries Management Council plays, 
obviously, a key role in successful marine fisheries on the 
West Coast, and needs adequate funding to maintain that 
important role. In your opinion, is the $18 million request for 
the Regional Council sufficient to allow the councils to 
execute fully their responsibilities under Magnuson-Stevens?
    Admiral Lautenbacher. I would have to say, I think it's a 
minimum necessary for them to do their work. The requirements 
for our Fishery Management Councils have been increasing, and 
the work is becoming more detailed as we look to build 
sustainable fisheries. I have tried each year to, you know, 
support increases for the Fishery Management Councils to do 
their work, and I will continue to try to do that, because I--
--
    Senator Smith. All right, I----
    Admiral Lautenbacher.--do believe that it has to be 
adequate.
    Senator Smith. I mean, it really is a critical component in 
developing not just data, but also politically supportable data 
with the public. I see the President's budget includes 
approximately $13.8 million for fisheries survey vessel 
construction. I'm told that fishery survey vessel number 4, 
which will be ported on the West Coast, will be delivered 
sometime in 2008. I've also heard that the Miller Freeman, 
which is currently doing surveys off the West Coast and Alaska, 
will be retired in 2008, potentially leaving us without a 
backup and no way to calibrate the new equipment. What are you 
doing at NOAA to ensure that the equipment will be properly 
calibrated so that we don't have throw out all the old data?
    Admiral Lautenbacher. Yes, sir. Our plans are to keep the 
Miller Freeman around long enough to do the calibration. But it 
is a 40-year-old ship. Its technology is outdated. Its 
maintenance is hard. And one of my highest priorities is to 
modernize our fisheries survey fleet. This is--this Nation 
deserves, with the largest EEZ and the largest potential for 
sustainable fisheries, to have the right kind of equipment to 
monitor and protect and----
    Senator Smith. So, you don't----
    Admiral Lautenbacher.--sustain it.
    Senator Smith.--see a gap occurring, then?
    Admiral Lautenbacher. I will tell you that my policy is not 
to have a gap.
    Senator Smith. OK.
    Admiral Lautenbacher. But I do not want to keep the Miller 
Freeman online any longer than we have to. We should take those 
resources and modernize and bring newest technology to our 
fisheries survey means.
    Senator Smith. NOAA Fisheries has recently completed a 
review of the role of hatcheries in ESA listing decisions. When 
this study is completed, will these reviews result in 
internally consistent Federal policies with respect to the role 
of hatcheries in the Pacific Northwest?
    Admiral Lautenbacher. Obviously, that's our intention. 
There is some money in here to help us do that this year, a 
little over a million dollars. Hatchery--the hatchery policy is 
a complicated item, because it involves the tribes, it involves 
the states, it involves Fish and Wildlife, and it involves 
NOAA. We are continually working with them, and there will be 
no exception in the hatcheries review. Our intention is to 
build a consistent--internally and externally consistent policy 
that can be supported across the wide variety of needs and 
requirements.
    Senator Smith. I am concerned about the Pacific Coastal 
Salmon Recovery Fund. Last budget, there was $90 million; this 
year, there's $67 million, for 2007. Is that going to cut it?
    Admiral Lautenbacher. That's one of these items where we 
need to continue to work with you. We had proposed a level, as 
you mentioned, but the bill that we got back from Congress was 
reduced to $67 million. The Administration felt if that was the 
level that Congress thought was reasonable, then we would 
provide the same. So, what we have done this year is continue 
the Congressional level that was--that you all passed at the 
end of last year, and that we're living with this year. We will 
obviously be working hard to figure out how to deal with that 
level, and we'll have to see whether it's adequate for the 
future.
    Senator Smith. If it's not, I hope you'll speak up.
    Admiral Lautenbacher. Yes, sir.
    Senator Smith. Are you familiar with Judge Redden's 1-year 
time-line for rewriting the biological opinion on Columbia 
River operations?
    Admiral Lautenbacher. Yes, sir.
    Senator Smith. And do you have funds and staff sufficient 
to comply with his order?
    Admiral Lautenbacher. Yes, sir, we believe we do.
    Senator Smith. OK. Can you speak a little bit more--I know 
you did in your testimony--about the tsunami issue? Obviously, 
the Cascadia Subduction Zone lies approximately 70 miles 
offshore from the Pacific Northwest. It was in January 1700 
that we had a Sumatra-like quake. We're coming up to a point on 
timeline where one has historically occurred. And I guess, you 
know, bottom line, you've got 5-10 minutes to get people away 
from these areas. Warning and detection systems will be of 
little use if and when an earthquake occurs along the Cascadia 
Zone. I just don't know whether people are sufficiently warned 
where to go and what to do when the ground begins to shake. Do 
you have anything in your budgets to accelerate inundation 
mapping and warning systems that will be critical to saving 
low-lying communities?
    Admiral Lautenbacher. Part of the increase that we're 
asking for is to accelerate inundation mapping and providing 
the kinds of information that communities along the coast need 
to construct reasonable emergency plans. That is a critical 
piece of this program for the additional $12 million or $13 
million that we're asking for here.
    I would be remiss if I didn't mention that we have spent a 
lot of work trying to deal with reaching the public. We have a 
TsunamiReady Program now, and we're advertising that. We've had 
a StormReady Program, which has been used in the Gulf, which 
obviously many of the tornado-prone areas and hurricane-prone 
areas have taken on as standard operating procedure. We want to 
publicize and emphasize, in no uncertain terms, that 
communities that are along the coast need to be tsunami ready, 
as well. As you've pointed out, there may only be 10 or 15 
minutes, 5 to 10 minutes, for people to leave. And that's an 
end-to-end process that requires education within each 
community. We have check-sheets. Every one of our Weather 
Forecast Offices has trained people who will work with the 
community, the mayors, the emergency response people to ensure 
that that warning gets out to the people who need it. That is 
part of this program, and it's part of what our folks are 
dedicated to around the country.
    Senator Smith. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Admiral, I note that your agency does not post your budget 
justification online. The Energy Department posted over 3,400 
pages of their justification. You've posted 182.
    Let me tell you what one of my problems is. Last year--and 
my grandmother used to tell me, ``The road to hell is paved 
with good intentions''--I asked the Congress to consolidate the 
research and development funds for NOAA in Alaska. We created 
the Alaska Composite Research and Development Fund, last year. 
That was not an increase in funds. Funds were just 
consolidated. And it was $15,298,000. The base program for this 
year is estimated at $29,724. When we look at your budget 
justification, that says ``termination--the following portion--
program has been terminated--portion has been terminated, 
Alaska Composite Research Development, $18,969,'' but it 
doesn't say what you've terminated, what you've eliminated. We 
consolidated a whole series of accounts, for management 
purposes. I'd like to have you just tell us, for the record, 
what you propose to terminate, in terms of that $19,000--
$18,969.
    Admiral Lautenbacher. The plan----
    The Chairman. $18 million-----
    Admiral Lautenbacher. Yes, sir, $18 million.
    The Chairman.---969,000.
    Admiral Lautenbacher. The plan----
    The Chairman. Now, Admiral, I obviously have considerable 
difficulty with this proposal. Your employment level for FTEs 
for Fiscal Year 2006, 1,987 people. This year, you have 1,996 
people, an increase, although you've decreased a substantial 
number of functions in my state. So, while you're eliminating a 
whole series of jobs from my state, you have a net increase of 
nine. There's nothing in the budget justification to show us 
what's been eliminated and what's been added.
    I'm also on the Appropriations Committee, so is my brother 
from Hawaii, and you can look forward to our demanding that 
justification. So, I hope you'll prepare it.
    Admiral Lautenbacher. Yes, sir.
    The Chairman. But the Alaska Fisheries Science Center--is 
now in that Alaska Composite Research and Development Program. 
As we know, that's located in Seattle--230 employees in 
Seattle, eight in Newport, Oregon--my friend from Oregon is 
leaving--34 in Alaska. So, it's apparent that the fisheries 
activities of NOAA are going to be centered in Seattle, 
notwithstanding the fact, as I said, we have half the coastline 
of the United States, more than half the fishery products of 
the United States are caught off my state. And we've got this 
severe reduction in this money.
    I hope you'll go back and tell your people that I'm 
seriously considering consolidating the Department of Commerce 
and the Department of Transportation. Both have increased in 
employees and decreased in functions that deal with the 
American people. You've eliminated a whole series of items that 
deal with isolated Eskimo and Native villages throughout 
Alaska, just eliminated them--and consolidated them in the fund 
that I thought we were trying to do to save administrative 
costs.
    I can't really--I can't get any more specific, because you 
haven't given us the specifics.
    Admiral Lautenbacher. Yes, sir. We're----
    The Chairman. I see your man back there shaking his head. 
Have you got more than 182 pages of justification to give to us 
today? You. You're shaking your head at me. Behind you.
    Mr. Gallagher. Yes, sir, we can provide you----
    Admiral Lautenbacher. We will provide the justification and 
give you the plan that was there----
    The Chairman. Well, why haven't you provided it to us, to 
the Congress?
    Admiral Lautenbacher. We have been looking for 
opportunities to work with you and your staff in determining 
how we should deal with the amount of resources that we have. 
And, obviously, we want to make sure that the priorities are 
set and are agreeable to--in all respects, to you, sir, as well 
as to the people who have to execute the budget. We will 
provide all of our back-up and justification to you and your 
staff.
    The Chairman. I find, just in closing, just a decrease in 
emphasis on fisheries in the United States, in general. We had 
9.6 billion pounds of fish and shellfish landed in 2004. We 
consumed 4.8 billion. We have generated an enormous amount of 
income for the United States. The largest fishery, of course, 
is our pollock, 3.4 billion pounds. I see nothing to indicate 
any real emphasis on that. And we are--I'm not only concerned 
about our area, but the states of Maine, Louisiana, 
Mississippi, Washington, and Massachusetts all depend on 
fishery research, and that seems to be going down. Many of my 
friends say we've earmarked it. We've tried to get away from 
earmarking by saying, ``Here's a composite fund. Tell us where 
you're going to use it.'' Instead, what you did was, you 
consolidated other functions with it and eliminated $19 
million.
    Admiral, you can take me off the side of being a supporter 
of your agency and put me down as one who's really critical for 
the balance of this year. We hope you'll go back and tell 
people they should re-examine what they've done. And I hope 
you'll go to the Office of Management and Budget and tell them, 
under the current policy of not having the ability to earmark, 
we're just going to have to have the ability to change line 
items. And we will do so.
    Admiral Lautenbacher. Yes, sir. I will--I understand.
    The Chairman. Senator Inouye?
    Senator Inouye. I think you've said enough.
    The Chairman. Thank you very much, Admiral.
    [Whereupon, at 3:32 p.m., the hearing was adjourned.]

                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Gordon H. Smith to 
                Vice Admiral Conrad C. Lautenbacher, Jr.

    Question 1. I understand that NOAA is reorganizing the National 
Tsunami Hazard Mitigation Program (NTHMP) to accommodate all coastal 
states and territories. How do you plan to do this without negatively 
impacting the ongoing tsunami hazard mitigation programs in the five 
Pacific states that are at the highest risk of tsunami hazards? Given 
that the five Pacific states have by far the largest risk from 
tsunamis, will they be given priority in the reorganized national 
program?
    Answer. In December 2005, the Office of Science Technology and 
Policy (OSTP) issued the report Tsunami Risk Reduction for the United 
States: A Framework for Action, in which OSTP identified the National 
Tsunami Hazard Mitigation Program (NTHMP) as the organizational 
framework to implement the program. While NOAA provides leadership and 
funding for the NTHMP, which began in 1996, the program is a 
partnership between NOAA, the U.S. Geological Survey (USGS), the 
Federal Emergency Management Agency (FEMA), the National Science 
Foundation, and the five high-risk Pacific states. Prior to FY 2006, 
the NTHMP funded tsunami hazard mitigation grants to the five Western 
states, in addition to funding NOAA's initial DART (Deep-ocean 
Assessment and Reporting of Tsunamis) station development and 
deployment, and the U.S. Geological Survey's (USGS's) West Coast 
seismic network upgrades.
    In February 2006, the NTHMP steering committee met and agreed to 
reorganize into three regional elements, Pacific, Southern, and 
Eastern, which includes representatives from the 23 states on the 
Pacific, Atlantic, and Gulf Coasts, as well as the three commonwealths 
and two U.S. territories in the Pacific Ocean and Caribbean Sea. The 
Pacific region would be the continuation of the original five Pacific 
states. The steering committee further agreed that funding for the five 
Pacific States in FY 2006 would be the same as FY 2005, but beginning 
in FY 2007, a new process for distributing funds would need to be 
developed. Once a national assessment of tsunami risk has been 
completed, scheduled for December 2006, the NTHMP will use these data 
to formulate a funding distribution process for FY 2007. NOAA expects 
this process will distribute funding relative to the threat potential 
for each state.
    Also at the February 2006 meeting, the NTHMP steering committee 
agreed that the NTHMP future funds should be used exclusively by the 
states. Prior to FY 2006, the NTHMP was the funding source for NOAA's 
initial DART station development and deployment, and the USGS's West 
Coast seismic network upgrades. Beginning in FY 2006, the strengthened 
U.S. Tsunami Warning Program budget line fully funded NOAA's expanded 
DART program, and the corresponding increases in the DOI/USGS budget 
fully funded their West Coast seismic improvements. Therefore, 
beginning in FY 2006, all of the NTHMP funding is now targeted to 
support state tsunami hazard mitigation programs. The FY 2007 budget 
request for NOAA includes $2.291M for the NTHMP.

    Question 2. We know that the Pacific Northwest faces the 
eventuality of a ``Sumatra-level'' tsunami and magnitude 9 earthquake 
along the Cascadia Subduction Zone. Tens of thousands of U.S. residents 
and visitors are in the potential flooding zone, most of them in the 19 
communities of the Oregon coast. Local and state government must 
instill in this population an instinctive response to evacuate when the 
ground shakes. What priority is NOAA placing on this Cascadia region 
when allocating resources for tsunami hazard mitigation?
    Answer. NOAA's efforts in this area focus on tsunami awareness and 
improved warning services. Additional funds are being expended to 
aggressively expand the TsunamiReady Program for all communities at-
risk from a Cascadia Subduction Zone event. NOAA has also made the 
Pacific Northwest a key priority in its accelerated tsunami inundation 
mapping, modeling and forecast efforts, including the deployment of 4 
DART tsunami warning buoy stations. NOAA is committed to working with 
each state's emergency managers and coastal community leaders to make 
sure these at-risk communities are TsunamiReady, and to provide these 
communities with the incentive to move toward tsunami resiliency. NOAA 
can and will facilitate this effort, but TsunamiReady is truly a 
volunteer community-based effort.
    As of April 19, 2006, 28 communities nationwide have been certified 
as TsunamiReady. Of those, eight are in Oregon: Cannon Beach, Lincoln 
City, Coos County, Manzanita, Hehalem, Rockaway Beach, Tillamook, and 
Wheeler.

    Question 3. In Oregon, an investigative report in the local media 
documented the low standard needed for a community to gain the 
TsunamiReady certification. The report concluded that most TsunamiReady 
communities were not really ready at all. What is NOAA doing to raise 
the TsunamiReady standards? How is NOAA empowering state and local 
governments to do the hard work of getting communities truly tsunami 
ready?
    Answer. As a result of the February 2006 NTHMP meeting, NOAA is 
working closely with the states to raise standards for the TsunamiReady 
program, and to encourage local governments to participate. It takes 
proactive community participation and financial support from the state 
or county. NOAA can and will facilitate the effort, but TsunamiReady is 
truly a volunteer community-based effort.
    At the February 2006 NTHMP meeting, state emergency managers from 
the five Pacific states and Puerto Rico, in coordination with NOAA and 
other Federal partners, took the first step to re-evaluate and improve 
the concept and criteria for a new TsunamiReady or ``TsunamiSmart'' 
program with a tiered recognition program that moves from awareness and 
readiness toward resilience. A working group, open to all existing and 
new NTHMP members, is advancing the effort for national consideration 
later this summer.

    Question 4. Given that the national warning system will be of 
limited if any use for saving lives from this ``Sumatra tsunami'' in 
the Pacific Northwest, why is expansion of the NOAA tsunami mitigation 
effort aimed mainly at the warning system rather than at education and 
hazard assessment?
    Answer. NOAA disagrees that the ``national warning system will be 
of limited, if any, use for saving lives from a `Sumatra tsunami' in 
the Pacific Northwest.'' The national program includes not only NOAA, 
but the U.S. Geological Survey (USGS), the National Science Foundation, 
and the Federal Emergency Management Agency. If/when a Cascadia 
Subduction Zone seismic event occurs, the USGS's upgraded, real-time 
network of seismometers will record the event and automatically provide 
this critical real-time seismic data to the USGS National Earthquake 
Information Center (NEIC) and to NOAA's two Tsunami Warning Centers 
(TWC). NOAA projects that if a magnitude 9 seismic event occurred along 
the Cascadia Subduction Zone, a tsunami warning would be issued by the 
West Coast/Alaska Tsunami Warning Center within 2-3 minutes. NOAA also 
projects that the DART buoys deployed along the Pacific Coast would, in 
near real-time, detect and measure the resulting tsunami and transmit 
the data to the Tsunami Warning Centers. The DART buoys will accurately 
measure the energy associated with the tsunami and feed tsunami models 
that accurately predict tsunami inundation levels and wave frequency. 
In the fully deployed U.S. Tsunami Warning System, NOAA will be able to 
quickly issue a tsunami warning and accurately predict the resulting 
wave energy, size, frequency, duration, and location(s). These data 
will be critical to saving lives during a Sumatra-type tsunami along 
the Northwest U.S. coast.
    NOAA is working with FEMA, through the National Tsunami Hazard 
Mitigation Program, to jointly fund the final stages of a multi-year 
project working to provide for vertical evacuation tsunami shelter 
guidelines and related education materials. This project, which is 
managed by FEMA, has been identified as a priority by the states. The 
NOAA tsunami program also encourages leveraging of related science 
activities, such as those conducted by USGS and NSF, for the 
advancement of tsunami models, improved identification of sources, and 
development of new observational capacities. These activities also 
leverage NOAA's projects in ocean exploration, coastal survey, marine 
ecosystem research, and Sea Grant to further raise tsunami awareness 
and enhance tsunami modeling and mitigation efforts.
    NOAA's plan stresses local tsunami awareness and community 
preparedness activities, but our role is limited when it comes to 
impacting the actions of state and local governments. TsunamiReady is 
NOAA's contribution to educate the public on tsunami preparedness and 
to instill in the public the immediate need to move to higher ground if 
you are in a coastal area and an earthquake occurs. As stated above, 
NOAA's modeling and mapping efforts are essential to determining which 
areas must be evacuated and which areas would provide a safe haven for 
evacuees. In the instance of a Sumatra-like event, the U.S. Tsunami 
Warning System will play a vital role in determining when a tsunami 
will impact the coast and when the tsunami danger has passed.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                Vice Admiral Conrad C. Lautenbacher, Jr.

    Question 1. In NOAA's budget narratives for FY 2007, NOAA claims to 
be requesting a total of $15.8 million for research grants to support 
implementation of my Harmful Algal Bloom and Hypoxia Research and 
Control Act of 2004. Consistent with the Act, the requested funds would 
maintain NOAA's grant programs, accelerate forecast tools for 
predicting and mitigating algal bloom outbreaks, and facilitate 
assessment and response to these events. However, NOAA's somewhat 
cryptic presentation of specific line item requests makes it difficult 
for us to verify this number.
    How would NOAA allocate the requested funding among the different 
harmful algal bloom and hypoxia programs, including grants, 
forecasting, and assessment and response activities?
    Answer. NOAA is not requesting a total of $15.8 million for 
research grants to exclusively support implementation of the Harmful 
Algal Bloom and Hypoxia Research and Control Act of 2004 (HABHRCA). The 
language used in NOAA's Blue Book budget summary document to describe 
this request should have been clearer. The language which appears in 
NOAA's full budget justification is accurate:

        ``NOAA requests an increase of $5,960,000 for a total of 
        $15,801,000 for extramural coastal and ocean research grants.''

    The Extramural Research line in the President's FY 2007 budget 
request funds several long-term, high-priority research programs which 
help NOAA fulfill its coastal legislative mandates, including HABHRCA. 
These programs are conducted through NOAA's Coastal Ocean Program (COP) 
which was authorized by Congress to improve NOAA's prediction 
capabilities in the coastal ocean, and further recognized by HABHRCA as 
being a major focus for HAB and hypoxia research.
    The total $15.8M budget request includes at least $8.9M to provide 
support for competitively-funded extramural HAB and hypoxia research 
programs associated with HABHRCA, including: Ecology and Oceanography 
of Harmful Algal Blooms (ECOHAB); Monitoring and Event Response for 
Harmful Algal Blooms (MERHAB); Northern Gulf of Mexico Ecosystems and 
Hypoxia Assessment Program (NGOMEX); and Coastal Hypoxia Research 
Program (CHRP). In FY 2007, specific funding will be dependent upon the 
results of the completion of merit reviews and selections from HABHRCA-
focused competitive funding announcements. Because extramural research 
is funded through the competitive Federal Register process, it is too 
early to determine specific funding amounts among HABHRCA programs and 
associated forecasting, assessment and response activities. However, 
NOAA expects competitively awarded HABHRCA research funding to be 
distributed fairly evenly (approximately \1/3\ each) across funding 
categories 2, 4, and 5 identified in the Harmful Algal Bloom and 
Hypoxia Research and Control Act of 2004:

        (2) . . . the Ecology and Oceanography of Harmful Algal Blooms 
        (ECOHAB) project under the Coastal Ocean Program established 
        under section 201c of Public Law 102-567;

        (4) . . . Federal and State annual monitoring and analysis 
        activities for harmful algal blooms administered by the 
        National Ocean Service of the National Oceanic and Atmospheric 
        Administration;

        (5) . . . activities related to research and monitoring on 
        hypoxia by the National Ocean Service and the Office of Oceanic 
        and Atmospheric Research of the National Oceanic and 
        Atmospheric Administration; and . . . to carry out section 
        603(e).

    Question 1a. How much of the requested funding and research effort 
would go specifically toward helping the New England region deal with 
the recent and potentially future red tide outbreaks?
    Answer. There are planned extramural research announcements in FY 
2007 for ECOHAB (Ecology and Oceanography of Harmful Algal Blooms) and 
MERHAB (Monitoring and Event Response to Harmful Algal Blooms), which 
could provide funding to projects aimed at helping the New England 
region deal with recent and future red tide outbreaks. Because 
extramural research is funded through the competitive Federal Register 
process, it is too early to determine specific funding amounts among 
HABHRCA programs and associated forecasting, assessment and response 
activities. Past performance, however, indicates that research 
institutions in New England are very successful in peer-reviewed 
competitions.

    Question 2. The Secretary of Commerce declared a ``fisheries 
failure'' for the Gulf of Maine shellfish fishery due to last summer's 
red tide outbreak. The primary economic impacts on fishermen range from 
$10 to $15 million, and the indirect impacts could reach four times 
that amount. However, I am puzzled to see that this budget does not 
appear to request funds to actually help provide relief, mitigation, 
and prevention to the affected shellfishermen.
    Does the budget contain a request to address the fisheries failure 
in the Gulf of Maine due to the 2006 red tide event? If not, why not? 
Clearly the Administration agrees that a fisheries failure has 
occurred, so why is there such a disconnect between funding needs and 
funding requests?
    Answer. The budget does not contain a request to address the 
fisheries failure in the Gulf of Maine due to the 2006 red tide event. 
In accordance with provisions under Section 312(a) of the Magnuson-
Stevens Fishery Conservation and Management Act (MSA), the Secretary of 
Commerce made a determination of a commercial fishery failure due to a 
fishery resource disaster in the summer of 2005. The determination, 
however, did not include an estimated value of the loss.
    To date, no funds have been appropriated for the specific purpose 
of providing relief to fishermen. Funds were not requested in the 
President's FY 2007 budget due to the timing of budget formulation, 
general fiscal constraints, and the need to meet the Nation's highest 
priorities. The Department recognizes the social and economic impacts 
of the closure on many shellfish fishermen, and has taken several 
actions to address impacts caused by red tides, as described below.

    Question 2a. Since the red tide may very well return in the summer 
of 2007, what is NOAA doing to help prepare for preventing, mitigating, 
and providing assistance to the shellfishermen?
    Answer. Over the past decade NOAA has made advances in monitoring 
harmful algal blooms. NOAA's ECOHAB and MERHAB research on Alexandrium, 
the red tide organism in the Gulf of Maine, has greatly enhanced 
response capabilities in the region. New molecular methods for rapidly 
detecting and mapping Alexandrium were used to track the 2005 bloom 
event in near real-time. These efforts were widely relied upon as 
critical information by affected states in New England during the 
outbreak. These data, combined with oceanographic and meteorological 
data from ships and moorings, were used in recently developed, coupled 
biological and physical models to forecast the spread of the red tide 
and to understand the factors leading to this unusual event. Although 
our understanding of red tides in the Gulf of Maine caused by 
Alexandrium is not yet sufficient to minimize impacts if the bloom 
recurs in 2006 or 2007, we are engaged in efforts to mitigate the 
impacts by monitoring the extent of the bloom and improving predictions 
as to where and when a bloom may occur. For example:

  <bullet> In the event of another outbreak, NOAA stands ready to 
        provide immediate assistance through several, coordinated Event 
        Response Programs that quickly (hours to days) provide state 
        managers with sampling capabilities and toxin analysis. These 
        programs have been particularly effective for protecting human 
        health, as was illustrated during the 2005 New England event, 
        when NOAA helped provide managers with early warnings of 
        shellfish toxicity to protect public health in the region, and 
        also allowed managers to focus toxin sampling in areas where 
        shellfish openings and closings were most likely to occur. NOAA 
        also awarded funds last year to support post-bloom monitoring 
        and research to help scientists predict where and when 
        outbreaks are most likely to be seen in 2006. The information 
        gained from this predictive research will help state managers 
        to make even more effective monitoring and regulatory 
        decisions.

  <bullet> NOAA's National Weather Service is developing models for 
        predicting the relationship between the amount of freshwater 
        carrying nutrients into the coastal areas and the extent and 
        intensity of an HAB.

  <bullet> NOAA's National Marine Fisheries Service (NMFS) is assisting 
        the U.S. Food and Drug Administration (FDA) by facilitating the 
        collection of shellfish samples to measure toxicity. NMFS is 
        also working with the FDA to refine and implement a ``dockside 
        sampling protocol'' that may allow shellfish fishermen to 
        continue to harvest in Federal waters even if a HAB event is in 
        progress (provided they can locate areas not affected by the 
        toxin and provided FDA can confirm the harvested product does 
        not pose a health risk if eaten).

  <bullet> NOAA's National Ocean Service (NOS) has undertaken a long-
        term, multi-faceted research effort on HABs in the Gulf of 
        Maine. During the 2005 bloom, emergency funding from NOAA of 
        more than $42,000 expanded monitoring, assessment, and 
        prediction of bloom extent and movement. These data directly 
        enhanced mitigation efficiency by allowing managers to focus 
        toxin sampling in newly exposed areas and in areas that could 
        be reopened for shellfish harvesting.

  <bullet> The high abundance and broad extent of Alexandrium during 
        the 2005 event may have deposited seed-like cysts in new areas, 
        leading to bloom recurrence and southward expansion of blooms. 
        To support enhanced prediction and response for 2006 and future 
        years, NOS provided an additional $540,000 to sustain 
        monitoring throughout the 2005 bloom, monitor potential blooms 
        in 2006, and map the southward expansion of cyst beds. These 
        data will be incorporated into integrative, predictive models 
        developed through NOAA-supported research over the past decade.

  <bullet> NOAA is continuing its development of a national HAB 
        forecasting system. The HAB Bulletin for the Florida shelf is 
        now operational within NOAA, and NOAA is developing similar 
        programs in other U.S. coastal regions. Although the organisms 
        and physical environment differ between regions, the core data 
        and analysis requirements (satellite, meteorological 
        measurements, buoys, field samples, models, and analyses) are 
        similar. With the necessary coordination and analytical 
        constructs in place, NOAA is poised to expand the operational 
        forecasting capability beyond the Gulf of Mexico to other 
        coastal regions, such as the Gulf of Maine.

    The HAB outbreak that occurred in the summer of 2005 was an extreme 
event. Fishermen, especially in Massachusetts, were unprepared for the 
extensive closures that were necessary to protect human health. In 2006 
and 2007, the Department and fishermen will have advance notice of the 
possibility of an HAB event and will be better able to plan 
accordingly.

    Question 3. Programs throughout NOAA--and environmental and 
atmospheric scientists around the world--need basic oceanic data to 
improve management and forecasting models. In recent years we have seen 
NOAA increase its requests for ocean observing funding as part of an 
overall climate research approach, going from $4 million in FY 2003 to 
$17 million for FY 2005. For FY 2007, NOAA says it is requesting an 
additional $6 million for global ocean observations, but the request 
does not specify what funding level this is ``in addition'' to. More 
troubling, the request appears to ``zero out'' requests for NOAA's 
Integrated Coastal Ocean Observing System and support for regional 
observing networks.
    Answer. While the President's FY 2007 NOAA budget request does not 
include specific budget lines for the Integrated Coastal Ocean 
Observing System or regional networks, there is $700.7M in the NOAA FY 
2007 request for observing systems and related activities that 
contribute to the Integrated Ocean Observing System (IOOS). The FY 2007 
NOAA budget has a number of increases proposed for IOOS-related 
activities including funding to improve NOAA's ocean observing 
networks, strengthen the U.S. Tsunami Warning Program, expand fisheries 
stock assessments, and improve the National Water Level Observation 
Network.

    Question 3a. Exactly what is the top number NOAA is requesting for 
ocean observations next year? Why is NOAA not requesting funds for 
coastal observing systems, including the regional networks, which form 
the backbone of our emerging National Coastal Observation System?
    Answer. The President's FY 2007 NOAA budget request includes 
$700.7M for ocean observations in support of IOOS. This includes 
contributions to the three IOOS components: (1) global, (2) coastal,d 
and (3) data management and communications.
    While there are not funds in the FY 2007 budget proposal for 
regional networks, there is $569.4M (out of $700.7M) for ocean 
observing within the coastal component of IOOS.

    Question 3b. How is NOAA working with the Gulf of Maine Ocean 
Observing System in its observation efforts? How are their data 
incorporated into NOAA's earth and ocean-oriented observation system 
and made available to the public?
    Answer. The Gulf of Maine Observing System (GoMOOS) is supported by 
NOAA. In addition, the data from those observing systems are flowing 
through the National Ocean Service and National Weather Service data 
QA/QC processes in order for NOAA forecasters to utilize the data for 
ocean-related forecasts. Those data are processed through NOAA's 
National Data Buoy Center and are available to the public through its 
websites (see http://www.ndbc.noaa.gov/).

    Question 3c. According to the U.S. Ocean Commission, an ocean 
observing system will require $652 million a year when it is up and 
running--does NOAA agree with this figure? If not, what does NOAA think 
is an appropriate figure, and exactly what program elements would this 
cover?
    Answer. The U.S. Commission on Ocean Policy estimates that an 
annual observing system will cost an additional $753M a year above 
current budget levels when it is up and running, including transferring 
the ongoing operation of Earth Observing Satellites to NOAA ($150M) 
(Appendix G: page G10). Without the satellite operations transfer, the 
estimate is $603M per year in addition to currently funded Federal 
programs. The Commission's estimate is based on four program elements 
described in the U.S. Commission on Policy report, including: 
accelerate the implementation of the U.S. commitment to the Global 
Ocean Observing System; develop data communications and data management 
systems for the national IOOS; enhance and expand existing Federal 
observing programs; and develop regional observing systems. NOAA is 
taking the Commission's recommendations into consideration as we work 
with our agency partners to move forward with the development of IOOS 
as outlined in the President's Ocean Action Plan.

    Question 4. For FY 2007, NOAA is requesting $10.5 million for 
fisheries economics and social science research to improve estimates of 
harvest, bycatch, and fishing capacity; determine economic impacts of 
proposed regulations on fishermen, shoreside industries, and fishing 
communities; and develop integrated ecosystem models. I am pleased to 
note that this continues a trend of increasing fisheries social science 
funding requests since FY 2004, but I am concerned to see that Congress 
has not kept pace with NOAA's funding requests, as only about $4 
million has been enacted each year.
    The New England groundfish fishery is in great need of improved 
socioeconomic research, and it troubles me that NMFS has not conducted 
a follow-up assessment of the groundfishery to determine what impacts 
have occurred . . . would the New England groundfishery be analyzed 
under NOAA's proposal? If so, how would NOAA design this program and 
its studies to ensure that the impacts of Amendment 13 are 
appropriately addressed?
    Answer. Under NOAA's proposal, NMFS would significantly expand 
economic and sociocultural data collection activities in all regions, 
including the Northeast Region. In particular, these funds would 
provide 100 percent of commercial harvester, for-hire, and recreational 
angler data collection needs; 100 percent of community profiling data 
collection needs; and a series of baseline surveys, each conducted on a 
5-year cycle and including seafood consumption, commercial fisheries 
employment, and ecosystem use.
    For the Northeast Region, this proposal would quadruple spending on 
economic and sociocultural data collection and increase the number of 
economists in the region by 25 percent. Taken together, these 
investments would provide for New England groundfish economic data 
collections and assessments to be routinely conducted, thereby ensuring 
that the impacts of Amendment 13 are thoroughly and accurately assessed 
and this information made available to decisionmakers in a timely 
manner.

    Question 4a. What is the impact to NOAA's social science programs 
of only receiving $4 million each year in enacted funds? In other 
words, what critical work is not getting done?
    Answer. NOAA requested an increase for Economic and Social Science 
Research for a total request of $10.5 million in FY 2007, up from a 
total request of $9.6 million in FY 2006. This line has been level-
funded at approximately $4 million since FY 2004, which has meant that 
core economic and sociocultural data collections are not being 
conducted, jeopardizing NMFS' ability to meet Executive and Legislative 
mandates under the Magnuson-Stevens Fishery Conservation and Management 
Act (MSA), National Environmental Policy Act (NEPA), Regulatory 
Flexibility Act, E.O. 12866, and other mandates that require cost-
benefit analyses, cumulative impact assessments, social impact 
assessments, and determinations as to whether small businesses are 
unduly impacted by fishery regulations. NMFS has complete economic data 
on commercial harvest operations for only 45 percent of the federally-
managed fisheries. In addition, although National Standard 8 of the MSA 
requires NMFS to ensure that management decisions minimize economic 
impacts on fishing communities, NMFS lacks sufficient economic and 
social data in 70 percent of the coastal states. Similarly, NMFS lacks 
sufficient data and staff to assess the short- and long-term economic 
impacts on recreational and commercial fishermen for 70 percent of the 
Federal year-long marine managed areas.

    Question 4b. What resources or other changes are needed to make 
NMFS' social science program as strong as possible?
    Answer. NMFS will need to continue the phased growth of its social 
science staff, from 68 FTEs in FY 2006. With the proposed funding 
increase, NMFS plans to increase its staff by 7 FTEs in FY 2007. FTE 
needs in the out-years will be evaluated within the context of NOAA's 
plans for its social science programs and within the constraints of the 
President's budget. In addition, a stronger NMFS social science program 
would need to expand its economic data collections on shoreside firm 
operations and infrastructure in coastal communities to more accurately 
assess the impacts of management decisions on stakeholders.

    Question 5. The FY 2007 budget requests $26.7 million overall for 
observer coverage. However, the budget request does not clarify how 
much of that would go toward observer coverage in different fisheries. 
Those concerned with the herring fishery in the Gulf of Maine have been 
working to identify and evaluate the amount of bycatch in this fishery, 
so it is vital that we know how much NMFS is putting toward observers 
in this particular fishery.
    What New England fisheries will the requested observer program 
address? Will the herring fishery be included? If so, at what levels of 
funding and coverage?
    Answer. The funding request for observer programs in New England 
will provide observer coverage for the New England herring fishery, 
large and small mesh trawl fisheries, large and small mesh gillnet 
fisheries, and partial coverage of closed area scallop fisheries at 
Nantucket Lightship. Other fisheries in the mid-Atlantic region to be 
observed include the mid-Atlantic gillnet and mid-Atlantic trawl 
fisheries. Approximately 70 sea days are allocated to the New England 
herring fishery in FY 2006, or a target coverage level of 3 percent and 
a total cost of $84,000.

    Question 6. One way to potentially improve the overall 
effectiveness of stock assessments--and to build trust with fishermen 
at the same time--is to involve fishermen in these processes. This can 
be done through cooperative research, and one program that is supposed 
to facilitate this cooperative approach is the Saltonstall-Kennedy (S-
K) program. I'm pleased to see that, after years of deep cuts to this 
program, NOAA is requesting more than $2 million for S-K grants for FY 
2007. Yet I remain concerned about this level and the future of the 
program, since even this $2 million is a far cry from amounts enacted 
in previous years and the total potential amounts authorized in law. 
What is NOAA doing to reinstate higher program funding requests for the 
S-K cooperative research grant program? Does Congress need to change 
the S-K Act to ensure that more of the funds authorized for cooperative 
research under the Act go toward these competitive grants in the NOAA 
request? If so, what changes does NOAA recommend?
    Answer. The FY 2007 request proposes $2.3 million be available for 
Saltonstall-Kennedy (S-K) grants. This is a $2 million increase over 
the FY 2006 enacted level. Within the context of the overall FY 2007 
President's Budget, there are adequate funds for the S-K grant program. 
The Administration is not proposing amendments at this time to the S-K 
Act.

    Question 6a. One important cooperative research program, while not 
part of the S-K program, is the Gulf of Maine Aquarium's herring 
acoustic surveys. How much funding has NOAA provided to the Aquarium's 
program out of the $198,000 that Congress enacted for FY 2006? How is 
NOAA working with this group to ensure proper use of these funds?
    Answer. NOAA has used the entire $198,000 enacted by Congress in FY 
2006 to directly support the NMFS offshore Gulf of Maine herring 
acoustic survey, conducted by the Northeast Fisheries Science Center 
(NEFSC). This survey is the foundation for the herring stock assessment 
that will be conducted later this spring in conjunction with Canadian 
scientists.
    The Gulf of Maine Research Institute (GMRI), formerly Gulf of Maine 
Aquarium, conducts a complementary inshore Gulf of Maine herring 
acoustic survey. Scientists from the NEFSC work closely with GMRI in 
the design and execution of this survey. Each year since 2000, GMRI's 
inshore survey has been funded via an open grant competition through 
the Northeast Consortium (composed of four research institutions--
University of New Hampshire, University of Maine, Massachusetts 
Institute of Technology, and Woods Hole Oceanographic Institution--
working together to foster cooperative research projects on a broad 
range of topics). The Northeast Consortium receives nearly $5 million 
annually from NOAA to carry out this open competition.
    In addition, the Northeast Consortium conducted an independent peer 
review of GMRI's inshore Gulf of Maine herring acoustic survey in March 
2005, and the panel's recommendations are being incorporated into the 
2006 survey.

    Question 7. While many fishermen are doing their part to minimize 
right whale entanglements, many are troubled by the fact that there 
seems to be little progress in reducing right whale deaths due to ship 
strikes. Understandably, they think it is unfair that they continue to 
shoulder the burden of right whale protection, when ships appear to be 
killing as many--if not more--right whales as fishing gear. I 
understand that NMFS has been working on an interagency ``ship strike 
strategy'' for several years, but it is not yet clear what this 
strategy contains and when it will be completed. Due to the national 
economic importance of the shipping industry, the Administration has to 
overcome many controversies on these matters.
    What has NOAA done to work with other agencies on this strategy? 
What hurdles have impeded NOAA's progress, and what can we do to help 
remove these hurdles?
    Answer. NOAA is working with other Federal agencies--notably the 
U.S. Navy (USN), U.S. Coast Guard (USCG), and U.S. Army Corps of 
Engineers (ACOE)--on a regular basis in efforts to reduce ship 
collisions with North Atlantic right whales. These agencies have 
provided input at various times into the development of a draft Ship 
Strike Reduction Strategy (Strategy). In November 2004, NOAA held its 
first interagency working group meeting to discuss the draft Strategy, 
and convened a follow-up meeting 2 weeks later. In December 2005, 
Office of Protected Resources leadership and staff met individually 
with USN, USCG, and Department of State (DOS) leadership to discuss the 
Strategy. In January 2006, NOAA convened another interagency working 
group meeting, chaired by Assistant Administrator for Fisheries William 
Hogarth, which was attended by USN, USCG, DOS, ACOE, U.S. Fish and 
Wildlife Service, and the Marine Mammal Commission. In addition, NOAA 
has worked with the USN and USCG to issue advisories to their fleets 
about the vulnerability of right whales to ship strikes. USCG and NOAA 
jointly operate the Right Whale Mandatory Ship Reporting systems.
    During the December 2005 face-to-face meetings and the January 2006 
interagency meeting, NOAA received endorsement of all components of a 
draft Strategy from each of the Federal agencies. At the January 2006 
interagency meeting, the USCG raised a concern about the need to 
develop a program to enforce the proposed regulations, the only 
significant concern raised thus far. Immediately following the meeting, 
several working groups were formed to address enforcement. These groups 
are meeting regularly, are making good progress, and have an 
enforcement strategy developed prior to publication of a final rule.

    Question 7a. What is the status of this strategy, and when can we 
expect to receive it? What types of measures can we expect it to 
contain?
    Answer. The proposed regulations--a major portion of the draft 
Strategy--are currently being reviewed by the Administration. NOAA 
expects to publish the proposed regulations in mid-summer. NOAA's 
Advanced Notice of Proposed Rulemaking (69 Fed. Reg. 30857 (2004)) 
provides an indication of which measures are likely to be included in 
the proposed rule.
    In the meantime, NOAA is pursuing other elements of the draft 
Strategy such as developing and implementing programs to raise mariner 
awareness and developing a conservation agreement with Canada to 
protect right whales. Additional information on the draft Strategy and 
efforts to reduce the threat of ship strikes is available online at 
www.nmfs.noaa.gov/pr/shipstrike/ and at www.nero.noaa.gov/shipstrike/

    Question 8. As for funding current right whale recovery activities, 
NOAA is requesting roughly $5.8 million for FY 2007, which is a step 
down from the FY 2006 enacted level of $7.7 million and the FY 2005 
enacted level of nearly $12 million. What is NOAA's justification for 
asking for less funding for right whale recovery than Congress has 
enacted in recent years? Does this indicate that right whale recovery 
is less of a priority for NOAA at this time?
    Answer. NOAA has maintained the request for Endangered Species Act 
(ESA) right whale activities at a stable level of $5.8 million since 
2001. This funding level will allow NOAA to carry out a program for 
right whale conservation while also addressing other high-priority ESA 
and MMPA mandates.

    Question 9. Again for FY 2007, NOAA requests $5.85 million for 
Atlantic salmon recovery activities, indicating basically level-funding 
for salmon recovery. Salmon restoration professionals in Maine believe 
that much more money is needed, for both state and Federal research as 
well as Endangered Species Act compliance, and the National Academy of 
Sciences report and Atlantic Salmon Recovery Plan called for a range of 
new and expanded efforts. Based on my discussions with salmon managers 
in Maine, there appears to be a chronic state of confusion about how 
much of NOAA's salmon budget is supposed to go to the State of Maine 
for their recovery plan and efforts. This is even more unclear for FY 
2007 because NOAA is requesting the full amount in one account, not in 
separate line items for recovery plan, research, and the State of Maine 
as previous budget requests have included. Specifically, how much 
funding for Atlantic salmon would go to Maine, and what activities 
would NOAA fund in each area, for FY 2007? How much has NOAA forwarded 
to Maine from the FY 2006 enacted funding, and for what programs?
    Answer. The FY 2007 request of $5.85 million includes $1.5 million 
for the State of Maine and $4.35 million for NMFS ESA research, 
management, and recovery implementation activities. Of the $4.375 
million enacted in FY 2006, $967,000 has been disbursed to the State of 
Maine for freshwater assessment of Atlantic salmon stocks.

    Question 9a. Ideally, considering the current status of Atlantic 
salmon and the range of restoration, research, and compliance 
activities that need to occur, what would be a reasonable estimate of 
the true Atlantic salmon funding needs? How do funding limitations 
relate to recovery success?
    Answer. The recently adopted Atlantic salmon recovery plan outlines 
an investment of over $30 million over a 3-year period for Atlantic 
salmon recovery. This is the current best estimate of requirements. The 
FY 2007 request is $1.475 million more than the FY 2006 enacted amount 
to begin to address these requirements.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim DeMint to 
                Vice Admiral Conrad C. Lautenbacher, Jr.

    Question 1. Please provide your annual assessment for the last 10 
years of your ability to predict hurricane intensity. Please include 
both your goals and the actual results. Please explain how you would 
include hurricane intensity as a GPRA metric in the FY 2008 budget 
submission.
    Answer. The chart below depicts hurricane intensity forecast errors 
from 1990 through 2004. There has been very little improvement (1 
percent/year for the 48-hour forecast) in the forecast accuracy for 
intensity. The current error is about 14 knots, while in 1990 it was 
just under 17 knots. The new Hurricane Weather and Research Forecast 
(HWRF) model, planned to be introduced in 2007, is expected to 
significantly improve forecast accuracy for intensity. Once the HWRF 
becomes operational, the goal is to reduce forecast errors at a rate of 
3 percent per year, which corresponds to the long-term rate of 
improvements for track forecasts. Our target is a 30 percent 
improvement in intensity forecasts by 2015.
    As shown in the chart, there is annual variability in the annual 
average accuracy of intensity predictions. Within any given year, there 
can also be a large variability from one storm to another. That is why 
it is important to analyze improvements on a multi-year trend, rather 
than any individual year. For the FY 2008 budget submission, NOAA is 
working to establish the hurricane intensity forecast GPRA metric with 
associated out-year goals.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 2. Please provide the FY 2006 and FY 2007 Federal budgets 
for the Integrated Ocean Observing System. Please distinguish the 
funding by agency and within NOAA by line office.
    Answer. NOAA's contributions for components of the Integrated Ocean 
Observing System as described in The First Integrated Ocean Observing 
System (IOOS) Development Plan are $770.5M in FY 2006 and $700.7M in 
the FY 2007 President's budget. The attached spreadsheet lists these 
contributions by Line Office and budget line.
    NOAA does not have detailed Federal budgets for our partner 
agencies' contributions to IOOS. We have provided the NOAA breakdown of 
contributions. The next step is to ``integrate'' each agency's 
observation systems contribution into the Integrated Ocean Observation 
System. NOAA is working with our partners to move forward with the 
implementation phase. The Administration supports the intent of 
legislation such as H.R. 1489 and S. 361, which would codify NOAA as 
the lead for implementation and administration of IOOS. Establishing a 
Federal agency coordination mechanism would be helpful in advancing 
progress toward integration of Federal ocean observing systems.

                               NOAA--Integrated Ocean Observing Systems Estimates
                                                ($ in thousands)
----------------------------------------------------------------------------------------------------------------
                                      FY 2005
                                      Enacted      FY 2006      FY 2006     FY06 Delta    FY 2007      FY 2007
           Global--IOOS              ('06 Blue   President's    Enacted    Enacted vs.  President's   Requested
                                       Book)        Budget                  Pres. Bud.     Budget     Increases
----------------------------------------------------------------------------------------------------------------
NOS                                         125          125            0            0            0            0
NMFS
OAR                                      40,499       44,627       36,594      (8,033)       46,176        9,582
NWS                                       4,238       13,288       12,072      (1,216)       21,445        5,428
NESDIS
Program Support                               0            0        3,432        3,432            0            0
OMAO
----------------------------------------------------------------------------------------------------------------
TOTAL, Global--IOOS                      44,862       58,040       52,098      (5,817)       67,621       15,010
----------------------------------------------------------------------------------------------------------------
Coastal--IOOS
----------------------------------------------------------------------------------------------------------------
NOS                                     184,402      147,442      173,615       26,173      152,084       27,515
NMFS                                    283,281      258,537      288,325       29,788      287,577       52,311
OAR                                       7,277        5,191        8,632        3,441        4,474      (4,158)
NWS                                      18,660       22,187       23,596        1,409       22,163        1,400
NESDIS                                      690          737            0        (737)          737          737
Program Support                               0            0       14,298       14,298            0            0
OMAO                                    154,274      115,772      149,349       33,577      102,456      (7,059)
----------------------------------------------------------------------------------------------------------------
TOTAL, Coastal--IOOS                    648,584      549,866      657,815      107,949      569,491       70,746
----------------------------------------------------------------------------------------------------------------
DMAC--IOOS
----------------------------------------------------------------------------------------------------------------
NOS
NMFS                                     21,021       25,711       23,378      (2,333)       25,699        2,009
OAR
NWS                                       4,340        4,487        4,401         (86)        4,429            0
NESDIS                                   31,771       32,333       32,763          430       33,474        1,296
Program Support
OMAO
----------------------------------------------------------------------------------------------------------------
TOTAL, DMAC--IOOS                        57,132       62,531       60,542      (1,989)       63,602        3,305
================================================================================================================
TOTAL, NOAA--IOOS                      $750,578     $670,437     $770,455     $100,143     $700,714      $89,061
----------------------------------------------------------------------------------------------------------------


                              Global--Integrated Ocean Observing Systems Estimates
                                                ($ in thousands)
----------------------------------------------------------------------------------------------------------------
                                          FY 2005                            FY06 Delta
                                          Enacted     FY 2006      FY 2006     Enacted     FY 2007      FY 2007
             Global--IOOS                ('06 Blue  President's    Enacted    vs. Pres.  President's   Requested
                                           Book)       Budget                   Bud.        Budget     Increases
----------------------------------------------------------------------------------------------------------------
NOS
----------------------------------------------------------------------------------------------------------------
Climate & Global Change (OAR's budget)         125          125           0           0
----------------------------------------------------------------------------------------------------------------
NOS Sub-total                                  125          125           0           0            0           0
----------------------------------------------------------------------------------------------------------------
OAR
----------------------------------------------------------------------------------------------------------------
Climate Research Labs & CI's+A21             8,531        8,850       8,499       (351)        8,950         451
Climate & Global Change + COSP BASE         14,242       14,506      13,181     (1,325)       17,248       4,067
Climate Change Research Initiative +        13,944       14,294      11,171     (3,123)       13,156       1,985
 Arctic
CCRI/TAO-PIRATA                                  0        3,200           0     (3,200)        3,000       3,000
Pacific Marine Environmental                 2,600        2,576       2,540        (36)        2,591          51
 Laboratory (WA)/FOCI
Earth Systems Research Laboratory (CO)       1,182        1,201       1,203           2        1,231          28
----------------------------------------------------------------------------------------------------------------
OAR Sub-total                               40,499       44,627      36,594     (8,033)       46,176       9,582
----------------------------------------------------------------------------------------------------------------
NWS
----------------------------------------------------------------------------------------------------------------
NWS Coastal Global Ocean Observing               0        1,497           0     (1,497)            0     (1,492)
 System
National Tsunami Hazard Mitigation           4,238        2,291       2,260        (31)
 Program
Strengthen US Tsunami Warning Network            0        9,500       9,812         312       21,445       9,920
CCRI/TAO-PIRATA                                                                                    0     (3,000)
----------------------------------------------------------------------------------------------------------------
NWS Sub-total                                4,238       13,288      12,072     (1,216)       21,445       5,428
----------------------------------------------------------------------------------------------------------------
Program Support
----------------------------------------------------------------------------------------------------------------
Strengthen U.S. Tsunami Warning                                       3,432       3,432            0
 Network (NWS)
----------------------------------------------------------------------------------------------------------------
PS Sub-total                                     0            0       3,432       3,432            0           0
================================================================================================================
TOTAL, NOAA Global--IOOS                   $44,862      $58,040     $52,098    ($5,817)      $67,621     $15,010
----------------------------------------------------------------------------------------------------------------


                              Coastal--Integrated Ocean Observing Systems Estimates
                                                ($ in thousands)
----------------------------------------------------------------------------------------------------------------
                                          FY 2005                            FY06 Delta
                                          Enacted     FY 2006      FY 2006     Enacted     FY 2007      FY 2007
             Coastal--IOOS               ('06 Blue  President's    Enacted    vs. Pres.  President's   Requested
                                           Book)       Budget                   Bud.        Budget     Increases
----------------------------------------------------------------------------------------------------------------
NOS
----------------------------------------------------------------------------------------------------------------
Mapping and Charting Base                    6,066       43,695      38,350     (5,345)       43,418       4,810
Nautical Charting                            6,406
Mapping and Charting Base (Naut.            18,054
 Chart)
Hydrographic Surveys                         1,282
Navigation Services                          1,858
Joint Hydrographic Center                    7,492        7,499       7,397       (102)        7,424
Electronic Navigational Charts               4,239        6,190       4,241     (1,949)        6,128       1,890
Address Survey Backlog                      18,727       31,487      20,711    (10,776)       31,173      10,487
Time Charter                                 1,971                   11,687      11,687
Coastal Mapping                                493                        0           0
Shoreline Mapping                            2,413        2,448       2,415        (33)        2,424
PORTS                                        2,938                    1,479       1,479
Tides and Currents--Base                    18,401       23,130      18,161     (4,969)       24,970       2,715
National Water Level Observation             2,463                    2,466       2,466
 Network
Great Lakes NWLON                            1,971                    1,972       1,972
Alaska Current and Tide Data                 1,479                        0           0
Geodesy Base                                16,120        9,801       9,666       (135)        9,800
Cntr for Coastal Monitoring and                823                    1,009       1,009
 Assessment
National Centers for Coastal Ocean                        1,023           0     (1,023)        1,013
 Science (NS&T)
Extramural Research                                                       0           0        5,960       5,960
Coral Reef                                   5,838       10,420      10,275       (145)       10,300
National Estuarine Research Reserve          3,120        3,240       3,196        (44)        3,200
 System (NERRS)
Coastal Change Analysis                        493            0         493         493
Ocean Assessment Program Base                  254            0           0           0
Coop Institute for Coastal and               1,350        1,350       1,332        (18)        1,350
 Estuarine Enviro Tech (CICEET)
Coastal Storms                               2,463        2,903       1,233     (1,670)        2,874       1,653
ICOOS (ORF)                                  7,392            0       7,397       7,397
ICOOS (PAC)                                  8,871            0           0           0
Coastal Observation Techology System         2,146            0           0           0
Alliance for Coastal Technologies            2,463            0       2,959       2,959
CI-CORE                                      2,463            0       2,466       2,466
Coastal Ocean Research & Monitoring          2,438            0         493         493
 Program
Alaska Ocean Observing System                1,971            0       1,676       1,676
 (replaces previous ``Gulf of Alaska
 Ecosystem Monitoring'')
Gulf of Maine Observing System               1,873            0         493         493
Long Island Sound Observing System             986            0         986         986
SoCal Coastal Ocean Obs System               1,479            0       1,480       1,480
 (Scripps)
Coastal Ocean Monitoring Network for           739            0           0           0
 West Florida
Central Gulf of Mexico Observing             1,971            0       1,972       1,972
 System (USM)
Center for Coastal Ocean Observation         2,463            0       2,466       2,466
 and Analysis
Oregon Ocean Observing                           0            0         493         493
Center for Integrated Marine                     0            0       2,022       2,022
 Technology
Carolina Coastal Ocean Observing &           2,463            0       2,022       2,022
 Prediction System
SURA Ocean Observing & Prediction                0            0       2,466       2,466
 System
NOAA/UNH Joint Ocean Observing               3,942            0       1,972       1,972
 Technology Center
Wallops Ocean Observation Project            1,971            0       1,972       1,972
Coastal Services Center                      2,100        2,184       2,154        (30)
Convert Weather Buoys--NDBC PAC              7,886            0           0           0
National Marine Sanctuary Program            2,071        2,072       2,043        (29)        2,050
----------------------------------------------------------------------------------------------------------------
NOS Sub-total                              184,402      147,442     173,615      26,173      152,084      27,515
----------------------------------------------------------------------------------------------------------------
NMFS
----------------------------------------------------------------------------------------------------------------
Protected Species Research and               5,420        7,971       5,694     (2,277)        9,401       5,825
 Management Base
Marine Mammals                              25,472       15,703      14,265     (1,438)       14,369       1,759
Atlantic Salmon                              1,912        1,974       1,881        (93)        2,516       1,445
Fisheries Research and Management           72,861       74,807      72,775     (2,032)       77,656       6,829
Expand Annual Stock Assessments             20,501       25,397      24,457       (940)       32,100       7,550
Economic and Social Sciences research        4,041        9,618       4,043     (5,575)       10,529       6,518
Salmon Management Activities                   296          300         296         (4)          301           0
Fisheries Statistics                        12,587       12,771      12,596       (175)       12,801           0
Fish Information Networks                   21,970       21,399      21,249       (150)       22,184       2,109
Survey and Monitoring Projects              20,641       20,606      10,987     (9,619)       14,285       1,168
Fisheries Oceanography                           0        1,000         493       (507)          990         500
American Fisheries Act                       3,474        3,525           0     (3,525)            0           0
National Standard 8                            984          998         986        (12)          996           0
Reduce Fishing Impacts on Essential            493          500         493         (7)          499           0
 Fish Habitat (EFH)
Reducing Bycatch                             3,745        2,800       2,761        (39)        2,782           0
Product quality and safety                   4,774        4,343       4,310        (33)        4,399           0
Other fisheries related projects            10,793            0      12,228      12,228            0           0
Fisheries Habitat Restoration                  100          100         105           5          105           0
Enforcement                                  2,259        1,692       1,669        (23)        1,686       3,979
Observers                                   24,523       25,992      23,175     (2,817)       26,796       3,494
Antarctic Research                           1,446        1,468       1,448        (20)        1,467           0
Chesapeake Bay Studies                       3,449        1,907       3,452       1,545        1,906           0
Cooperative Research                        19,173        9,494      19,232       9,738       10,417         994
Magnuson-Stevens Implementation of AK        4,240        4,301           0     (4,301)            0           0
Marine Resources Monitorng, Assessment       1,232          850         839        (11)          842           0
 & Prediction Program
Southeast Area Monitoring & Assessment       1,366        1,385       1,365        (20)        5,090       3,753
 Program (SEAMAP)
Other projects                              10,101            0       5,425       5,425            0           0
Environmental Improve and Restoration        4,689        6,636      15,117       8,481        8,720           0
 Fund
Climate Regimes and Ecosystem                  739        1,000         739       (261)          992         501
 Productivity
Alaska Composite Research and                    0            0      26,245      26,245       23,748       6,724
 Development
----------------------------------------------------------------------------------------------------------------
NMFS Sub-total                             283,281      258,537     288,325      29,788      287,577      53,148
----------------------------------------------------------------------------------------------------------------
OAR
----------------------------------------------------------------------------------------------------------------
Aquatic Ecosystems--Canaan Valley            4,239            0       5,917       5,917            0     (5,917)
 Institute
Lake Champlain Research Consortium             345            0         346         346            0       (346)
National Undersea Research Program           2,200        2,200         900     (1,300)        1,500         600
Aquatic Invasive Species Program                 0        2,502         986     (1,516)        2,477       1,506
Atlantic Oceanographic &                       493          489         483         (6)          497          14
 Meteorological Lab (FL)/Corals
----------------------------------------------------------------------------------------------------------------
OAR Sub-total                                7,277        5,191       8,632       3,441        4,474     (4,143)
----------------------------------------------------------------------------------------------------------------
NWS
----------------------------------------------------------------------------------------------------------------
Local Warnings & Forecasts                  17,180       20,487         676    (19,811)       20,480       1,400
National Data Buoy Center                                            22,920      22,920
Alaska Data Buoy                             1,480        1,700           0     (1,700)        1,683
----------------------------------------------------------------------------------------------------------------
NWS Sub-total                               18,660       22,187      23,596       1,409       22,163       1,400
----------------------------------------------------------------------------------------------------------------
NESDIS
----------------------------------------------------------------------------------------------------------------
Coral Reef Monitoring                          690          737           0       (737)          737         737
----------------------------------------------------------------------------------------------------------------
NESDIS Sub-total                               690          737           0       (737)          737         737
----------------------------------------------------------------------------------------------------------------
Program Support
----------------------------------------------------------------------------------------------------------------
NOAA ICOSS Observing Systems (NOS)                                    8,876       8,876            0
Convert NOAA Weather Bouys with NDBC                                  3,945       3,945            0
 (NOS)
Coastal Global Ocean Observing System                                 1,477       1,477            0
 (NWS)
----------------------------------------------------------------------------------------------------------------
TOTAL, PS                                       $0           $0     $14,298     $14,298           $0          $0
----------------------------------------------------------------------------------------------------------------
OMAO
----------------------------------------------------------------------------------------------------------------
Marine Operations & Maintenance--           96,317       80,042      87,753       7,711       81,765       7,792
 Marine Services
Fleet Replacment                            57,957       35,730      61,596      25,866       20,691    (14,851)
----------------------------------------------------------------------------------------------------------------
OMAO Sub-total                             154,274      115,772     149,349      33,577      102,456     (7,059)
================================================================================================================
TOTAL, NOAA Coastal--IOOS                 $648,584     $549,866    $657,815    $107,949     $569,491     $71,598
----------------------------------------------------------------------------------------------------------------


                               DMAC--Integrated Ocean Observing Systems Estimates
                                                ($ in thousands)
----------------------------------------------------------------------------------------------------------------
                                          FY 2005                            FY06 Delta
                                          Enacted     FY 2006      FY 2006     Enacted     FY 2007      FY 2007
              DMAC--IOOS                 ('06 Blue  President's    Enacted    vs. Pres.  President's   Requested
                                           Book)       Budget                   Bud.        Budget     Increases
----------------------------------------------------------------------------------------------------------------
NMFS
Computer Hardware and Software               3,335        3,383       1,972     (1,411)        3,355       1,383
Information Analyses & Dissemination        17,686       18,328      17,461       (867)       18,384         626
NMFS Facilities Maintenance                      0        4,000       3,945        (55)        3,960           0
----------------------------------------------------------------------------------------------------------------
NMFS Sub-total                              21,021       25,711      23,378     (2,333)       25,699       2,009
----------------------------------------------------------------------------------------------------------------
NWS
----------------------------------------------------------------------------------------------------------------
Central Forecast Guidance                    4,340        4,487       4,401        (86)        4,429           0
----------------------------------------------------------------------------------------------------------------
NWS Sub-total                                4,340        4,487       4,401        (86)        4,429           0
----------------------------------------------------------------------------------------------------------------
NESDIS
----------------------------------------------------------------------------------------------------------------
Ice Services                                   890          890         878        (12)          881           0
Archive, Access, and Assessment              3,959        3,575       3,524        (51)        3,967         384
Product Development, Readiness &             7,342        7,580       7,475       (105)        7,425           0
 Application
Observational research and pilot             1,300        1,300       1,282        (18)        1,287           0
Pre-operational/operational products         1,000        1,000         986        (14)          990           0
Other Ocean remote Sensing                   1,700        1,540       1,519        (21)        1,525           0
Product Processing and Distribution          3,540        3,540       3,501        (39)        3,505           0
Satellite Command & Control                      0          800         789        (11)          792           0
Archive, Access & Assessment                 7,530        7,532       7,429       (103)        8,556         912
Coastal Data Development                     4,510        4,576       5,380         804        4,546           0
----------------------------------------------------------------------------------------------------------------
NESDIS Sub-total                            31,771       32,333      32,763         430       33,474       1,296
================================================================================================================
TOTAL, NOAA DMAC--IOOS                      57,132       62,531      60,542     (1,989)       63,602       3,305
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                Vice Admiral Conrad C. Lautenbacher, Jr.

Marine Mammals
    Question 1. The FY 2007 budget request proposes only $23.1 million 
for marine mammal protection activities--which is a cut of $17.1 
million from the FY 2006 enacted level of $40.2 million and $58.4 
million less than the FY 2005 enacted level of $81.5 million. Thus, in 
2 years funding for this research and management activity was cut 72 
percent at a time when marine mammal mortality is rising, whether 
through ship strikes, bycatch, or strandings.
    The cuts to the marine mammal budget in the past 2 years are 
staggering. In FY 2005 we provided $81.5 million, and now in FY 2007 
you are requesting only $23.1 million. This is a 72 percent cut to 
marine mammal protection funding. How can NOAA possibly meet its 
mandates under the Marine Mammal Protection Act and the Endangered 
Species Act at a funding level that has been reduced by 72 percent in 2 
years?
    Answer. The FY 2007 President's budget request for the marine 
mammal line is reduced from the FY 2005 and FY 2006 enacted levels for 
a couple of reasons. Principally, funding has not been requested for 
$18.9 million in Congressionally-directed items. Also, in accordance 
with our FY 2006 appropriation, funding for activities in Alaska are 
now being requested under the Alaska Composite Research and Development 
line. In FY 2005, the enacted total for marine mammal items in the 
Alaska composite was $30.7 million; the President's FY 2006 request was 
for $15.8 million, and the FY 2006 enacted total was $21.2 million. The 
FY 2007 request for these items is $13.6 million.
    We have requested an increase for base marine mammal activities, 
which is included in the protected species research and management 
programs line (part of the $5.825 million increase). Although the 
overall net request is lower than the FY 2006 enacted level, NOAA 
believes it will be able to address its mandates within the context of 
other competing agency priorities.

    Question 2. Even at FY 2005 funding levels, NOAA failed to meet its 
own performance goals related to marine mammals. How will NOAA possibly 
improve its performance with substantially less money?
    Answer. These measures were not met for reasons not directly 
related to funding. Of the two unmet performance measures, one is 
specifically for marine mammals and the other is for all endangered 
species (including marine mammals). The FY 2007 request includes an 
increase for the other protected species line to help recover 
endangered species that do not have a separate funding line.
    In addition, the two performance measures in question were revised 
beginning in FY 2006 due to the complexity of estimating the ``risk of 
extinction,'' which is done only as part of a full status review about 
once every 5 years. The new performance measures--whether we have 
protected species at stable or increasing levels and whether we have 
adequate assessments of our species--provide more realistic assessments 
of our annual actions.

    Question 3. Given the funding reductions in the President's 
proposed budget, I believe it is fair to assume that you will continue 
to miss your performance goals for marine mammals and endangered 
species management programs in the year to come.
    Since you are unable to achieve your stated goals with the 
resources you have now, please provide detailed information on what 
impact the further cuts will have on current services.
    Answer. The protected species management program has revised all 
performance measures for the program to better reflect actual 
performance of the program as well as to allow better tracking and 
reporting of performance measures. The revised performance measures 
reflect a focus on protected species, and the conservation and recovery 
of protected species through assessments, planning, and actions. The 
new measures: (1) track progress at achieving partial recovery of 
endangered, threatened, or depleted protected species under the 
jurisdiction of NMFS, and (2) gauge efforts to improve the quality and 
quantity of information used in assessing the status of individual 
stocks of protected species.
    Performance toward the FY 2006 and FY 2007 targets is based upon 
actions that have been taken over the last 5-10 years for protected 
species. Efforts include completion of recovery plans for Pacific 
salmon in the NMFS Northwest Region, continued implementation of 
recovery actions for Pacific salmon through both ESA Pacific salmon 
recovery funds and grants provided through the Pacific Coastal Salmon 
Recovery Fund, and improved information gained through updated stock 
assessments and implementation of monitoring programs.
    In FY 2007, NOAA will continue to make specific investments to 
improve the status of all protected species in order to meet out-year 
performance targets. These specific actions include: implementing ESA 
recovery plans, reducing bycatch of marine mammals and sea turtles in 
fisheries by completing take reduction planning efforts, and 
implementing ship strike reduction strategies for right whales. 
Improved protected species stock assessments and improved understanding 
of the effects of ocean noise will help us to make informed management 
decisions, leading to increased protection for species, while allowing 
human activities to continue.
    Performance reporting for protected species in FY 2007 will be 
focused on increasing the abundance of threatened, endangered, or 
depleted protected species. NOAA does expect to achieve improved 
performance through improved abundance trends in non-marine mammal 
species. However, it is unrealistic to expect that all marine mammal 
species will achieve stable or increasing trends over the next 5 years.

Western Pacific Region Cuts
    Question 4. The FY 2007 budget proposes cuts to a number of ocean 
and coastal programs important to coastal members, including those 
endorsed by the Report of the U.S. Commission on Ocean Policy. In 
addition, the budget proposes a number of significant cuts to programs 
in Hawaii and the Western Pacific.
    Admiral, I am alarmed at the depth of the cuts that you have 
proposed for the Western Pacific Region. As you know, this region 
covers 13 million square miles, an area three times larger than the 
continental United States, and contains important resources both for 
the U.S. economy and for healthy ecosystems.
    Given that economic benefits to the Nation from our pelagic 
fisheries approach $2 billion annually, why did you cut $5 million to 
effectively de-fund the Pacific Islands fishery management region, 
which provides essential oversight and management of this fishery?
    Answer. When the Pacific Islands Regional Office and Pacific 
Islands Fisheries Science Center were established in 2002, the effect 
on NMFS' budget was expected to be neutral when considered along with 
other possible consolidations. Since FY 2004, Congress has provided 
$5.0 million for the Pacific Islands Region/Center along with 
discouraging other consolidations. This Congressionally-directed 
funding was not included in the President's FY 2007 request. NOAA will 
continue to examine its future operational needs in the context of 
available resources.

    Question 5. How do you plan to operate effectively without a 
regional office? Have you ever eliminated funding for any other NMFS 
region?
    Answer. The Pacific Islands Regional Office and Pacific Islands 
Fisheries Science Center were established to carry out responsibilities 
assigned to NMFS in the central and western Pacific. These offices were 
specifically established to better serve this area. NMFS plans to 
continue the operation of the Pacific Islands Regional Office and 
Pacific Islands Fisheries Science Center; there are no plans to operate 
without these offices. In addition, program funding for other regions 
is also reduced in the President's FY 2007 budget request.

    Question 6. Given the importance of protecting sea turtles, which 
are particularly at risk from expanding Pacific foreign fleets, why was 
the Hawaiian Sea Turtle program cut from $7.8 to $3.2 million?
    Answer. The FY 2007 President's Budget request is stable at the FY 
2006 requested level. This level will ensure continued improvement in 
management of sea turtles. At the requested level, funding for Hawaiian 
Sea Turtles is in line with other ESA sea turtle funding.

    Question 7. Please provide a breakdown of funding proposed in the 
FY 2007 budget for Hawaii and the Western Pacific region in each of the 
line offices, as compared to FY 2006 enacted levels, focusing on 
fisheries research and management, protected resources, coastal science 
and programs (including marine debris, NWHI, and sanctuaries programs), 
and weather forecasting and climate research and services.
    Answer. The tables below provide the information as requested, for 
each line office. However, it is important to note that NOAA conducts 
many activities at the national level. These centralized activities 
benefit the entire Nation, including Hawaii and the Western Pacific 
region. Some activities not included in the tables below are satellite 
observations (all NESDIS programs are national in scope), centralized 
weather modeling activities (including the National Centers for 
Environmental Prediction and other NWS headquarters programs), and 
NOAA's oceanic and atmospheric observations and research that benefit 
the entire Nation by improving weather, air quality, and climate 
forecasts. Additionally, NMFS and NOS headquarters programs are also 
not included in these tables; some examples include the Essential Fish 
Habitat Program, the National Observer Program, the marine mammal 
health and Stranding Response Program, the National Marine Sanctuary 
Program, and the NOAA Coral Conservation Program.

------------------------------------------------------------------------
                                               FY 2006  FY 2006  FY 2007
              NWS (value in $M)                Request  Enacted  Request
------------------------------------------------------------------------
Total for Region                                 22.79    22.79    22.79
Fisheries Research and Management                 ----     ----     ----
Protected Resources                               ----     ----     ----
Coastal Science and Programs                      ----     ----     ----
Weather Forecasting                              22.79    22.79    22.79
Climate Research and Services                     ----     ----     ----
------------------------------------------------------------------------


------------------------------------------------------------------------
                                               FY 2006  FY 2006  FY 2007
              NMFS (value in $M)               Request  Enacted  Request
------------------------------------------------------------------------
Total for Region*                                   20       25       20
Fisheries Research and Management                   11       13     11**
Protected Resources                                  9       12      9**
Coastal Science and Programs                      ----     ----     ----
Weather Forecasting                               ----     ----     ----
Climate Research and Services                     ----     ----     ----
------------------------------------------------------------------------
* Note: The NMFS Total for Region includes only Fisheries Research and
  Management and Protected Resources, and does not include all NMFS
  spending in Hawaii (for example, does not include habitat
  conservation, enforcement, observers, etc.).
** ATBs have not been spread for these lines.


------------------------------------------------------------------------
                                               FY 2006  FY 2006  FY 2007
              NOS (value in $M)                Request  Enacted  Request
------------------------------------------------------------------------
Total for Region                                23.822   33.153   23.707
Fisheries Research and Management                 ----     ----     ----
Protected Resources                               ----     ----     ----
Coastal Science and Programs                    23.822   33.153   23.707
Weather Forecasting                               ----     ----     ----
Climate Research and Services                     ----     ----     ----
------------------------------------------------------------------------


------------------------------------------------------------------------
                                               FY 2006  FY 2006  FY 2007
             NESDIS (value in $M)              Request  enacted  Request
------------------------------------------------------------------------
Total for Region                                  ----    4.931     ----
Fisheries Research and Management                 ----     ----     ----
Protected Resources                               ----     ----     ----
Coastal Science and Programs                      ----     ----     ----
Weather Forecasting                               ----     ----     ----
Climate Research and Services                     ----    4.931     ----
------------------------------------------------------------------------


------------------------------------------------------------------------
                                               FY 2006  FY 2006  FY 2007
              OAR* (value in $M)               Request  Enacted  Request
------------------------------------------------------------------------
Total for Region                                   8.1      8.3      6.4
Fisheries Research and Management                  1.3      1.6      1.0
Protected Resources                                1.3      1.6      1.0
Coastal Science and Programs                       3.5      3.3      2.6
Weather Forecasting                               ----     ----     ----
Climate Research and Services                      2.0      1.8      1.8
------------------------------------------------------------------------
*Note: OAR totals for FY 2007 include estimated amounts for
  competitively awarded programs.


------------------------------------------------------------------------
                                               FY 2006  FY 2006  FY 2007
      NOAA Regional Totals (value in $M)       Request  Enacted  Request
------------------------------------------------------------------------
Total for Region                                74.712   94.174   72.897
Fisheries Research and Management                 12.3     14.6     12.0
Protected Resources                               10.3     13.6     10.0
Coastal Science and Programs                    27.322   36.453   26.307
Weather Forecasting                              22.79    22.79    22.79
Climate Research and Services                      2.0    6.731      1.8
------------------------------------------------------------------------

    Question 8. Please provide a comparison of these proposed budget 
amounts with those proposed in the FY 2007 budget for other regions, 
and list also the size of each region, as compared with the Western 
Pacific.
    Answer. The table below provides a comparison of proposed FY 2007 
funding by region, for each line office. However, as noted above, NOAA 
conducts many activities at the national level and these centralized 
activities benefit the entire Nation, including Hawaii and the Western 
Pacific region.

----------------------------------------------------------------------------------------------------------------
                                  Western
           Value in $M            Pacific   Alaska  Northwest  Southwest  Northeast  Southeast  Central   Other
----------------------------------------------------------------------------------------------------------------
NOS                                23.707     38.1    16.188       14.4     59.811     76.145      ----     ----
NMFS                                   30      125       145         64         93         99      ----     ----
OAR*                                  6.4      4.2      28.7       14.8      111.6       33.8      66.9     ----
NWS**                               22.79    32.12     23.57      17.88      84.59     106.77    112.28    42.25
NESDIS***                            ----     ----      ----       ----       ----       ----      ----    1,033
----------------------------------------------------------------------------------------------------------------
* Note: OAR totals for FY 2007 include estimated amounts for competitively awarded programs.
** Note: NWS ``Other'' includes AZ, MT, NV, UT. NWS National Centers for Environmental Prediction, and other NWS
  Headquarters programs not included.
*** Note: NESDIS does not operate on a regional basis; all NESDIS programs are national in scope.

Tsunami Program Funding
    Question 9. The NOAA tsunami warning system includes: (1) detection 
mechanisms (e.g., water level monitoring and Deep-ocean Assessment and 
Reporting of Tsunami (DART) buoys); (2) forecasting and warning 
systems; and (3) research programs. In response to the concern over the 
adequacy of U.S. tsunami warnings and preparedness after the Indian 
Ocean tsunami, and the failure of a number of DART buoys, Congress and 
the Administration began increasing funds to tsunami programs, from a 
total of $11 million in FY 2004 to $17 million in FY 2006, including 
funds for the purchase and deployment of 13 new DART buoys and 
expansion of the system to the Gulf and Atlantic.
    While the Administration's FY 2007 budget proposes a $7.6 million 
increase for the expanding program, it level funds or cuts very 
important preparedness programs that states depend on, including the 
Tsunami Hazard Mitigation Program and the ``TsunamiReady'' program. In 
addition, the Administration proposes level funding for the Alaska and 
Hawaii warning centers and research programs even as the system needs 
to expand. A full $7.4 million increase is specified for ``operations 
and maintenance of deployed buoys,'' yet only last month another 3 DART 
buoys failed because they broke from their moorings. This raises 
concern that important on-the-ground programs may be starved while 
increasing funding to contractors who are not providing good service.
    Admiral, while I am gratified that tsunami funding has increased, I 
am concerned that the budget increase leaves behind the very states and 
localities most at risk from tsunami and other coastal hazards. If we 
go down this path, we are inviting catastrophe. In addition, 3 Pacific 
DART buoys recently failed, increasing local risks. How do you intend 
to increase state preparedness if you level fund or cut key components 
of the tsunami warning and mitigation system--including the Tsunami 
Hazard Mitigation Program, the TsunamiReady program, and the Tsunami 
Warning Centers?
    Answer. Overall funding for the Federal tsunami effort has 
increased and the efforts in the National Tsunami Hazard Mitigation 
Program (NTHMP) and preparedness and mitigation will increase. NOAA 
Tsunami Warning Centers have implemented 24/7 operations. The funds 
requested in the FY 2007 budget request for the NTHMP will provide the 
same level of funding to the Pacific states as has been available in 
the past. NOAA's program to upgrade the Nation's tsunami warning 
program will now fund all tsunami detection (DART station research and 
development and DART station operations and maintenance) and tsunami 
inundation mapping, modeling and forecast efforts that in previous 
years were funded by the NTHMP. The NTHMP is in the process of 
expanding from five Pacific states to a national program. The NTHMP 
steering committee is formulating a funding distribution process based 
on tsunami hazard assessment. The methodology should be developed by 
December 2006, to guide FY 2007 distribution of funds. In the near-
term, the NTHMP will focus funding in the areas believed to face the 
largest threat of tsunamis, while conducting more comprehensive hazard 
assessments of all coastal areas to determine national program 
requirements. At the February 2006, NTHMP meeting, additional funding 
was provided to support Puerto Rico, and the U.S. Virgin Islands. 
Mayaguez, Puerto Rico is finalizing evacuation plans and scheduled to 
become TsunamiReady this year. St. Thomas, in the U.S. Virgin Islands, 
is anticipated to be the next TsunamiReady community recognized in the 
region.

    Question 10. You propose a healthy $7.4 million increase for buoy 
operations and maintenance, but given the recent buoy failures, I 
question the quality of buoy service. Please explain:

    (1) The cause of the mooring failures and identity of the 
contractor and NOAA facility charged with deployment.

    Answer. The bottom pressure recorders that identify the tsunami and 
the buoy communication system have not recently failed. However both 
stations off the Pacific Northwest frequently are set adrift when their 
mooring lines are severed. An alternate mooring design with metal 
cladding is being used in an attempt to discourage deliberate cuts by 
fishing vessels or other sources. This geographic area is a high 
traffic area for fishermen and commercial traffic. One of the four 
Aleutian buoys is also adrift. This buoy has not yet been recovered so 
cause is undetermined at this time; however, the mooring on this 
Aleutian buoy was at or beyond its expected life and it is possible 
that the mooring failure was the result of severe winter weather in the 
North Pacific. NOAA will be strengthening the mooring lines of the 
Alaskan DART buoys, to help secure these lines in preparation for the 
severe winter weather season. In addition, NOAA will be deploying a 
minimum of three ``in-the-water'' DART spares for Alaska to ensure 
tsunami warning coverage throughout the prolonged and severe winter in 
the North Pacific.
    NOAA's National Data Buoy Center (NDBC) procures the mooring 
components and uses a support services contractor, the Science 
Applications International Corporation (SAIC), to fabricate the 
mooring. NDBC is responsible for integration and deployment of the DART 
buoys and provides the contract oversight.

    (2) Specific uses of the $7.4 million increase.

    Answer. The $7.4M increase provides $4.1M to provide operations and 
maintenance (O&M) support for the 26 DART stations planned for 
deployment through FY 2006 and $3.3M in ship time costs to support 
planned DART station O&M. The DART stations consist of a bottom 
pressure recorder and a communications buoy. Along with seismic and sea 
level sensors, these stations provide critical improvements to the 
Tsunami Forecast System. The $4.1M for DART station O&M ($180K average 
O&M cost per buoy) includes: (1) buoy refurbishment costs for 
batteries, cables, moorings, communications, and electronics; and (2) 
direct costs for labor, IT services (monitoring, processing, and 
quality control of DART signal), and engineering support.
    The $3.3M is to provide ship support for the planned 26 buoys 
located in the Pacific off Hawaii and the U.S. West Coast (7), Gulf of 
Alaska/Aleutians (7), western Pacific off Kamchatka and Japan (5), Gulf 
of Mexico (1), Caribbean (3), and Atlantic (3). Our ship time cost is 
based on an estimated $25K average daily rate for ship time support.

    (3) NOAA's contract oversight process for buoy deployment and 
maintenance, including contractor quality control and procedures 
followed in the event of contractor failure.

    Answer. NOAA's National Data Buoy Center (NDBC) procures the DART 
components from many vendors. To the maximum extent possible those 
components are tested prior to integration by SAIC. NDBC has world 
class test facilities. Additionally, major components are tested after 
being assembled to assure they can operate in the extreme cold and 
pressure of the ocean bottom, or communicate with the Tsunami Warning 
Centers. Testing is also done aboard ship prior to deployment and all 
communication channels are tested before the ship leaves the deployed 
DART station. There are contractual penalties for instances where 
contractor error is to blame for mission failures. The contractor is 
not penalized when a DART buoy mooring is deliberately cut by an 
outside source (a fishing or commercial vessel, for example).

Censorship of NOAA Climate Scientists
    Question 11. Over the last few months the lead climate scientist at 
NASA, Dr. James Hansen, has asserted that the Administration is keeping 
scientific information on climate change from reaching the public, 
which has resulted pledges from NASA Administrator Griffin to block any 
such actions. This month Dr. Hansen reported that scientists at NOAA 
climate laboratories are being similarly stifled, a claim now repeated 
in a February 16, 2006 Wall Street Journal article.
    Admiral, these new claims today that NOAA climate scientists have 
been silenced by either NOAA public affairs personnel or the White 
House are extremely serious and appear to contradict your statement 
yesterday that NOAA scientists are encouraged to speak freely. NOAA 
policies are supposed to ensure that scientists can speak publicly, 
without interference, about their research. Are the practices reported 
in the Wall Street Journal (Statement Acknowledges Some Government 
Scientists See Link to Global Warming, February 16, 2006; Page A4) 
consistent with NOAA's official policies?
    Answer. Since June of 2004, we have had an official Media Policy 
(NOAA Administrative Order #219-6; available at http://
www.corporateservices.noaa.gov/%7Eames/NAOs/Chap_219/naos_219_6.html), 
which provides the guidance and framework for our interactions with the 
media here at NOAA. From my perspective, there is no conflict between 
that policy and what I stated in the hearing; they are complementary. 
It is important that NOAA scientists and managers continue to discuss 
their research and expertise with the media because it helps us explain 
to the public what NOAA is doing for them. To help facilitate this 
process, NOAA's Office of Public, Constituent and Intergovernmental 
Affairs (OPCIA) officers have always played a support role in the 
facilitation of interviews.
    Public Affairs professionals are here to get the NOAA story out as 
effectively as possible. They do this by helping journalists get to the 
most appropriate subject matter expert within NOAA, and to ensure that 
the expert is available, willing, and prepared for the interview. 
Public Affairs officers routinely follow up with the journalist on 
requests for additional facts, and inform me when to expect the news. 
That's the general procedure I usually follow and have found that 
public affairs support is helpful in my dealings with the media. 
Working with public affairs before, during, and after an interview is a 
best practice and is part of the Media Policy.

    Question 12. How can you be sure all personnel, including political 
appointees, comply with your promise, as well as the policies? After 
these press reports, what are you doing to promote openness and ensure 
that the Administration is not censoring or limiting public access to 
NOAA scientists?
    Answer. I expect my employees to follow my guidance. I have made my 
expectations clear in a number of meetings with my career and political 
senior executives and in an e-mail to every employee within NOAA. I 
have stated that I want our researchers to promote their science and 
that I expect transparency between NOAA, the media, and the public.

    Question 12a. What in your policies would protect NOAA scientists 
from interference or involvement of Administration appointees outside 
your Agency?
    Answer. Leadership within both NOAA and the Department of Commerce 
are committed to maintaining the integrity of our scientific 
operations, and recognize scientific integrity is important to the 
ongoing success of the agency's programs. Our Media Policy requests 
that a scientist work with a NOAA Public Affairs representative on news 
releases and media interviews. As you know, NOAA is an agency within 
the Department of Commerce, which has the ultimate responsibility for 
the release of news, clearance of publications and media coverage as 
outlined in Department Administrative Order (DAO) 219-2. The Department 
is also looking at revising their current policies.

    Question 13. What role does the White House Council on 
Environmental Quality (CEQ) and the White House's Climate Change 
Science Program (CCSP)--which is led by your Deputy Administrator, Dr. 
James Mahoney--play in the review and public release of scientific 
findings or statements of NOAA scientists?
    Answer. NOAA scientific documents (i.e., scientific/technical 
papers and publications developed by NOAA scientists as a part of their 
normal work) are reviewed for technical merit in accordance with the 
NOAA Information Quality Act Guidelines and internal scientific review 
processes.
    Official NOAA positions or policies (including those of scientific 
nature) are reviewed and cleared by NOAA management. As good management 
practice, we do notify the Department of Commerce, of which NOAA is a 
part, and relevant White House entities, including CEQ, of newsworthy 
scientific findings from NOAA scientists. We value the work of our 
scientists and want those that manage NOAA to be aware of scientific 
advancements and be able to promote or speak to the good work in our 
agency.
    If NOAA scientists have the lead on a written product developed 
under the sponsorship of CCSP, then NOAA, the CCSP Interagency 
Committee, and the National Science and Technology Council will review 
and approve the document for release. In this situation, the process is 
posted on the CCSP website (www.climatescience.gov). Otherwise, the 
typical NOAA scientific publication is not reviewed by CCSP as a matter 
of practice.

NOAA Left Out of Competitiveness Initiative
    Question 14. At his State of the Union address, the President 
announced an ``American Competitiveness Initiative'' to increase 
national scientific advancement and innovation. The $5.9 billion FY 
2007 Initiative proposes funding to: (1) increase investments in 
research and development; (2) strengthen education in math, science, 
engineering, and technology; and (3) encourage entrepreneurship. Over 
10 years, the Initiative commits $50 billion to increase funding for 
research and $86 billion for research and development tax incentives. 
Agencies proposed for inclusion are the National Science Foundation 
(NSF), the Department of Energy's Office of Science, and the Department 
of Commerce's National Institute of Standards and Technology (NIST).
    Despite the important contributions that NOAA's research and 
development could make to advancing U.S. competitiveness, the President 
did not include NOAA.
    As the U.S. Ocean Commission noted, an increased investment in 
ocean and atmospheric science and technology is needed to understand 
more about our planet, of which most is covered by ocean. NOAA and its 
partners are developing exciting new technologies to aid in this 
effort, and these technologies, in turn, have applications that could 
increase our competitiveness, such as in the areas of tsunami and 
hazards prediction, biomedical advances, education, and defense.
    Can you explain why NOAA was not included in the President's 
American Competitiveness Initiative?
    Answer. The Competitiveness Initiative, and the new investments in 
physical sciences and engineering, will ensure our continued economic 
and technological leadership around the world. That is important to 
NOAA, and is a key element in the cross-cutting way we are conducting 
our Federal research and development enterprise.
    The American Competitiveness Initiative (ACI) focuses on Federal 
research and development (R&D) agencies that fund or contribute R&D 
assets to the mathematical and physical science base that directly 
supports innovation in private industry. The three agencies named in 
the American Competitiveness Initiative were chosen because they 
support the largest proportion of basic research in physical sciences 
and engineering--two areas that need additional support. These fields 
are high-leverage fields and produce both the fundamental research 
results and new research tools that support all of the sciences.

    Question 15. What NOAA research or programs would be valuable 
assets in promoting U.S. technical and scientific competitiveness?
    Answer. With continued support from Congress, NOAA is in a strong 
position to improve the science base for environmental decisionmaking 
and generate broad benefits for the economy and society. NOAA's highest 
technical priority is to build integrated, global Earth observations. 
We need to build, on a global basis, the capability to observe the 
Earth in many dimensions and time scales, and improve the scientific 
basis for using those observations to predict weather conditions, 
understand climate trends, and reveal the complicated physical and 
biological interrelationships that shape the health and productivity of 
our ecosystems.
    To address the growing requirements for environmental data on 
national and global scales, NOAA, NASA, and the Office of Science and 
Technology Policy (OSTP) are leading the implementation of the 
Strategic Plan for the U.S. Integrated Earth Observing System, through 
the U.S. Group on Earth Observations (USGEO). The U.S. Integrated Earth 
Observation System is an essential component of the Global Earth 
Observation System of Systems, or GEOSS, which is a global Earth data 
collection and dissemination initiative to benefit worldwide 
stakeholders and decision-makers. GEOSS will allow users to share, 
compare and analyze a diverse array of datasets, providing the 
information necessary to mitigate the impacts of natural hazards. GEOSS 
will provide the global information required to understand the 
interactions between Earth processes and, thereby, improve the 
forecasting skills of a wide range of natural phenomena, such as a 
hurricane in the Atlantic, a typhoon in the western Pacific, and the 
impact of El Nino throughout the globe. GEOSS will also promote 
improved decisionmaking in various sectors, including natural resource 
management, public health, agriculture and transportation. NOAA's 
environmental satellite systems and NASA's integrated global Earth 
system science satellite constellation are among the critical 
components of the GEOSS initiative.
    A related priority centers on climate science. Our economy 
functions within a highly variable climate system. Conditions change 
over the span of seasons, years, decades, and longer. Our inability to 
understand and predict climate patters has a huge impact on business 
uncertainty, particularly in energy-sensitive sectors. We must improve 
our ability to observe and understand the carbon cycle and further 
research the role of aerosols on global climate. The Alaska Climate 
Reference Network is particularly crucial. Further, we will investigate 
how society can cope with drought conditions resulting from changes in 
climate.
    NOAA's capabilities in ecosystem science can also contribute to the 
health of our Nation's economy. We must strengthen our research base 
and technical contributions to the development of aquaculture and 
ecological forecast modeling, and build local capacity to protect coral 
reefs. The economic value of our ecosystems is nearly incalculable--
they provide irreplaceable services such as important habitat for 
commercial fisheries, a foundation for tourist-based industries, and 
serve as a buffer for sensitive coastal areas. For example, coral reef 
ecosystems provide resources and services worth billions of dollars 
each year to the United States economy and economies worldwide. Coral 
reefs support more species per unit area than any other marine 
environment, including about 4,000 species of fish, 800 species of hard 
coral and thousands of other species. Approximately half of all 
federally-managed fisheries depend on coral reefs and related habitats 
for a portion of their life cycles. The National Marine Fisheries 
Service estimates the annual commercial value of U.S. fisheries from 
coral reefs is over $100 million. Local economies also receive billions 
of dollars from visitors to reefs through diving tours, recreational 
fishing trips, hotels, restaurants, and other businesses based near 
reef ecosystems. In the Florida Keys, for example, coral reefs attract 
more than $1.2 billion annually from tourism. In addition, coral reef 
structures buffer shorelines against waves, storms and floods, helping 
to prevent loss of life, property damage and erosion. NOAA's ecosystem 
approach to resource management will enhance our ability to improve 
management of watersheds and marine resource areas, and will improve 
the science base for maritime-based industries such as aquaculture.
    NOAA continues to develop and deploy leading-edge scientific and 
technical capabilities in sensor technologies and other advanced 
instrumentation for environmental observations; technologies for 
managing and efficiently using extraordinarily large volumes of data; 
technologies for efficiently assimilating data into models; and 
computationally-intensive modeling techniques and related scientific 
computing technologies. Each of these areas is broadly important to the 
Nation's scientific and technical competitiveness.

    Question 16. In what areas could such programs or research 
contribute to U.S. competitiveness?
    Answer. Long-term competitive advantage will accrue to countries 
that create innovative, sustainable solutions to economic and societal 
growth. NOAA's environmental observations, research and information 
services, and resource management activities provide infrastructure 
assets that support efficient commerce, reduce business uncertainty and 
business costs, and directly benefit the economy and society. The 
competitive impacts of NOAA's work are particularly pronounced in 
weather and climate sensitive industries, the energy sector and energy-
intensive industries, maritime-based industries, and the transportation 
sector.
    For example, weather and climate sensitive industries account 
(directly or indirectly) for about one-third of the Nation's GDP, or $3 
trillion, ranging from finance, insurance, and real estate to services, 
retail and wholesale trade and manufacturing. Throughout the economy, 
businesses constantly grapple with the high uncertainty and variability 
of environmental conditions over time. To reduce uncertainty and 
improve the environment for stable economic and societal growth, NOAA 
must improve the Nation's ability to measure, model, and predict 
climate and ecosystem conditions with high economic impacts--
particularly impacts associated with drought, human health, 
agriculture, energy, and ocean and coastal resources.
    Environmental events also have large economic and societal 
consequences. Total losses for the 2005 hurricane season in Louisiana, 
Mississippi, and Alabama, have been estimated at $140 billion, of which 
$40 to $67 billion were insured. NOAA must continue to strengthen and 
expand its ability to observe, model, forecast, and warn of 
environmental events. We are working to continue to strengthen our 
ability to warn against tsunamis, hurricanes, and other weather events 
by initiatives in the FY 2007 budget such as collecting more data with 
buoy systems, new aircraft instrumentation, and the NOAA Profiler 
Network. The National Weather Service Telecommunications Gateway 
ensures that NOAA obtains and distributes valuable hydrometeorological 
information.
    The competitiveness implications for NOAA's technical 
infrastructure assets also are evident in the transportation sector. 
More than 78 percent of U.S. overseas trade by volume and 38 percent by 
value comes and goes by ship, including nine million barrels of 
imported oil daily. Waterborne cargo alone contributes more than $742 
billion to the U.S. GDP and creates employment for more than 13 million 
citizens. NOAA's technical information services are essential to the 
safe and efficient transport of people and goods at sea, in the air, 
and on land and waterways. NOAA is working to further improve 
competitiveness by expanding our ability to collect water vapor and 
oceanographic observations, which will improve aviation and marine 
navigation safety and efficiency. We also can achieve greater 
transportation efficiencies through expanded deployment of electronic 
navigational charts and other innovative navigation tools.
    These and related technologies are key steps toward addressing the 
long-term challenge of transportation capacity constraints: the 
constantly rising volume of trade requires new technologies that can 
increase the density of transportation systems. Individual technologies 
can have large economic consequences: for example, NOAA's real time 
navigation information system, after being deployed in just one medium 
size Florida port, increased productivity by over $5 million per year 
through better ship loading, improved traffic flow, and reduced 
groundings. Similarly, improvements in NOAA's ocean condition 
information systems have generated savings of approximately $95 million 
through improved ship transit planning and routing. Collectively, 
NOAA's navigation and transportation-related technologies directly 
affect the efficiency and cost-effectiveness of entire distribution 
systems and supply chains, both central to the competitiveness of U.S.-
based industries.

    Question 17. Why has the Administration failed to restore or 
increase funding for NOAA programs that facilitate innovative research? 
These programs result in improved technology and have direct management 
implications. For example, the Oceans and Human Health Initiative, 
created by our legislation in 2005, was zeroed-out of the request, 
despite its potential contribution to U.S. leadership in the highly 
competitive fields of marine product development and biomedical 
engineering.
    Answer. The interaction between oceans and human health is 
recognized as an important area of research within NOAA. While NOAA has 
not requested a specific budget item for Oceans and Human Health, we 
have requested funding for a number of programs related to this 
activity. For example, the National Centers for Coastal Ocean Science 
(NCCOS) has a long history of work in this area, such as harmful algal 
blooms, marine toxins and pathogens, chemical contaminants, seafood 
safety, beach and shellfish bed closings, and other coastal public 
health issues. With a 2007 request of at least $8.9M, NOAA will 
continue to make harmful algal bloom and hypoxia research a priority in 
2007. In addition, NOAA is actively participating in the Joint 
Subcommittee on Ocean Science and Technology (JSOST), Interagency 
Working Group on Harmful Algal Blooms, Hypoxia, and Human Health to 
address ocean and human health issues.

Climate Science Funding Changes
    Question 18. Admiral, last year, the Government Accountability 
Office (GAO) issued a report that suggested that the Administration is 
not providing sufficient clarity and transparency in their climate 
change science budgets, and that funding for climate science appears to 
be declining or shifting. Given these findings, I am particularly 
interested in understanding how funds are distributed among the 
programs within the NOAA climate research budget. I would also like to 
understand, given the recent concern over political interference in 
science, who sets the science funding priorities for NOAA.
    Can you explain how climate research funds are allocated between 
the different NOAA programs, and what types of research, both at NOAA 
and by external scientists, is conducted under each line item?
    Answer. The following outlines the programs involved and types of 
climate research conducted under each line item in the NOAA FY 2007 
budget request:
    NESDIS/ORF Archive, Access, and Assessment; FY 2007 Request 
$38,017K: The goal of Archive, Access, and Assessment is to provide 
long-term archive, access (customer service), stewardship, and 
assessments of observation data to a wide range of worldwide users. 
NOAA's National Climatic Data Center (NCDC), located in Asheville, 
North Carolina, is the largest climate data center in the world, and is 
the Nation's designated Federal records center for climate data. Over 
the past 3 years, the NCDC, in cooperation with scientists and other 
NOAA activities and Federal agencies, has designed and is deploying the 
Nation's first climate quality observing network, the U.S. Climate 
Reference Network.
    NESDIS/ORF Environmental Data Systems Modernization; FY 2007 
Request $9,346K: The goal of Environmental Data Systems Modernization 
is to provide increased access and utility to environmental data, 
information, products, and services through the use of innovative 
technologies and techniques.
    NESDIS/PAC Comprehensive Large Array data Stewardship System; FY 
2007 Request $6,476K: NOAA is responsible for the stewardship of over 
one petabyte of environmental data and information, and the volume of 
data is expected to grow significantly in the future as NOAA's next-
generation satellites come online. Comprehensive Large Array data 
Stewardship System (CLASS) is a data archiving and access system that 
will improve the quality and stewardship of NOAA's environmental data 
and information. By providing efficient, secure, cost-effective access 
to NOAA's environmental data via CLASS, NOAA is supporting key research 
challenges identified by the U.S. Global Change Research Program, such 
as natural climate patterns, global monsoon, and land-atmosphere and 
ocean-atmosphere exchanges.
    NMFS Climate Regimes & Ecosystem Productivity; FY 2007 Request 
$1,984K: This program aims to improve the understanding and prediction 
of climate variability and change on major U.S. marine ecosystems in 
the Bering Sea and Gulf of Alaska. NOAA intends to predict the probable 
consequences of climate change on marine systems by effectively 
integrating recent advances in climate science with non-climatic 
knowledge (e.g., ecosystem and living marine resource management 
information). NOAA conducts this project on a regional scale (i.e., 
within the fisheries-rich ecosystems of the Gulf of Alaska and 
southeast Bering Sea).
    NWS Central Forecast Guidance; FY 2007 Request $51,063K: The 
Climate Prediction Center (CPC), located in Camp Springs, Maryland, 
produces climate services consisting of operational prediction of 
climate variability; monitoring of the climate system and development 
of databases for determining current climate anomalies and trends; and 
analysis and assessment of their origins and linkages to the rest of 
the climate system. These services cover climate time scales ranging 
from weeks to seasons, extending into the future as far as technically 
feasible, and cover the domain of land, ocean and atmosphere, extending 
into the stratosphere. Weather Forecast Offices, as well as the public, 
private industry, and the international research community use CPC 
climate services.
    NWS Climate Services Division; FY 2007 Request $1.04M: The Climate 
Services Division at National Weather Service (NWS) headquarters 
provides the strategic vision for climate services at NWS and oversees 
the NWS climate services program. The NWS Climate Services Division 
develops policy and requirements for climate prediction products and 
other services related to the period of week two out to 1 year, 
including seasonal forecasts and threat assessments. The Division also 
sets NWS field policies and procedures for climate prediction products, 
defines service and mission needs, solicits user feedback to evaluate 
new products and services, and approves final product design.
    OAR Climate Budget; FY 2007 Request $181,151K: OAR supports climate 
research and the development and delivery of services and products 
across NOAA. The components of OAR's Climate Program are as follows:
    OAR Laboratories and Cooperative Institutes; FY 2007 Request 
$48,287K: The research conducted at OAR's laboratories and cooperative 
institutes aims to improve NOAA's ability to assess climate variability 
on a variety of time scales, from seasonal to interannual timescales, 
as well as interdecadal to centennial timescales and beyond. This 
research will lead to better understanding and prediction of climate 
variability and change and will help the Nation respond to the risks 
and opportunities associated with such change. Research activities 
include consistent and uninterrupted monitoring of the Earth's 
atmosphere and ocean, which can give us clues about long-term changes 
in the global climate, and the development and improvement of global 
climate models of physical and chemical processes governing the 
behavior of the atmosphere and oceans.
    OAR Competitive Research Program; FY 2007 Request $125,712K: NOAA's 
Competitive Climate Research Program within OAR is an integral part of 
the interagency U.S. Climate Change Science Program, which incorporates 
the U.S. Global Change Research Program and the Administration's 
Climate Change Research Initiative. The Climate Competitive Research 
Program includes the following former line items: Climate and Global 
Change, Climate Observations and Services, Climate Change Research 
Initiative, and Arctic Research. The program addresses an important 
aspect of global change--understanding the global climate system--and 
advances research and assessment activities designed to address the 
interface between scientific information and society's various 
decisionmaking needs. Current research activities are organized across 
the following elements within two main components, Research and Major 
Observing Systems. Topic areas include: improved understanding and 
modeling of ocean, atmosphere and land-surface processes to advance 
NOAA's operational climate forecasts, monitoring, and analysis systems; 
development of climate-based hydrological forecasting capabilities; 
decision support tools for water resource applications, and improving 
understanding of climate forcing processes (e.g., carbon cycle, 
aerosol-climate interactions). A key component of the Climate Research 
Program is the large focus on extramural and competitive research.
    OAR Climate Operations; FY 2007 Request $886K: Climate Operations 
activities support the development and delivery of improved forecasts 
at NOAA's National Weather Service on subseasonal through interannual 
timescales and beyond. This is achieved by improving model performance, 
developing new forecast designs, and upgrading existing datasets. 
Climate Operations activities also provide NOAA customers--farmers, 
utilities, land managers, business owners, energy, re-insurance, 
weather risk industry, and decisionmakers--with the ability to assess 
climate variability and make informed decisions to mitigate impacts of 
extreme climate events, such as droughts and El Nino.
    OAR Climate Data & Information; FY 2007 Request $6,266K: Climate 
Data & Information funding supports the management of the Nation's 
resource of global climatological in situ and remotely sensed data and 
information. The data and information collected are used: (1) to 
promote global environmental stewardship, (2) to describe, monitor and 
assess the climate, and (3) to support efforts to predict changes in 
the Earth's environment. This effort requires the cooperation of 
national and international meteorological services for the acquisition, 
quality control, processing, summarization, dissemination, and 
preservation of a vast array of climatological data.

    Question 19. How are priorities for NOAA climate research funding 
set?
    Answer. NOAA decides on climate research priorities through its 
planning, programming, budgeting, and execution (PPBES) process. This 
process begins with the formulation of a strategic plan and annual 
guidance memorandum which includes discussion with stakeholders and 
review by the external Science Advisory Board Climate Group. NOAA also 
receives input in the form of:

        (1) Strategic Plan for the Climate Change Science Program, 
        which calls for accelerated research in carbon and aerosols, 
        integrated global observations and modeling, and a focus on 
        decision support activities;

        (2) The new strategic plan for the U.S. Integrated Earth 
        Observation System (IEOS), which provides a blueprint for 
        integrated observations, data management, and modeling to 
        address key societal benefits;

        (3) The U.S. Ocean Action Plan which recommends integrated 
        ocean observations and data management, and science-based 
        information for decision management; and

        (4) Input provided by stakeholders through topical workshops 
        and assessments that are held periodically.

    The results of these decisions are subject to the budget and 
appropriations process.

    Question 20. How is the Climate Change Science Program (CCSP), 
which is headed by a political appointee, involved in setting these 
research funding priorities? Is this process fully transparent to the 
public and research community? What is the CCSP's involvement in the 
budget request process?
    Answer. CCSP is comprised of 13 departments and agencies (U.S. 
Agency for International Development, Department of Agriculture, 
Department of Commerce (including the National Oceanic and Atmospheric 
Administration and the National Institute of Standards and Technology), 
Department of Defense, Department of Energy, Department of Health and 
Human Services (including the National Institutes of Health), 
Department of State, Department of Transportation, Department of the 
Interior, U.S. Geological Survey, Environmental Protection Agency, 
National Aeronautics and Space Administration, National Science 
Foundation, and the Smithsonian Institution), each having their own 
budget prioritization process. CCSP agencies and CCSP Interagency 
Working Groups collectively determine a set of broad research 
priorities for the program for each fiscal year in coordination with 
the Executive Office of the President.
    CCSP budget requests are coordinated through the CCSP interagency 
working groups and other mechanisms with the approved priorities in 
mind, but ultimate budget accountability resides with the participating 
departments and agencies. As a result of this interagency composition, 
activities of the CCSP participating agencies are funded by Congress 
through nine of the 12 annual Appropriations bills.

    Question 21. What is the role of the Congressionally-established 
career-level Global Change Research Program in setting these research 
funding priorities? Who heads up that program now, and is it under the 
control of CCSP?
    Answer. As discussed in the CCSP Strategic Plan, the announcement 
of the Climate Change Science Program subsumed the activities and 
legislatively-mandated requirements of the U.S. Global Change Research 
Program (USGCRP) and the commitments of the Administration's Climate 
Change Research Initiative. CCSP, as shown the climate management 
structure in the Strategic Plan, is led by the Assistant Secretary of 
Commerce for Oceans and Atmosphere--a Senate-confirmed political 
appointee.
    The annual research priorities for CCSP (and USGCRP) are set 
through discussions with the CCSP Interagency Committee (composed of 
senior career representatives of each of the 13 CCSP agencies and 
departments), the scientific CCSP Interagency Working Groups (composed 
of senior scientists at their respective agencies), and liaisons from 
the Executive Office of the President.
    CCSP budget requests are coordinated through the CCSP Interagency 
Working Groups, but ultimate budget accountability resides with the 
participating departments and agencies. As a result of this interagency 
composition, activities of the CCSP participating agencies are funded 
by Congress through nine of the 13 annual Appropriations bills.

Pacific Climate Change Research
    Question 22. The 2005 launch of the Asia-Pacific Partnership on 
Clean Development and Climate highlights the important role of 
international collaboration plays in climate change policy and research 
in the Asia-Pacific region and worldwide. The State of Hawaii is home 
to a number of scientific institutions and programs that will be 
important assets in this collaboration.
    One of these Hawaii-based institutions is the International Pacific 
Research Center (IPRC) at the University of Hawaii, which was 
established in 1997 to provide an international, state of-the-art 
research environment to improve understanding of the nature and 
predictability of climate variability and of regional aspects of global 
environmental change in the Asia-Pacific area. The research done at the 
IPRC has been funded through a partnership with Japan's Frontier 
Research System for Global Change, the National Aeronautic and Space 
Administration (NASA), and NOAA, though NOAA's contributions have 
become more important as funding from Japan has dipped in recent years. 
No NOAA funding is provided in FY 2007.
    Admiral, the FY 2007 proposed NOAA budget cuts funding for the 
International Pacific Research Center. As one of the only institutions 
conducting systematic and reliable climate research over the entire 
Pacific region, the data produced and managed by the IPRC will be 
indispensable to understanding climate change. If the Administration 
proposes eliminating NOAA funding for this Pacific basin-wide program, 
I would interpret that as signifying a lack of support for 
international collaboration on climate science in the Pacific.
    Please describe NOAA's plan for international climate science in 
the region, including support for the Asia-Pacific Partnership and 
other regional climate agreements, such as the U.S.-Australia Climate 
Change Science bilateral and the long-standing science bilateral with 
Japan. Please also specify the amount of funding in the budget for this 
research activity, compared with FY 2006 enacted levels.
    Answer. The initial activities identified under the Asia-Pacific 
Partnership are focused on the development and diffusion of 
technologies that will reduce greenhouse gas emissions and do not 
include collaboration on climate science research. NOAA stands ready to 
participate on climate science when this element is addressed by the 
partnership. In the meantime, NOAA maintains a number of strong climate 
science partnerships in the Asia-Pacific region that continue to yield 
significant results.

  <bullet> NOAA requests $125.7 million for the Competitive Research 
        Program, an increase of $15.1 million over the FY 2006 enacted 
        level. This funding includes the following activities that 
        support partnerships in the Asia-Pacific region:

        -- An increase of $6.1 million for the Global Ocean Observing 
        System (GOOS). NOAA's Pacific environmental strategy includes 
        critical climate and ocean observations through support for 
        Pacific regional contributions to GOOS and, more recently, the 
        development of a Pacific Islands Integrated Ocean Observing 
        System.

        -- $3.4 million will support NOAA's Tropical Atmospheric Ocean 
        (TAO) buoy array. ($0.8 million is included in the GOOS budget 
        request mentioned above; $2.6 million is through the National 
        Weather Service's Local Warnings and Forecasts).

        -- $6.5 million will be used to operate the NOAA Research 
        Vessels Kaimimoana and Ron Brown, which provide ship time for 
        maintenance of the TAO array. This amount is consistent with FY 
        2006.

        -- $1 million will be used for Indian Ocean moored buoy 
        operations, consistent with FY 2006.

        -- $10.2 million will be used for the Argo Program, consistent 
        with FY 2006. NOAA and the Japan Agency for Marine-Earth 
        Science and Technology (JAMSTEC) are the top two providers of 
        profiling floats to the International Argo Program. The United 
        States, through NOAA, has committed to providing half of the 
        ultimate 3,000 float array when it achieves full capacity in 
        2007. Currently NOAA provides 1,253 and JAMSTEC provides 347 
        Argo floats.

        -- Each year there are a number of ongoing and new proposals 
        funded in the Pacific region through competitive grants. The 
        funding for these vary from year to year but information on 
        recent projects is available on the Climate Program Office 
        website at www.climate.noaa.gov.

  <bullet> NOAA requests $6.3 million for Climate Data and Information. 
        This request includes an increase of almost $3 million above 
        the FY 2006 enacted level for the U.S. Global Climate Observing 
        System (GCOS) program, which provides critical climate and 
        ocean observations in the Pacific.

  <bullet> NOAA requests $0.9 million for Climate Operations, an 
        increase of $0.5 million over the FY 2006 enacted level. This 
        request includes $200,000 for the Pacific El Nino Southern 
        Oscillation Applications Center (PEAC).

Project highlights in the Pacific region:

  <bullet> NOAA's twenty-year partnership with the Japan Marine-Earth 
        Science and Technology Center (JAMSTEC) remains strong and 
        fruitful, and includes both research and ocean observations to 
        detect and monitor changes in the equatorial Pacific due to 
        climate variability and change such as El Nino. Scientifically, 
        NOAA and JAMSTEC continue to jointly develop collaborative 
        research projects that utilize TAO (NOAA) and TRITON (JAMSTEC) 
        moored buoy data in the Pacific and Indian Oceans. 
        Observationally, the TAO-TRITON array of 72 moored buoys spans 
        the entire Pacific Ocean along the equator with Japan being 
        responsible for 12 moorings that are West of 165 +E longitude 
        and NOAA responsible for the 60 moorings located in the central 
        and eastern equatorial Pacific. JAMSTEC and NOAA's Pacific 
        Marine Environmental Laboratory have worked together to assure 
        that the TAO-TRITON buoy data provide free, open, and timely 
        data exchange for the global community.

  <bullet> NOAA and its extramural partners at the East-West Center, 
        the University of Hawaii, the University of Guam, and other 
        agency partners in the Pacific Risk Management Ohana continue 
        their substantial collaboration toward the development of an 
        integrated, regional climate information system for the 
        Pacific. This system will integrate climate observations, 
        research, operational forecasting, assessment and information 
        management activities supported by NOAA into a single, 
        integrated program. This coordinated effort will provide a 
        strong U.S. contribution to the emergence of a multi-national 
        Pacific Regional Climate Centre under the auspices of the World 
        Meteorological Organization.

  <bullet> In FY 2006, NOAA, the National Aeronautics and Space 
        Administration and Japan jointly fund the International Pacific 
        Research Center's Asia-Pacific Data Research Center (APDRC). 
        The vision of the APDRC is to link data management and 
        preparation activities to research activities within a single 
        center, and to provide one-stop shopping of climate data and 
        products to local researchers and collaborators, the national 
        climate research community, and the general public. Data 
        management tools from the APDRC support regional and 
        international climate research programs such as Global Ocean 
        Data Assimilation Experiment and Climate Variability program.

  <bullet> In September 2005, a data integration activity entitled the 
        NOAA Integrated Data and Environmental Applications (IDEA) 
        Center was begun under the auspices of NOAA's National Climatic 
        Data Center. The NOAA IDEA Center concept originated in FY 2005 
        as a means for better supporting Pacific environmental 
        information activities. A significant part of the NOAA IDEA 
        Center's work in FY 2005 was centered on the Pacific Region 
        Integrated Data Enterprise (PRIDE) proposal process, in which 
        14 PRIDE proposals were funded in FY 2005 across four NOAA line 
        offices by partnering joint resources with the International 
        Pacific Research Center. Proposals were funded in the following 
        three thematic areas: (1) Coastal and Climate Communities; (2) 
        Marine and Coastal Ecosystems; and (3) Risk Management. For FY 
        2006, 39 PRIDE proposals have been submitted for consideration 
        for funding; final decisions for selecting proposals for 
        funding will be made mid-April 2006.

  <bullet> Since 2003, the U.S. (led by the State Department) has 
        entered into a number of important bilateral climate 
        agreements. Specifically, the U.S. Global Climate Observation 
        System (GCOS) Program Office is involved in funding projects 
        with Australia and New Zealand that directly relate to 
        furthering the progress of GCOS and the Global Ocean Observing 
        System in the region. The bi-lateral agreements cover a wide 
        range of projects dealing with climate prediction, ocean 
        observing, stratospheric detection, water vapor measurements, 
        capacity building and training, and communication of 
        information, and will focus the attention and resources of all 
        these countries toward developing a more sustainable and robust 
        GCOS program.

        For example, NOAA is implementing two new projects in 
        conjunction with the National Institutes of Water and 
        Atmosphere (NIWA) in New Zealand. The first one involves the 
        implementation of a global stratospheric water vapor 
        measurement station in Lauder, New Zealand. Water vapor is a 
        key climate forcing agent, and this new monitoring site will 
        complement an existing site in Boulder, Colorado, which has 
        been taking similar high quality upper air water vapor 
        measurements since 1980. A second significant project involves 
        the implementation of a new ship track for trace gas 
        measurements that has been installed on a car carrier ship on a 
        route between Nelson, New Zealand, and Nagoya, Japan. This is a 
        brand new route and is unique in that it crosses both the 
        Inter-Tropical and South Pacific convergence zones which are 
        key areas of study from a global climate standpoint. The 
        Japanese have also been a great partner in this as they provide 
        the laboratory space on the ship at no charge to the project.

    Question 23. Why does the NOAA budget zero out funding for 
continuing international research on climate throughout the Pacific 
basin through the International Pacific Research Center?
    Answer. While we recognize that climate research is extremely 
important, budgetary constraints prevent NOAA from requesting support 
for the International Pacific Research Center. The Administration's FY 
2007 budget request reflects the priorities of the President and the 
Department of Commerce. Given the current fiscal climate, NOAA's 
request is focused on meeting core mission responsibilities, and only 
requests those increases which are required to support NOAA's programs.

    Question 24. Is any funding provided for IPRC in the President's 
budget, including outside of NOAA, such as in NASA? If so, where and 
how much funding is proposed?
    Answer. NASA has supported data analysis, research, and modeling at 
the International Pacific Research Center (IPRC) for the last 5 years 
with a total grant of $5M. NASA Headquarters is now waiting to receive 
a follow-on proposal from IPRC for another 5 years of funding starting 
in early FY 2007.
    NASA is planning for a total funding level for IPRC over the next 5 
year period. Historically, annual increments have varied over time 
depending on the spending rate and requirements at IPRC. Planned 
funding levels will be evaluated in light of the budgets provided for 
the Science Mission Directorate and the total Research & Analysis 
budget available, with the very modest growth expected in NASA's 
Science Mission Directorate funding during this period.
    The proposal from IPRC to obtain NASA funds will undergo scientific 
peer review and funding is contingent upon success of this process. If 
successful, a nominal start date of the funding is planned for 1/1/07. 
It is expected that IPRC investigators will submit competitive 
proposals to NASA Research Announcements and we expect that this can 
supplant funding through an unsolicited institutional grant by 2012.
Aviation/Weather Forecasting and Public Safety
    Question 25. Air Traffic Controllers in Honolulu have informed me 
that the staff which have been leaving are not being replaced . . . 
this has led to a shortfall of up to a dozen controllers in their 
ranks. Is it true that NOAA is planning to remove meteorological 
support from half or more of the Nation's Air Traffic Control Centers 
at the request of the FAA? What is the basis for such a decision, as 
well as the proposed schedule?
    Answer. NOAA does not plan to remove meteorological support from 
half or more of the Nation's Air Route Traffic Control Centers. 
However, the FAA has requested the National Weather Service (NWS) work 
with them to review, upgrade, and make the Center Weather Service Unit 
(CWSU) forecast process for the Air Route Traffic Control Centers 
(ARTCC) more efficient. Specifically, the FAA requested a 20 percent 
savings in manpower, which would save the FAA approximately $2M each 
year, with concurrent improvements in services. Later this summer 
(2006) the NWS is planning to conduct field tests to address the FAA 
request.

    Question 26. Have you or FAA calculated the risks to the flying 
public of taking this step? How will this affect capacity of the 
National Air Space?
    Answer. The demonstration project outlined in response to question 
25 (above) will provide information for the FAA to make that 
determination. However NWS believes the prototype demonstration project 
will show a strengthening of the forecast process and an overall 
improvement in the consistency, relevancy and accuracy of the weather 
information provided, therefore, enhancing the safety and capacity of 
the National Air Space.

    Question 27. Please provide copies of any correspondence to or from 
the FAA on this issue.
    Answer. Please see attached correspondence.

                               Attachment
         U.S. Department of Commerce, National Oceanic and 
       Atmospheric Administration, National Weather Service
                         Silver Spring, Maryland, November 10, 2005

Mr. Michael J. Sammartino,
Director of System Operations,
System Operations Services (AJR-1),
Federal Aviation Administration,
Washington, DC.

    Dear Mr. Sammartino:

    Thank you for your letter of September 23, 2005, outlining FAA's 
requirements for restructuring the Center Weather Service Units (CWSU).
    This past August, I charged three teams to: Develop an 
Organization-wide Concept of Operations, Consolidate Data-level IT 
Management, and Secure the NWS Role in the Provision of Aviation 
Products and Services. As you know, Kevin Johnston is leading the 
Aviation Team. This team will deliver their final proposal to me and 
the NWS Corporate Board in mid-December 2005. The requirements you 
provided are being addressed in this plan.
    Together, we will need to work hand-in-hand to ensure we implement 
our recommended plan. To that end, let's plan to meet before the end of 
the year to discuss the plan and the path forward. I will have Kevin 
arrange the meeting.
        Sincerely,
                                          David L. Johnson,
         Assistant Administrator for Weather Services and Director.
                                 ______
                                 
                            Federal Aviation Administration
                                 Washington, DC, September 23, 2005
Gen. D.L. Johnson,
Assistant Administrator for Weather Services,
National Weather Service/NOAA,
Silver Spring, MD.

Re: (1) E-mail from J. Kies/AAT to DL Johnson/NWS (8/25/04)

    Dear Gen. Johnson:

    The delivery of weather services is vitally important for air 
traffic strategic planning and tactical decisions that maintain safe 
and efficient operations of the National Airspace System (NAS). These 
services are needed at the national, regional, and local level.
    The Center Weather Service Units (CWSUs) that are collocated at FAA 
field sites are the primary point of delivery for aviation weather 
services. They have the potential to be an essential linkage between 
weather services and the operators and managers of the NAS. After 25 
years of operations, and in response to many forces for change, the 
time has come to modernize the organization and functions of the CWSUs. 
Ref. (1).
    The goal is to substantially improve the capabilities for delivery 
of aviation weather information and to transform the current collection 
of isolated units into a national program for weather support to FAA 
field sites. The needs that are stated here are intended to transform 
and restructure weather services into a national program with a new 
mission, national standards, new forecast products, and substantially 
improved services. Implicit in this restructuring the need for 
consolidation of the existing CWSUs.
    Our user needs are listed in Section 4 of the report, Statement of 
User Needs. The changes that are required may be summarized, as 
follows:
    Location: Consolidate the current 20 CONUS units into a smaller 
number of sites; at this time Alaska may continue to operate a CWSU at 
Anchorage Air Route Traffic Control Center (ZAN).
    Mission: Maintain continuous surveillance of adverse weather that 
has potential to affect any phase of flight within the NAS; provide 
timely forecasts and warnings of hazardous weather to air traffic 
management throughout the transition between strategic decisions and 
tactical adjustments; deliver forecast products and services 24 hours 
per day, 7 days per week.
    Standards: Establish a new concept of operations that addresses the 
new mission and incorporates uniform national standards, but allows 
flexibility to adjust to local needs.
    Products:

        1. Hub forecasts out to 8 hours in advance, updated hourly for 
        select terminals (approximately 35) including estimates of 
        capacity.

        2. Hub advisories for hazardous weather, 1 hour in advance.

        3. TRACON forecasts, including estimates of capacity.

        4. TRACON advisories for hazardous weather, 1 hour in advance.

        5. Route forecasts including estimates of capacity.

        6. Contributions to the Collaborative Convective Forecast 
        Product (CCFP) as a priority during the summer convective 
        season.

    Services: Due to consolidation and not being collocated with all 
FAA field sites, there is a need to develop and deploy remotely a 
capability for an interactive weather briefing.
    Collaboration and Dissemination: Forecasts and Advisories need to 
be delivered to TMUs in Centers and TRACONs (and some ATCTs) within 
each area of responsibility. Collaboration with other centers and 
national centers is expected.
    Resources: Investment analysis conducted by the FAA has 
demonstrated that restructured CWSU products and services can be 
provided while reducing personnel costs by 20 percent with a cost 
savings of approximately $2M/year in personnel costs alone.
    Training: Coursework is needed on traffic flow management (TFM); 
likewise on-the-job training at ARTCCs and the Air Traffic Control 
System Command Center (ATCSCC), and training presentations at ARTCCs 
and TRACONs are needed.
    This summary of FAA needs for weather services is an opportunity to 
propose solutions. We encourage the National Weather Service (NWS), as 
our current provider of weather products and services, to propose a 
response to these needs that would substantially improve the level of 
aviation weather services provided by the CWSUs to FAA operational 
facilities.
        Sincerely,
                                     Michael J. Sammartino,
  Director of System Operations, System Operations Services (AJR-1)

    Question 28. Advances in cloud ceiling measurement technology may 
provide a new way of making aviation safer and more efficient. You have 
already made a significant investment in this approach, but have not 
adopted its use--why not? What are the estimated benefits of such a 
technology to aviation safety and efficiency? What are the other 
potential returns on investment?
    Answer. While the National Weather Service (NWS) continues to look 
at advances in technology, operational requirements for observations 
are driven by the Federal Aviation Administration (FAA). Newer 
technologies can be brought into operation as older equipment is 
replaced, but NWS will focus on meeting FAA requirements for 
observations.
Ballast Water Management
    Question 29. From the zebra mussel fouling the facilities and 
shores of the Great Lakes, to the noxious algae that choke the coral 
reefs of Hawaii, aquatic invasive species pose a serious threat to 
delicate marine ecosystems and human health. The economic costs are 
also staggering--the direct and indirect costs of aquatic invasive 
species to the economy of the United States amount to billions of 
dollars each year.
    Managing invasive species in ballast water is a top priority 
nationwide. Aquatic invasive species are costing states millions of 
dollars annually. The U.S. Ocean Commission recommended specific action 
on this problem, and cited the need to require treatment of ballast 
water. Yet the President's budget request would zero out NOAA's ballast 
water demonstration project, which provides grants for developing 
promising new treatment technologies. Why?
    Answer. Ballast water is the most significant pathway for 
introduction of aquatic invasive species into coastal waters, and NOAA 
recognizes its specific statutory responsibilities to develop new 
ballast water management technologies. Instead of including a specific 
request for the NISA/Ballast Water Demonstration Project, the FY 2007 
President's budget requests $2.5M for the Aquatic Invasive Species 
Program. This Program focuses on a broad range of invasive species 
prevention and control activities, which will include oversight of 
ballast water treatment technology development in FY 2007.
    The President's FY 2007 budget requests a total of $5.7M to 
continue NOAA's valuable work to combat invasive species, through the 
Aquatic Invasive Species Program, Great Lakes Environmental Research 
Laboratory, and National Sea Grant College Program. This funding will 
support research relating to the prevention and control of ballast 
water invasive species introductions.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                Vice Admiral Conrad C. Lautenbacher, Jr.

Cuts in Marine Mammal Research Funding and Southern Resident Orcas
    Question 1. After a 17 percent decline in less than a decade, the 
Puget Sound Southern Resident orca was placed on the Federal endangered 
species list in November of 2005. As a keystone species, orcas are an 
indicator of ecological health and a critical component of the Puget 
Sound ecosystem. Therefore, understanding the reasons for the continued 
decline of orcas in Puget Sound is not only a prerequisite for 
effective protection, but will also provide scientists with information 
about the overall health of the Puget Sound ecosystem.
    In NOAA's FY 2007 budget, $18.883 million in funding for Marine 
Mammals is terminated from the National Marine Fishery Service's 
Protected Species Research and Management Program, continuing a recent 
downward trend in the budget since 2005 (FY 2005: $81.504 million 
enacted, FY 2006: $40.212 million enacted, FY 2007: $23.110 million 
requested).
    Will NOAA's FY 2007 budget request provide adequate funds for NOAA 
Fisheries to meet its statutory obligations to protect the Puget Sound 
Southern Resident orca under the Marine Mammal Protection Act and the 
Endangered Species Act?
    Answer. The FY 2007 President's budget request includes $400,000 
for conservation and recovery of the Puget Sound orca population. Given 
the need to prioritize, we will likely focus on those activities having 
a statutory mandate and for which hard deadlines are imposed, such as 
completing section 7 consultations and critical habitat designation. We 
look forward to working with Congress, other Federal agencies, and the 
interested public as we decide how to allocate limited resources.

    Question 1a. Over the last 4 years, Congress at my request has 
appropriated $5.25 million for research to understand the reasons 
behind a decade-long decline in Puget Sound's Southern Resident orca 
population. Now that the Southern Resident orca has been listed as 
``endangered'' under the ESA, how will the information gained from 
these funds be used to inform further recovery efforts and the 
development of a required conservation plan?
    Answer. The $5.25 million enacted over the past 4 years for 
Southern Resident killer whales has enabled us to develop a 
conservation plan and immediately implement several conservation 
actions. This funding was used to engage resource managers, industry, 
researchers, orca advocacy groups, and concerned citizens to develop a 
Proposed Conservation Plan under the MMPA, identifying actions 
necessary to restore the population. The Conservation Plan is being 
updated with new research results and incorporating public comments and 
it will be revised to become an ESA Recovery Plan now that Southern 
Resident orca population is listed under the ESA.
    With the funding provided for the past several years, various long-
term research projects have been initiated to help us understand the 
threats that may be responsible for the Southern Residents' decline. 
Research results have already provided guidance for our immediate 
conservation actions. This funding has also allowed us to increase on-
water enforcement and raise awareness about responsible whale watching.
    In addition, high levels of newly emerging contaminants, such as 
flame retardants, have been documented in killer whales and their prey 
species. These findings have increased awareness about impacts from 
pollution on declining species and our environment, provided 
information pertinent to human health issues, and are included in 
initiatives by the Washington Governor's Office to clean up and protect 
Puget Sound.

    Question 1b. In the FY 2007 President's budget, $18.883 million in 
funding for marine mammals is terminated from the National Marine 
Fishery Service's Protected Species Research and Management Program. 
Please describe the impact that this reduction would have on existing 
NOAA programs?
    Answer. The FY 2007 President's request terminates $18.9 million in 
Congressionally-directed funds. Funding that will be terminated as part 
of the request under marine mammal activities includes the following 
lines: the Mississippi Center for Marine Education and Research 
($4.931M), Mississippi Institute for Marine Mammal Studies ($2.466M), 
Shedd Center for the Great Lakes ($247K), North Pacific Fixed Gear 
Research ($148K), Marine Mammal Initiative ($4.931M), Right Whale 
Activities ($1.913M; NMFS FY 2007 request for this line is below the 
enacted level), and Bottlenose Dolphins ($1.972M). The FY 2007 
President's budget request sufficiently funds our base programs.
    We have requested an increase for some of the base marine mammal 
activities, which is included in the Protected Species Research and 
Management Programs line (part of the $5.825 million increase). 
Although the overall net request is lower than the FY 2006 enacted 
level, NOAA will be able to address its mandates within the context of 
other competing agency priorities.

    Question 1c. Is the current level of funding for marine mammals in 
NOAA's FY 2007 budget adequate to meet the obligations for protection 
of newly-listed Southern Resident Orcas under the ESA?
    Answer. The FY 2007 President's Budget request includes $400,000 
for conservation and recovery of the Puget Sound orca population. Given 
the need to prioritize, we will likely focus on those activities having 
a statutory mandate and for which hard deadlines are imposed, such as 
completing section 7 consultations and critical habitat designation. We 
look forward to working with Congress, other Federal agencies, and the 
interested public as we decide how to allocate limited resources.

    Question 1d. With such a drastic cut of funding, what other 
programs will likely be terminated with this funding request level?
    Answer. Activities using funding from these lines that will be no 
longer be continued include some North Pacific Southern Resident orca 
research, a portion of the ESA right whale activities focused on ship 
strike and entanglement reductions, and marine mammal health and 
stranding response activities funded under the Marine Mammal 
Initiative. Some activities currently funded with the Congressionally-
directed Marine Mammal Initiative are requested as part of the increase 
in the Protected Species Research and Management line for stock 
assessments, marine mammal permitting, take reduction planning, and 
recovery planning and implementation.

ESA Orca Recovery Planning
    Question 2. The $1.5 million Congress appropriated in FY 2006 for 
Puget Sound orca research was cut along with many other important 
programs. However, because of the recent listing of the Southern 
Resident orca population as ``endangered'' under the ESA, NOAA did 
request money to pay for the recovery planning process. A total of $2.8 
million was requested for a general fund in the Protected Species 
Research and Management Program to address recovery planning for 
several different species, orca being one of them.
    Can you tell me how much of that $2.8 million will go to orca 
recovery planning? What exactly will be accomplished with this money?
    Answer. The FY 2007 President's budget request includes $400,000 
for conservation and recovery of the Puget Sound orca population. Given 
the need to prioritize, we will likely focus on those activities having 
a statutory mandate and for which hard deadlines are imposed, such as 
completing section 7 consultations and critical habitat designation. We 
look forward to working with Congress, other Federal agencies, and the 
interested public as we decide how to allocate limited resources.

    Question 2a. While recovery planning is certainly an important 
element of meeting ESA obligations, what comes next for restoring 
Southern Resident orcas? Where will the money come for this? What 
actions will NOAA take in response to this ESA listing?
    Answer. Both our general authorities and the Endangered Species Act 
provide a number of tools for NOAA to recover killer whales. Even 
before the listing, the agency mounted an intensive and extensive 
outreach program called ``Be Whale Wise'' to educate boaters in Puget 
Sound about the importance of avoiding killer whales. We coordinated 
this education campaign with Canada, whose inland waters are also home 
to the whales, and with Washington State, which enforces a number of 
laws and regulations in inland waters. In the future we may wish to 
adopt mandatory regulations to keep vessels a safe distance from the 
whales.
    With listing under the ESA, we have additional tools to aid 
recovery. Federal agencies taking actions that may affect the whales 
are required to consult with NMFS to ensure those actions are not 
likely to jeopardize the whales. Once we complete critical habitat 
designations (we anticipate proposing designation shortly), those 
consultations will also help ensure Federal actions are not adversely 
modifying the whale's critical habitat. Also with listing, Southern 
Resident killer whales are afforded ESA protections on top of the MMPA 
protections. NOAA enforcement officials are working closely with 
Washington State, which has a major enforcement presence in inland 
waters, to enforce the take prohibition.

    Question 2b. Do NOAA offices in Seattle have sufficient funding and 
staffing resources to handle any additional responsibilities associated 
with what is likely to be an increased workload due to this listing?
    Answer. The ESA listing just took effect and consultation requests 
are just beginning to arrive. We will be looking at these consultation 
requests in conjunction with other requirements and will prioritize 
them within our current resources.
Pacific Salmon Recovery
    Question 3. In 2000, NOAA established The Pacific Coastal Salmon 
Recovery Fund (PCSRF) to augment state, tribal and local programs to 
conserve and restore sustainable Pacific salmon populations and their 
habitats. Money from the PCSRF goes toward salmon restoration in 
Alaska, Washington, Idaho, Oregon and California. From 2000-2005, 
Congress appropriated on average $87.4 million per Fiscal Year to the 
PCSRF. Of this, Washington State received on average $26.8 million per 
Fiscal Year to fund critical salmon recovery projects. Since 2001, 
funding of the PCSRF had never dipped below $88 million.
    However, FY 2006 appropriations marked a dramatic reduction in 
program funding. Despite an initial request of $90 million and support 
in the Senate for full appropriations of this figure, debate in the 
House slashed funding to $67.5 million--nearly a 30 percent cut. The 
President's FY 2007 request of $66,825,000 is the lowest in 6 years and 
risks continued reductions to this program.
    Given the listing of the Southern Resident orca population, erosion 
of salmon funding could not have come at a worse time. Salmon are the 
dietary foundation of Southern Resident orcas. Dwindling salmon runs, 
especially Chinook salmon, it is speculated, could be a factor leading 
to declining orca populations.
    Please explain the logic behind NOAA's budget request of $68.825 
million for the Pacific Coastal Salmon Recovery Fund. What specific 
programs will be decreased or eliminated by these cuts? If this budget 
level is appropriated, how will it affect NOAA's salmon recovery 
performance metrics? What about it's PART score?
    Answer. In 2000, Congress established the Pacific Coastal Salmon 
Recovery Fund (PCSRF). The FY 2006 President's request for the Pacific 
Coastal Salmon Recovery Fund (PCSRF) was $90 million--Congress enacted 
$66.571 million. The FY 2007 President's request is in line with the 
Congressional conclusion that the FY 2006 enacted level is sufficient 
to continue the program. This FY 2007 requested level would be 
sufficient only to address ESA-listed stocks. Funding would not be 
available for non-ESA listed stocks. This request level will not have a 
negative impact on NOAA's salmon recovery performance metrics or its 
PART score.

    Question 3a. Does it make sense to cut Salmon restoration funding 
just as we need to be thinking about new ways to protect Southern 
Resident orcas? A 2005 report from Fisheries and Oceans Canada \1\ 
strongly correlates periods of decline in Chinook salmon population 
numbers with Southern Resident orca mortality. Can you please comment 
on this report in light of cuts to the PCSRF and the recent listing of 
the Southern Resident orca population to the ESA?
---------------------------------------------------------------------------
    \1\ Ford, John K.B.; Ellis, Graeme M.; and Olesiuk, Peter F. 2005. 
Linking prey and population dynamics: Did food limitation cause recent 
declines of ``resident'' killer whales (Orcinus orca) in British 
Columbia? Report published by Fisheries and Oceans Canada. Available 
online at http://www.dfo-mpo.gc.ca/csas/.
---------------------------------------------------------------------------
    Answer. Although reduced salmon as prey for orcas is an area of 
concern, more research is needed to determine direct relationships 
between the abundance of certain salmon populations and the status of 
resident killer whales. The PCSRF is maintaining its goal to increase 
salmon and steelhead, and this will benefit the whales.

    Question 3b. How will these cuts affect recent changes to Federal 
salmon recovery priorities?
    Answer. We will be working with the states to prioritize projects 
and recovery needs within the funding provided.

    Question 3c. How will these cuts affect our Nation's treaty 
obligations to federally-recognized tribes?
    Answer. The proposed reductions would not adversely affect our 
Nation's treaty obligations to federally-recognized tribes.

    Question 3d. How will these cuts impact commercial fishing in the 
Pacific Ocean?
    Answer. The cuts will not impact commercial fishing in the Pacific 
Ocean, as commercial fisheries are not directly impacted by the PCSRF 
funds. But over time, as salmon habitat is improved, we expect to see 
increased productivity of habitat resulting in more salmon for harvest 
in the ocean, which will aid commercial fishing.

Tsunamis
    Question 4. In response to the 2004 Indian Ocean tsunami, the Bush 
Administration pledged $37.5 million toward expanding the U.S. Tsunami 
Warning Program to protect lives and property along all U.S. coasts. 
The FY 2007 budget request includes a $14.399 million increase in 
funds, from $6.016 million enacted in FY 2006 to $20.415 million 
requested in FY 2007, for the National Weather Service to strengthen 
the U.S. Tsunami Warning Network. While tsunamis continue to threaten 
our coasts, warning networks provide the critical time needed to 
evacuate vulnerable areas and protect human life.
    I'm pleased to see the Administration follow through on their $37.5 
million pledge to get the Nation moving in the right direction with 
respect to tsunami preparedness. In the aftermath of the Indian Ocean 
tsunami, it became abundantly clear that a similar tsunami could 
devastate our own shores. What has the last 2 years of funding bought 
us in terms of preparedness? I'm wondering if you can give specific 
examples of how these funds have been spent to reduce the risk to human 
life from tsunamis. Have the number of ``TsunamiReady'' coastal towns 
increased? Has response time to a warning decreased?
    Answer. NOAA, working in partnership with the U.S. Geological 
Survey (USGS), has made significant progress in implementing the 
Administration's commitment to strengthen the Nation's Tsunami Warning 
Program. NOAA implemented 24/7 operations at its Tsunami Warning 
Centers to provide quicker warnings. Expansion of the DART tsunami 
warning buoy network down the Pacific Coast has also added to each 
Center's ability to quickly assess tsunami potential. Increased 
emphasis on community participation has increased the number of 
TsunamiReady locations to 28, which is an 80 percent increase since 
December 2004. NOAA has accelerated mapping and forecast modeling 
efforts, and expanded the collection of bathymetric data in vulnerable 
coastlines. The additional funding has allowed the number of completed 
models to be increased from 3 to 9. By the end of FY 2006, we are 
scheduled to complete 8 additional models, for a total of 17. The 2007 
budget requests funding for an additional 9 models to be added, and the 
forecast operating system software will be transferred to the Tsunami 
Warning Centers.
    The corresponding funding increase for USGS is being used to 
improve seismic monitoring and information delivery from the Advances 
National Seismic System (ANSS) and the Global Seismographic Network 
(GSN), which is jointly funded and operated by USGS, the National 
Science Foundation, and the IRIS Consortium. Funds are also used to 
improve understanding of historical tsunamis and their effects. The 
USGS has implemented 24/7 operations at the National Earthquake 
Information Center; made telemetry improvements to the GSN and expanded 
that network in the Caribbean; provided enhanced delivery of data to 
NOAA's Tsunami Warning Centers through new hardware and software 
investments; and has begun work to enhance tsunami inundation mapping 
in the Caribbean, Atlantic, and Gulf of Mexico.

    Question 4a. What gaps remain and what will they cost?
    Answer. The FY 2007 budget request continues the Administration's 
commitment to strengthen the U.S. Tsunami Warning Program. NOAA has 
expanded and accelerated its tsunami inundation, mapping, modeling and 
forecast efforts as well as its TsunamiReady (tsunami mitigation) 
programs thanks in part to supplemental emergency funding requested by 
the Administration and provided by Congress in FY 2006. These funds are 
being used to leverage a larger coastal survey effort at NOAA and 
targeting coastlines where to improve data on hazard assessment, 
including the coastlines of Puerto Rico and Alaska. NOAA is continuing 
to accelerate and expand the coverage and quality of modeling and 
mapping efforts by NOAA and its Federal and state partners through the 
National Tsunami Hazard Mitigation Program. While the overarching focus 
of this modeling and mapping effort embraces the three integrated 
components of the National Tsunami Hazard Mitigation Program: (1) 
Improving Tsunami Warning Guidance; (2) Improving Tsunami Hazard 
Assessment; and (3) Improving Tsunami Mitigation, financially NOAA's 
initial efforts to strengthen the U.S. Tsunami Warning System have been 
on improving tsunami warning guidance. This has included expanding 
NOAA's DART station network, expanding/upgrading NOAA's sea-level 
reporting network, expanding/upgrading NOAA's seismic networks and 
upgrading the operations of NOAA's two Tsunami Warning Centers to 24/7 
operations. Funds provided to USGS have lead to improved global 
earthquake detection and faster reporting of earthquake data for 
tsunami warning.

    Question 4b. How will ongoing efforts at the Pacific Marine 
Environmental Laboratory be enhanced by increased funding?
    Answer. NOAA's Pacific Marine Environmental Laboratory (PMEL) is an 
integral component in NOAA's program to strengthen the U.S. Tsunami 
Warning Program. The President's FY 2007 budget request includes an 
increase of $0.3M (and 3 FTEs) for PMEL to manage the program's 
expanded tsunami inundation, mapping and forecast efforts for all U.S. 
communities at risk and accelerate the development of the fundamental 
scientific and technical products and detection systems essential to 
improve tsunami forecast coverage and data needed for rapid and 
reliable tsunami warnings.
    PMEL will also receive $2M to continue implementation of NOAA's 
tsunami inundation mapping, modeling and forecast efforts and will 
continue to receive research and development funding to improve DART 
buoy reliability, cost-effectiveness and capabilities ($0.5M). These 
activities are funded at the same level as FY 2006.

    Question 4c. What is the current timeline for development of more 
deep water detection buoys off the Pacific Coast? Have all existing 
buoys been fully functional this past Fiscal Year?
    Answer. There are four DART stations off the United States West 
Coast. This is the final number planned for this area. The two 
northernmost buoys (off Washington and Oregon) had their mooring lines 
severed (most likely by long line fishermen) in November and February, 
respectively. Both were restored to operational status in mid-April.
    There are currently 14 operational DART stations and one non-
operational station. The non-operational DART station is in the far 
western Aleutian; its surface buoy is adrift. This station is scheduled 
for a July/August 2006 service visit; during this Alaska cruise, four 
new DART stations will be deployed in the North Pacific.
    NOAA will continue to deploy DART stations until early 2008, at 
which time there will be a total of 39 DART stations in the United 
States: 32 in the Pacific and 7 in the Atlantic/Caribbean Sea.

Climate Change and Hurricane Controversy
    Question 5. The FY 2007 NOAA budget proposal has aggregated all 
climate research funding into one line with no detail on science 
funding in the documents submitted to Congress, but the budget 
indicates it has eliminated funding for research on abrupt climate 
change. Recent allegations of political manipulation of climate and 
other science, as well as the Administration's refusal to comply with 
the 1990 Act's requirement to conduct a national climate assessment, 
have generated concern not only over fiscal support for the programs at 
NOAA but also over the focus of such research and the role the White 
House plays in setting scientific priorities.
    NOAA has recently come under fire in the press and the scientific 
community for taking a strong position denying that climate change 
impacts the intensity and frequency of hurricanes in the Atlantic and 
Gulf of Mexico. Two recent studies published in the journals Nature and 
Science by well-respected climate scientists have suggested that there 
may indeed be a link between global warming and an upward trend in the 
destructive potential, or intensity, of tropical cyclones.
    While I'm pleased to see increases in FY 2007 program funding for 
Climate Research Labs, Climate Data and Information, the Competitive 
Climate Research Program, and Climate Operations, I am concerned about 
some of the cuts related to climate change.
    Given the debate over whether or not climate change is contributing 
to the intensity and frequency of hurricanes, it seems clear to me that 
more research is needed on the links between abrupt climate change, 
hurricane intensity, and the impacts to our coastal communities. The 
billions of dollars spent in the aftermath of hurricanes Katrina and 
Rita show just how expensive ignoring coastal vulnerability to natural 
disaster, climate change-driven or not, can be. Could you please 
explain to me the logic behind cutting funding for Abrupt Climate 
Change Research and Coastal Vulnerability to Climate Change?
    Answer. Instead of including funding for the ``Abrupt Climate 
Change Research'' and ``Coastal Vulnerability to Climate Change'' 
programs, the President's FY 2007 budget requests $5.0 million within 
five base programs for research. For example, the Climate and Global 
Change Program, Ocean Observations, and Carbon Cycle Observations, are 
three of these are programs through which NOAA describes and assesses 
the likelihood of environmental changes to cause the climate system to 
abruptly switch to a drastically different state. The President's 
request for these programs is included in the budget for the Office of 
Oceanic and Atmospheric Research/Climate Research/Competitive Research 
and the National Environmental Satellite, Data and Information Service 
World Data Center for Paleoclimatology. NOAA's research on abrupt 
climate change generates paleo-climate data sets such as ice cores, 
corals, tree rings, and ocean and lake sediments, interprets them and 
evaluates what additional observations are needed to detect early 
warnings of a possible abrupt climate change. The Global Ocean 
Observing System contributes to NOAA's abrupt climate change work by 
providing critical information on the role of the ocean in climate and 
the rate of climate change through changes in heat storage. The ocean 
data will be used to monitor key locations in the ocean for signs of 
possible abrupt climate change. NOAA also performs climate 
reconstruction in partnership with a NOAA Joint Institute at Columbia 
University Lamont-Doherty Earth Observatory to model climate over the 
past 2,000 years and identify abrupt changes.

    Question 5a. Admiral, do you believe recent record average 
temperatures are linked in any way to human activity? Please describe 
these linkages.
    Answer. In 2001, the National Research Council (NRC) released a 
climate change report which stated that, ``Greenhouse gases are 
accumulating in Earth's atmosphere as a result of human activities, 
causing surface air temperatures and subsurface ocean temperatures to 
rise. [Global Average] Temperatures are, in fact, rising. The changes 
observed over the last several decades are likely mostly due to human 
activities, but we cannot rule out that some significant part of these 
changes is also a reflection of natural variability.'' I believe the 
NRC statement holds true today. Human activities are playing a role in 
recent increases observed in the temperature record, but the questions 
we have not answered include: How much of this observed warming is due 
to human activities? How fast and how large will future changes be? 
What are the most effective strategies for mitigating this effect? Is 
this observed change reversible?
    The 2003 Climate Change Science Program Strategic Plan cites the 
results of the 2001 NRC report, acknowledges the fact that human 
activities influence climate change, and seeks to answer the tough 
questions that include understanding the impacts of human activities 
(e.g., greenhouse gas emissions, methane, urban pollution, aerosols, 
etc.) on the entire climate system.
    I believe it is clear that humans are influencing the climate 
system (including observed temperature increases), and NOAA and the 
CCSP as a whole are aiming to parse out the level of human impacts 
verses natural variability. Significantly more important research is 
yet to be done.

    Question 5b. What is NOAA's official position on the link between 
global warming and the frequency and intensity of Gulf Coast 
hurricanes?
    Answer. NOAA does not have an official position on the link between 
global warming and the frequency and intensity of Gulf Coast 
hurricanes. In comparison to the two previous decades, the 2005 
Atlantic hurricane season was more active, e.g., we experienced more 
hurricanes and more intense hurricanes. Data from before 1970 indicate 
earlier decades (1940s-1960s) that were as active as the recent one. 
The strong natural decadal variations, as well as changes in data 
quality, density, sources, and methodologies for estimating hurricane 
strengths, lie at the heart of arguments whether or not a global 
warming contribution to a trend in tropical cyclone intensities can be 
detected. The lack of understanding of natural decadal variability 
precludes definitive statements about how long the current active 
period will last. Hurricanes respond to a variety of environmental 
factors besides local ocean temperatures and atmospheric conditions. 
Climate impacts from outside the Atlantic basin can also dominate the 
forcing, e.g., El Nino and La Nina. NOAA recognizes that only 
improvements to data sets, diagnostic studies for improved 
understanding, and systematic numerical experimentation studies will 
reveal the underlying causes for the recent active period and for how 
long this period will last.
    NOAA has several research, modeling, and operational activities 
ongoing to increase our understanding of this possible linkage:

  <bullet> National Weather Service (NWS)/National Centers for 
        Environmental Prediction (NCEP)/Climate Prediction Center--
        intraseasonal to multi-season climate forecasts; seasonal 
        hurricane forecasts; diagnostic studies of major climate 
        anomalies; real-time monitoring of climate.

  <bullet> NWS/NCEP/Tropical Prediction Center/National Hurricane 
        Center--operational hurricane forecasts.

  <bullet> National Environmental Satellite, Data and Information 
        Service/National Climatic Data Center--official archive for 
        climate data sets; analyses of climate trends.

  <bullet> Office of Oceanic and Atmospheric Research (OAR)/Atlantic 
        Oceanographic and Meteorological Laboratory/Hurricane Research 
        Division & Physical Oceanography Division--physical 
        understanding of hurricane dynamics through use of research 
        aircraft and field studies; improvements to hurricane track and 
        intensity forecasts; monitoring of Atlantic Ocean circulations; 
        studies of Atlantic climate.

  <bullet> OAR/Geophysical Fluid Dynamics Laboratory--studies of 
        climate variability and change; development and use of the 
        required climate models; development of models used for 
        operational hurricane forecasts by NOAA and the Navy; numerical 
        studies of climate impacts on hurricanes and their decadal 
        variability.

  <bullet> OAR/Climate Program Office--intramural and extramural 
        support for development of a predictive understanding of the 
        climate system, the required observational capabilities, 
        delivery of climate services.

    Question 5c. Have any NOAA, or NOAA-funded, scientists written 
peer-reviewed articles that may in any way be interpreted as making a 
link between global warming and the frequency and intensity of Gulf 
Coast hurricanes? Please list those articles and relevant passages.
    Answer. (1) Knutson and Tuleya, 2004; ``Impact of CO<INF>2</INF>-
induced warming on simulated hurricane intensity precipitation: 
Sensitivity to the choice of climate model and convective 
parameterization'' (http://www.gfdl.noaa.gov/reference/bibliography/
2004/tk0401.pdf) NOTE: This article does not address the Gulf 
specifically, but it does show the simulation results showing a slight 
increase in intensity and precipitation.
    Abstract: ``Previous studies have found that idealized hurricanes, 
simulated under warmer, high-CO<INF>2</INF> conditions, are more 
intense and have higher precipitation rates than under present-day 
conditions. The present study explores the sensitivity of this result 
to the choice of climate model used to define the CO<INF>2</INF>-warmed 
environment and to the choice of convective parameterization used in 
the nested regional model that simulates the hurricanes. Approximately 
1,300 five-day idealized simulations are performed using a higher-
resolution version of the GFDL hurricane prediction system (grid 
spacing as fine as 9 km, with 42 levels). All storms were embedded in a 
uniform 5 m s21 easterly background flow. The large-scale thermodynamic 
boundary conditions for the experiments--atmospheric temperature and 
moisture profiles and SSTs--are derived from nine different Coupled 
Model Intercomparison Project (CMIP21) climate models. The 
CO<INF>2</INF>-induced SST changes from the global climate models, 
based on 80-yr linear trends from 11 percent yr21 CO<INF>2</INF> 
increase experiments, range from about 10.88 to 12.48C in the three 
tropical storm basins studied. Four different moist convection 
parameterizations are tested in the hurricane model, including the use 
of no convective parameterization in the highest resolution inner grid. 
Nearly all combinations of climate model boundary conditions and 
hurricane model convection schemes show a CO<INF>2</INF>-induced 
increase in both storm intensity and near-storm precipitation rates. 
The aggregate results, averaged across all experiments, indicate a 14 
percent increase in central pressure fall, a 6 percent increase in 
maximum surface wind speed, and an 18 percent increase in average 
precipitation rate within 100 km of the storm center. The fractional 
change in precipitation is more sensitive to the choice of convective 
parameterization than is the fractional change of intensity. Current 
hurricane potential intensity theories, applied to the climate model 
environments, yield an average increase of intensity (pressure fall) of 
8 percent (Emanuel) to 16 percent (Holland) for the high-CO<INF>2</INF> 
environments. Convective available potential energy (CAPE) is 21 
percent higher on average in the high-CO<INF>2</INF> environments. One 
implication of the results is that if the frequency of tropical 
cyclones remains the same over the coming century, a greenhouse gas-
induced warming may lead to a gradually increasing risk in the 
occurrence of highly destructive Category 5 storms.''

    (2) The Geophysical Fluid Dynamics Laboratory Climate Change and 
Hurricanes Web Site lists additional relevant references: http://
www.gfdl.noaa.gov/tk/glob_warm_hurr.html.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
